No.

IN THE SUPREME COURT OF THE UNITED STATES

Alex G. Leone,
Applicant,

v.

Essex County Prosecutor’s Office,
Theodore Stephens II,
Romesh Sukhdeo,
Gwendolyn Williams, and
Roger Imhof,
Respondents.

To the Honorable Samuel A. Alito, Jr.,
Associate Justice of the United States Supreme Court and
Circuit Justice for the Third Circuit
APPENDIX TO EMERGENCY APPLICATION

Alex G. Leone
P.O. Box 1274
Maplewood, New Jersey 07040
aleone@jdl6.Iaw.harvard.edu
(973) 327-3970

Dated: September 29, 2021

i

TABLE OF CONTENTS
Document

Page

Complaint- 2:21-cv-12786-SDW-ESK (D.N.J. June 18,2021)................

..App. 1

Exhibit A - Request for Religious Accommodation (April 26,2021).....

.App. 20

Exhibit B - Typed Text of Request (April 26,2021)................................

.App. 24

Exhibit C - Email from Applicant (May 6,2021).................................... .

.App. 26

Exhibit D - Memorandum from Respondents (May 12,2021).................

.App. 29

Exhibit E - Response Memorandum from Applicant (June 1, 2021)..... .

.App. 33

Exhibit F - Reply Memorandum from Respondents (June 9,2021).........

.App. 44

Exhibit G - Emails Between Parties (June 10,2021)...............................

.App. 46

Notice of Motion for Preliminary Injunction (July 30,2021)....................

App. 51

Brief Supporting Motion (July 30,2021)..................................................

.App. 52

Exhibit A - Declaration of Applicant Supporting Motion (July 30, 2021)...... App. 69
Exhibit B - Letter from Applicant to Respondents’ Counsel (June 22, 2021)...App. 72
Exhibit C - Email re Respondents’ Schedule Change (July 26, 2021)

...App. 74

Proposed Order (July 30,2021)..........................................................

...App. 76

Letter to the District Court from Applicant (August 12,2021)............

..App. 77

Exhibit A - Letter from Counsel for Respondents (August 11,2021)..

...App. 78

Respondents’ Brief Opposing Motion (August 24,2021)......................

...App. 82

Exhibit A - State Judiciary Press Release (May 11,2021)...................

.App. 108

Exhibit B - “Certification” of Respondent Imhof (August 24,2021)...

.App. 116

Reply Supporting Motion (August 31,2021).........................................

.App. 121

District Court Hearing Transcript (September 7,2021).......................

.App. 150

Order Denying Preliminary Injunction Motion (September 7,2021)...

App. 179

Notice of Appeal (September 7,2021).....................................................

App. 181

Emergency Motion in Court of Appeals (No. 21-2684)
for Injunction Pending Appeal (September 14,2021)...............

....App. 183

Respondents’ Brief Opposing Motion (September 20,2021).................

....App. 213

Orders Denying Emergency Motions (September 22-23,2021)............

App. 248-51

ii

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 1 of 19 PagelD: 1

UNITED STATES DISCTICT COURT
DISTRICT OF NEW JERSEY
x

ALEX G. LEONE,

COMPLAINT

Plaintiff,

JURY TRIAL DEMAND

v.

ESSEX COUNTY PROSECUTOR’S OFFICE,
THEODORE STEPHENS II,
ROMESH SUKHDEO,
GWENDOLYN WILLIAMS,
and
ROGER IMHOF,
in their individual and official capacities,
Defendants.
x

Alex G. Leone (“Plaintiff’), by way of this Complaint against the Essex County Prosecutor’s
Office, Theodore Stephens II, Romesh Sukhdeo, Gwendolyn Williams, and Roger Imhof
(collectively, “Defendants”), whose address is 50 West Market Street, Newark, New Jersey, says:
Jurisdiction and Venue
1.

The Court has jurisdiction pursuant to 28 U.S.C. § 1331 because this civil action arises
under the First Amendment and 42 U.S.C. § 1983.

The Court has supplemental

jurisdiction over Plaintiffs state-law claim pursuant to 28 U.S.C. § 1367(a) because it
forms part of the same case or controversy. See also N.J.S.A. 10:5-13(a)(2).
2.

Venue is proper in this District pursuant to 28 U.S.C. § 1391(b) because this is the
district in which a defendant resides and a substantial part of the events or omissions
giving rise to Plaintiffs claims occurred in this District.

1
- App. 1 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 2 of 19 PagelD: 2

Parties
3.

Defendant Essex County Prosecutor’s Office (“the ECPO”) is an agency of a political
subdivision of the State of New Jersey and employs Plaintiff.

4.

Defendant Theodore Stephens II is “Acting Essex County Prosecutor;” Romesh
Sukhdeo is “Acting First Assistant Prosecutor;” Gwendolyn Williams is “Executive
Assistant Prosecutor;” and Roger Imhof is “Chief Assistant Prosecutor.” Each is a
high-ranking supervisory official at the ECPO, and each either participated directly in
or ratified the legal violations described herein.

5.

As a political subdivision of a State, or its agency, and its officials, Defendants are state
actors subject to suit under 42 U.S.C. § 1983. See, e.g., Church of the Lukumi Babalu
Aye, Inc. v. City of Hialeah, 508 U.S. 520, 528, 547 (1993).

6.

Defendants are an “employer” governed by the New Jersey Law Against
Discrimination, N.J.S.A. 10:5-1 et seq. (“the NJLAD”). See N.J.S.A. 10:5-5(a) & (e).

7.

Plaintiff is a “Special Deputy Attorney General” or “Assistant Prosecutor” who has
been an employee of Defendants since 2019. See N.J.S.A. 10:5-5(f).
Background

8.

On April 26, 2021, Plaintiff submitted a request for religious accommodation to
Defendants. Ex. A (“the Request for Accommodation” or “the request”).

9.

Plaintiff used Defendants’ form. The form provides a prompt for the “accommodations
description and reason therefore.” In response to that prompt, in the space provided on
the form, Plaintiff handwrote the following:
Work and pray throughout the day at home, to be physically present
at office or court when reasonably necessary or when
accommodating this religious need would cause undue hardship.

2
- App. 2 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 3 of 19 PagelD: 3

Reason: I have a spiritual need to pray in peace and solitude, such
as in my backyard, several times throughout the day. [Exs. A & B.] l
10.

In other words, to avoid foregoing a sincerely-held religious practice, Plaintiff
requested to work and pray from home when doing so would not “cause undue
hardship” for Defendants. Exs. A & B.

11.

In response to the Request for Accommodation, Defendants scheduled a May 6, 2021
“Teams” meeting to discuss the request. (“Teams” is a software that efficiently enables
live audiovisual meetings, with the ability to share screens or documents.)

12.

At the meeting, Plaintiff further explained the request, provided additional information,
and answered all questions of all parties in attendance, including Defendant Imhof and
Defendant Williams.

13.

On request, Plaintiff provided a summary shortly after the meeting, which stated:
I am requesting an accommodation of modifying the
schedule.
Currently, the schedule permits me, during every other
week, to work from home primarily and be physically
present at the office or court when reasonably necessary
(several examples were discussed).
I am requesting that this status quo continue and be extended
from every other week to each week.
The reasons for this request were also covered extensively, but to
reiterate:
I have a spiritual need to pray in peace and solitude, such as
in my backyard, several times throughout the day.
Being physically present in the office interferes with this
necessary religious practice: For instance, it makes me feel
uncomfortable and unable to concentrate, prevents

1
Exhibit B is the relevant text from Exhibit A in typed form. Plaintiffs personal cell phone number and home
address have been redacted from Exhibit A. Defendant Imhof s cell phone number has been redacted from Exhibit
G. Plaintiff respectfully requests that Defendants not publicly disclose Plaintiffs cell phone number or home address;
and that if Defendants intend to do so, they provide notice so that Plaintiff may move for a protective order under Fed.
R. Civ. P. 26(c).

3
- App. 3 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 4 of 19 PagelD: 4

spontaneous spoken prayer, is antithetical to that peace and
solitude, and permits other people to see or hear me.
For the above reasons, potential alternatives that were
considered—such as commuting to a public park or driving
back and forth between my home multiple times throughout
the day—are unworkable.
Please let me know if you need any additional information. [Ex. C.]
14.

That summary accurately reflects the following facts about Defendants’ work
schedules and Plaintiffs religious practice:
Defendants’ Work Schedules

15.

Over the past year, primarily as a result of the pandemic, Defendants have permitted
all or mostly all employees to work from home on various schedules and, when working
from home, to be physically present at their offices or court when reasonably necessary.

16.

A schedule utilized by Defendants is called “A/B,” in which one group of people (e.g.,
the “A” group) works from home during one week while the other group of people
works from the office during that week, with the two groups switching places of work
(home or office) after each week. This is the schedule to which Plaintiff is currently
subject in his ECPO office section (“Financial Crimes and Intellectual Property”) and
has been subject for most of this year (2021).

17.

But during other periods, or for other employees, other schedules applied: For instance,
during December 2020 through January 2021, Plaintiff was permitted to work from
home each week and required to be physically present at the office or court only when
reasonably necessary. And from approximately November and into the present
month (June 2021), at least one entire section of the office (“Adult Trial”) was
permitted to work from home every day, i.e., each week.

4
- App. 4 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 5 of 19 PagelD: 5

18.

Defendants thus provide individualized exemptions that permit some employees to
work from home on some days, or for some reasons, but not others—the opposite of
“uniform application of terms and conditions of attendance.” See N.J.S.A(q)(3)(d)(ii).
Plaintiffs Religious Practice

19.

Plaintiff is a Christian for whom prayer, including spontaneous spoken prayer, is both
required by his religion and essential to all aspects of his life.

20.

This religious practice includes covering certain topics in prayer each day—e.g.,
gratitude to the Creator for specific blessings, forgiveness, and prayers for the various
needs and wellbeing of others—throughout the day, praying about other issues that
arise in daily life, and reading Bible verses out loud.

21.

This religious practice requires peace and solitude throughout the day: For Plaintiff,
for instance, praying requires spontaneously and audibly speaking prayers not heard by
others; deep concentration that is only possible in peace and solitude; and perceiving
and contemplating the handiwork of the Creator, such as by looking up at the sky.2
These reasons are naturally interconnected (e.g., Plaintiff cannot concentrate on his
spoken prayers when others could hear).

22.

When not required to be in the office physically, Plaintiff prays in peace and solitude
several times throughout the day, including spontaneously, in his backyard (e.g., on
breaks), and when looking at the sky. Plaintiff has done so for more than a year and
his dedication to his religious life is stronger than ever. This practice is sincerely held.

23.

This practice has never interfered in Plaintiffs work, work efficiency, or
responsiveness to work communications. In fact, it greatly assists Plaintiff in his work.

There are scriptural bases for Plaintiffs prayer practice; if relevant, citations to scripture can be provided.

5
- App. 5 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 6 of 19 PagelD: 6

24.

When required to be in the office physically, Plaintiffs prayer practice must be
foregone: For instance, in an office in which others are in close proximity or could
interrupt—e.g., Plaintiff often hears his colleague distinctly through his office wall—
peace and solitude and the resulting concentration are impossible, as is the ability to
pray spontaneously and audibly without being heard by others.

25.

When Plaintiffs prayer practice must be foregone, he suffers psychologically (e.g., by
experiencing anxiety or dread during time in the office as well as during nights before
going to the office); professionally (e.g., in being unable focus on and complete work
efficiently); and even physically (e.g., in suffering sleep problems or headaches).

26.

Foregoing Plaintiffs prayer practice is sometimes an unavoidable consequence of life.

27.

But here, to the extent Defendants would require, it is not.
The NJLAD3

28.

The NJLAD prohibits “imposing] upon a person as a condition of . . . retaining
employment... any terms or conditions that would require a person to violate or forego
a sincerely held religious practice or religious observance . . . unless, after engaging in
a bona fide effort, the employer demonstrates that it is unable to reasonably
accommodate the employee’s religious observance or practice without undue hardship
on the conduct of the employer’s business.” N.J.S.A. 10:5-12(q)( 1) (emphases added).

29.

In other words, an employer cannot “require a person to violate or forego a sincerely
held religious practice” unless it both “engagfes] in a bona fide effort” and
“demonstrates . . . undue hardship.” N.J.S.A. 10:5-12(q)(l).

3
Because Plaintiffs free exercise claim arose in the process of seeking an accommodation under the NJLAD—
and because Defendants attempt to defend their infringement of Plaintiffs free exercise by relying on the NJLAD,
see, e.g., Ex. D at 2-3; Ex. G—background regarding the NJLAD is provided first.

6
- App. 6 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 7 of 19 PagelD: 7

30.

“Undue hardship” means “an accommodation requiring unreasonable expense or
difficulty, unreasonable interference with the safe or efficient operation of the
workplace or a violation of a bona fide seniority system or . . . any provision of a bona
fide collective bargaining agreement.” N.J.S.A. 10:5-12(q)(3)(a) (emphasis added).

31.

Partly because of its rigorous definition of “undue hardship,” and the heightened burden
it places on employers, the NJLAD provides “people of faith rights that exceed[] those
afforded” under Title VII. Victor v. State, 203 N.J. 383, 407 (2010) (emphasis added).

32.

And the NJLAD must be “liberally construed” to protect these rights. N.J.S.A. 10:5-3.

33.

As explained herein, Defendants have failed to fulfill both statutory obligations: to
demonstrate undue hardship and to engage in a bona fide effort.

34.

But even just one of these failures violates the NJLAD and necessitates judicial
intervention. See N.J.S.A. 10:5-12(q)( 1); N.J.S.A. 10:5-13(a)(2); N.J.S.A. 10:5-3.
Defendants’ Violations of the NJLAD
Failure to Demonstrate Undue Hardship

35.

After Plaintiff sent the summary on May 6, see Ex. C; supra,

13, Defendants

proceeded to deny the Request for Accommodation categorically—that is, without
granting even a small part of what was requested—requiring Plaintiff to forego his
sincerely-held religious practice as a condition of retaining employment. Defendants
did so in a memorandum forwarded by Defendant Imhof on May 12, 2021, on which
all named Defendants were cc’d. Ex. D (“the Memorandum”).
36.

The Memorandum’s entire analysis consists of one paragraph of assertions; and the
Memorandum does not even attempt to connect those assertions to Plaintiffs job
responsibilities or the particular facts of Plaintiff s employment. See Ex. D at 2-3.

7
- App. 7 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 8 of 19 PagelD: 8

37.

In other words, the Memorandum flatly fails to provide individualized consideration to
the Request for Accommodation. The Memorandum, moreover, fails to cite even a
single concrete fact or specific example in support of its categorical denial.

38.

For instance, as a putative reason to deny the request, the Memorandum vaguely asserts
that work “meetings are not pre-scheduled and occur on an ad hoc basis,” but fails to
explain with any fact or example why permitting Plaintiff to participate in such
meetings electronically would “requir[e] unreasonable expense or difficulty [or]
unreasonable interference with the safe or efficient operation of the workplace,” see
N.J.S.A. 10:5-12(q)(3)(a), and fails to mention that such meetings are rare, Ex. D at 2.

39.

(As the past year has made clear, an electronic meeting—whether by simply calling or
clicking on a “Teams” icon—does not require “unreasonable expense or difficulty” or
“unreasonable interference” with efficiency: It is efficient or even seamless; and, in
fact, it was Defendants’ chosen method of meeting on May 6 to discuss the request,
and has been Plaintiffs supervisor’s chosen method of meeting during weeks
Plaintiff is working from home or even when working in the office.)

40.

Or, for instance, the Memorandum vaguely asserts that “emergent matters that arise
may require immediate response that would necessitate . . . presence in the office,” but
cites no fact or example of such a scenario—it is not clear whether such a scenario
has ever occurred—and fails to explain why in such a scenario Plaintiff could not
simply drive to the office immediately. See Ex. D at 2; infra, ^ 65.

41.

Or, for instance, the Memorandum vaguely appeals to “collaboration]” and asserts that
“work . . . often requires in person discussion” without any explanation of why “in

8
- App. 8 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 9 of 19 PagelD: 9

person” discussion is “require[d]”—either required at all or required so unconditionally
that the request could not be granted even in part. See Ex. D at 3.
42.

If the statutory duty to demonstrate undue hardship means anything, see N.J.S.A. 10:512(q)(l), it means that Defendants cannot discharge that duty with vague assertions:
without citing a single concrete fact or specific example, without any individualized
analysis, and without any explanation of the “requirement” of physical presence, which
Defendants incoherently claim obtains at all times.

43.

Defendants’ assertions belie the facts of the past year and present status quo.

44.

In addition, the Memorandum triply guts its own professed rationale:

45.

First, it acknowledges that only in certain circumstances, and not always, are
employees “required to be in the office during their ‘at home’ week based on the needs
of the office.” Ex. D at 1 (emphasis added).

46.

If this admission does not entirely refute Defendants’ professed rationale for denying
the request categorically, it directly contradicts it. There are two more that do the same:

47.

Second, the Memorandum permits Plaintiff to be out of the office and range “a four
hundred (400) acre property ... so long as it does not adversely impact [his] work
responsibilities.” Ex. D at 3. Defendants have refused to explain why commuting to
and ranging a 400-acre property outside the office does not impose an undue
hardship—but working from home does, allegedly always does. See infra,

48.

56-58.

Third, the Memorandum acknowledges that Defendants have already widely provided
the accommodation Plaintiff seeks: They permitted all or almost all employees to work
from home at least half the time—currently and for the past year. See Ex. D at 1.

9
- App. 9 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 10 of 19 PagelD: 10

49.

And Defendants already permitted other employees to work from home fulltime for half
a year—even while categorically denying the Request for Accommodation. See

50.

17.

These admissions plainly show that Defendants do not always suffer unreasonable
expense or difficulty—or unreasonable interference with the safe or efficient operation
of the workplace—whenever a single employee works from outside of the office.

51.

In other words, these admissions show that Defendants’ categorical denial of the
Request for Accommodation, with no individualized consideration, cannot withstand
legal scrutiny under the NJLAD’s requirement that they “demonstrate . . . undue
hardship.”

N.J.S.A. 10:5-12(q)(l) (emphasis added).
Failure to Engage in Bona Fide Effort

52.

In addition, the Memorandum and Defendants’ subsequent conduct show that they have
failed to “engagfe] in a bona fide effort ... to reasonably accommodate [Plaintiffs]
religious observance or practice.” See N.J.S.A. 10:5-12(q)(l).

53.

First, the Memorandum categorically denies the Request for Accommodation,
permitting not even days—or even hours or minutes—of work from home to
accommodate prayer: Defendants made no effort to determine when the Request for
Accommodation would cause undue hardship and when it would not: They simply
asserted, categorically, that it always does. This position cannot satisfy even the most
lenient level of legal scrutiny—let alone the NJLAD’s heightened requirements. ^ 31.

54.

The past year and present status quo—by Defendants’ own admissions, see supra, ^
44-51—clearly show both the practicability and efficiency of granting the request. And
again, by its own terms, the Request for Accommodation requests that Plaintiff work
and pray from home only when doing so would not cause undue hardship for

10
- App. 10 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 11 of 19 PagelD: 11

Defendants. Exs. A & B. The Memorandum completely omits this crucial component
of the request.

See Ex. D.

And when informed of this conspicuous omission,

Defendants refused to address it and refused to engage in any effort to accommodatenot even by one day, hour, or minute. See Ex. E at 3; Ex. F.
55.

Second, the Memorandum’s foremost “offer” of an “accommodation” is permitting
Plaintiff to “engage in pray in [his] private office during the work day.” Ex. D at 3.
But this “accommodation” is simply the status quo that gave rise to the need for the
Request for Accommodation to begin with; let alone that it is plainly legally required.

56.

The Memorandum’s other two “accommodations” would either:
a. require Plaintiff—multiple times every day, regardless of the weather—to cross a
busy street twice, hike up and down wooded hills and muddy terrain in work attire,
and search for potentially secluded areas spread across 400 acres; or
b. be confined to a repurposed soundproof room fitted with surveillance cameras and
no windows. Ex. D at 3.

57.

For obvious reasons, which can be further explained, none of these “accommodations”
promotes work efficiency and all of them would require Plaintiff to forego prayer as
required by his religion. Defendants even recognize that they know it—that their
proposed “accommodations” “would curtail the spontaneous nature of [Plaintiffs]
prayer and . . . subject [Plaintiff] to being seen and heard by others.” Ex. D at 1.

58.

These proposed “accommodations” defy not only law but logic: for instance, by always
permitting Plaintiff to be out of the office to range “a four hundred (400) acre property
. . . so long as it does not adversely impact [his] work responsibilities,” Ex. D at 3, but
never permitting Plaintiff to be out of the office to work at home on the very same

11
- App. 11 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 12 of 19 PagelD: 12

condition.

Defendants have refused to explain this obvious contradiction, among

others. See supra,
59.

43-48; Ex. F; Ex. G.

And even if the proposed accommodations were not illogical, Defendants could not
impose them and require Plaintiff to forego prayer as required by his religion “unless”
Defendants first “demonstrate[d]. .. undue hardship” as defined by statute, which they
have failed to do. SeeN.J.S.A. 10:5-12(q)(l) (emphasis added); supra,

60.

35-51.

Third, Defendants’ summary rejection of Plaintiff s thorough and carefully-researched
response to the Memorandum, Ex. E, shows they have not engaged in a bona fide effort.
As detailed below, Defendants replied to Plaintiffs ten-page response with a
boilerplate nonresponse—and then refused to answer basic questions about the process
for considering the requested accommodation. See Ex. F.
Plaintiffs Response to the Memorandum (Ex. E)

61.

On June 1, 2021, Plaintiff responded to the Memorandum raising many of the points
expressed in the foregoing paragraphs. Among the points are:

62.

The statutory factors used to assess undue hardship clearly cut against denying the
Request for Accommodation, see N.J.S.A. 10:5-12(q)(3)(b); and upon scrutiny, the
reasons offered for denying it plainly do not justify a denial:
a. The Memorandum presents two observations—about in-person court appearances
and witness interviews—that are fully consistent with the Request for
Accommodation, as the past year and present status quo have made clear: Plaintiff
has been and would continue to be physically present for all in-person court
appearances and witness interviews; and the Requestfor Accommodation expressly

12
- App. 12 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 13 of 19 PagelD: 13

recognizes his willingness to be physically present, not only under those
circumstances, but whenever working remotely "would cause undue hardship. ”
b. The Memorandum utterly fails to explain why permitting Plaintiff to participate in
potential meetings telephonically (or through Teams, etc.) in order to accommodate
Plaintiffs need to pray would impose an undue hardship, an “unreasonable
interference with the safe or efficient operation of the workplace:” It is not clear
whether permitting Plaintiff to participate in meetings electronically would impose
even a de minimis burden on Defendants.
c. The Memorandum makes a vague assertion about nondescript “emergent matters,”
see infra, f 65, provides no specific example or concrete fact in support of any
assertion, and fails to provide any individualized analysis.
d. The Memorandum categorically refuses to grant the requested accommodation—
not even subject to potential future tailoring—based on extremely rare hypothetical
scenarios and speculation; and the Memorandum conspicuously ignores the fact
that any accommodation granted could be tailored if necessary in the future.
63.

Because they had no substantive response, see Ex. F, whether Defendants have even
considered any of these weaknesses in their denial is unclear. But what is clear: Their
barebones reply shows anything but effort—let alone bona fide effort.

64.

In addition, when Plaintiff asked Defendants, “[Wjhat is the process for appealing this
denial?” Defendants refused to provide a response to that question. Ex. G.

65.

Defendants also refused to clarify who participated in denying the request: for instance,
Plaintiffs supervisor, who could have informed Defendants that there has never been
an “emergent matter[] that . . . immediately] . . . necessitate[d] [Plaintiffs]

13
- App. 13 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 14 of 19 PagelD: 14

presence in the office,” see Ex. D at 2, or that during weeks Plaintiff was working
from home, all court appearances and in-person witness interviews proceeded
normally and efficiently, see Ex. D at 2; Ex. E at 4.
66.

Categorically asserting, with no factual analysis, that the request always imposes undue
hardship; “offering” only the status quo or “accommodations” that admittedly have the
same problems; and refusing to dialogue and answer basic questions about the process
for considering the requested accommodation cannot be the “bona fide effort” required
by statute. See N.J.S.A. 10:5-12(q)( 1).

67.

For these reasons, Defendants have failed to fulfill both applicable statutory
obligations: Defendants have failed to demonstrate undue hardship and have failed to
engage in a bona fide effort to reasonably accommodate Plaintiffs religious practice.
The First Amendment

68.

Defendants’ failures under the NJLAD presage their violation of the First Amendment.

69.

The First Amendment to the United States Constitution provides: “Congress shall
make no law respecting an establishment of religion, or prohibiting the free exercise
thereof. . . .” (The Free Exercise Clause governs not only Congress, but States and
their political subdivisions and agencies as well. See, e.g., Church of the Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 531 (1993).)

70.

Requiring an employee to forego a sincerely-held religious practice as a condition of
retaining employment infringes his right to free exercise within the meaning of the First
Amendment. See, e.g., Lyng v. Nw. Indian Cemetery Protective Ass’n, 485 U.S. 439
450 (1988) (“[T]his Court has repeatedly held that indirect coercion or penalties on the
free exercise of religion, not just outright prohibitions, are subject to scrutiny under the

14
- App. 14 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 15 of 19 PagelD: 15

First Amendment.”); Hobbie v. Unemployment Appeals Comm ’n ofFla., 480 U.S. 136,
140 (1987) (recognizing the unlawfulness of forcing an employee “to choose between
following the precepts of her religion and forfeiting benefits, on the one hand, and
abandoning one of the precepts of her religion in order to accept work, on the other
hand” (quoting Sherbertv. Verner, 374 U.S. 398 (1963))) (citing Thomas v. Review Bd.
of Indiana Employment Security Div., 450 U.S. 707 (1981)).
71.

Incidental infringement of free exercise could be legally permissible under Employment
Division v. Smith, but Smith’s rule, by its own terms, applies when an infringement of
free exercise is the result of a “valid and neutral law of general applicability” or “an
across-the-board . . . prohibition.” See 494 U.S. 872, 879, 884 (1990); Fulton v. City
of Philadelphia, Pennsylvania, 593 U.S.___,

72.

(slip op.) at 5 (June 17, 2021).

A rule can fail to be “generally applicable” in numerous ways. For example:
a. If it “prohibits religious conduct while permitting secular conduct that undermines
the government’s asserted interests in a similar way,” Fulton, (slip op.) at 6;
b. If a state actor “permit[s] secular exemptions [to the rule] but not religious ones,”
or uses “a system of individualized exemptions,” see, e.g., Ward v. Polite, 667 F.3d
727, 739, 740 (6th Cir. 2012); Fulton, (slip op.) at 5-6; or
c. “[WJhenever [the rule] treatfs] any comparable secular activity more favorably than
religious exercise,” TandonvNewsom, 141 S.Ct. 1294, 1296 (2021) (citing Roman
Catholic Diocese ofBrooklyn v. Cuomo, 141 S. Ct. 63, 67-68 (2020) (per curiam)).

73.

And when Smith’s requirement of general applicability is not met, strict scrutiny
applies. Fulton, (slip op.) at 13; Tandon, 141 S. Ct. at 1296.

74.

Defendants fail to comply with the mandates of neutrality and general applicability.

15
- App. 15 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 16 of 19 PagelD: 16

Defendants’ Violation of the First Amendment
75.

So Defendants trigger strict scrutiny for at least the three reasons outlined above:
a. Defendants have “prohibit[ed] religious conduct,” i.e., working from home as
necessary to pray, “while permitting secular conduct,” i.e., working from home for
secular reasons, which “undermines the government’s asserted interests in a similar
way”—in fact, the same exact way, see Fulton, (slip op.) at 6; Ex. E at 1-2;
b. Defendants “permit secular exemptions,” e.g., medical-based exemptions, “but not
religious ones;” and Defendants use “a system of individualized exemptions” that
permits some employees to work from home (e.g., dozens of employees in “Adult
Trial”) at some times (e.g., fulltime from November into the present month) but not
others, and for some reasons (e.g., secular reasons related to the pandemic, or
employees’ other reasons) but not others, see, e.g., Ward, 667 F.3d 739-40; Fulton,
(slip op.) at 5-6; supra,

15-18; and

c. Defendants treat the activity of working from home for secular reasons more
favorably than the same exact activity undertaken for religious reasons, which
they have chosen to prohibit categorically, see Tandon, 141 S. Ct. at 1296; supra,
35 & 54-55; Ex. D at 2.
76.

Accordingly, strict scrutiny applies. See, e.g., Tandon, 141 S. Ct. at 1296.

77.

To survive strict scrutiny, a defendant must demonstrate that its infringement of free
exercise furthers “interests of the highest order” and is “narrowly tailored in pursuit of
those interests.” Church ofLukumi Babalu Aye, 508 U.S. at 546.

78.

Defendants do not even come close to meeting their burden under any form of
heightened scrutiny, see supra

31 & 53, let alone strict scrutiny:

16
- App. 16 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 17 of 19 PagelD: 17

a. Defendants assert only vague interests not backed by any concrete fact or specific
example, see Ex. D at 2-3; Exs. F & G; see, e.g., Fulton, (slip op.) at 13-14 (“The
City states these objectives at a high level of generality, but the First Amendment
demands a more precise analysis.”); and provided no individualized analysis, see,
e.g., Fulton (slip op.) at 14 (“The question ... is not whether the City has a
compelling interest in enforcing its . . . policies generally, but whether it has such
an interest in denying an exception to [Plaintiff]”); and
b. Defendants have categorically prohibited Plaintiffs free exercise of his prayer
practice—the exact opposite of narrow tailoring, see, e.g., supra, || 53-54
(Defendants have refused to permit even “one day, hour, or minute” of work from
home as necessary to accommodate prayer); Ex. D at 2-3; see generally Ex. E.
79.

Defendants also refused to provide any additional reasons or explanation. Exs. F & G.

80.

And by extending the very same accommodation requested by Plaintiff to dozens if
not hundreds of other employees, see supra,

17, 48 & 74, Defendant Essex County

Prosecutor’s Office “itself has demonstrated that it has at its disposal an approach” that
would accommodate Plaintiffs sincerely-held religious practice without undue
hardship. See Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682, 730 (2014).
81.

Defendants even considered and denied the Request for Accommodation—during
April 26, 2021, to May 21,2021—during the very time they were already granting the
same accommodation to other employees for secular reasons, proving they have at
their disposal just such an approach. Hobby Lobby, 573 U.S. at 730; Exs. A & D.

82.

Defendants cannot rely on a medical rationale to defend their totally untailored
religious discrimination. See, e.g., Fraternal Ord. of Police Newark Lodge No. 12 v.

17
- App. 17 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 18 of 19 PagelD: 18

City of Newark, 170 F.3d 359, 367 (3d Cir. 1999) (Alito, J.) (recognizing the
unlawfulness of “a value judgment that secular (i.e., medical) motivations ... are
important enough to overcome [an employer’s] general interest . . . but that religious
motivations are not”); id. (“We are at a loss to understand why religious exemptions
threaten important city interests but medical exemptions do not.”).
FIRST CLAIM:
VIOLATION OF THE RIGHT TO FREE EXERCISE (42 U.S.C. § 1983)

83.

Plaintiff repeats and realleges each of the allegations of this Complaint.

84.

By requiring Plaintiff to forego his sincerely-held religious practice as a condition of
retaining employment, see, e.g., supra,

24, 35 & 53, Defendants have infringed

Plaintiffs free exercise. See, e.g., Lyng, 485 U.S. at 450; Hobbie v, 480 U.S. at 140.
85.

Defendants cannot rely on Smith to defend their infringement of Plaintiffs free
exercise. See supra,

86.

74-80. Strict scrutiny applies. See supra, If 74.

Defendants fail to satisfy any form of heightened scrutiny, see, e.g., City of Newark,
170 F.3d at 365-67, let alone strict scrutiny. See supra, f 77.
SECOND CLAIM:
VIOLATION OF THE NJLAD

87.

Plaintiff repeats and realleges each of the allegations of this Complaint.

88.

The NJLAD prohibits “imposing] upon a person as a condition of . . . retaining
employment... any terms or conditions that would require a person to violate or forego
a sincerely held religious practice or religious observance . . . unless, after engaging in
a bona fide effort, the employer demonstrates that it is unable to reasonably
accommodate the employee’s religious observance or practice without undue hardship
on the conduct of the employer’s business.” N.J.S.A. 10:5-12(q)(l) (emphases added).

18
- App. 18 -

Case 2:21-cv-12786-SDW-ESK Document 1 Filed 06/18/21 Page 19 of 19 PagelD: 19

89.

As discussed above, Defendants are governed by the NJLAD but have failed to fulfill
both of those statutory obligations. See supra, ^ 3-7 & 35-67.

90.

Each of these failures is an “unlawful employment practice.” N.J.S.A. 10:5-12(q)( 1).
PRAYER FOR RELIEF
WHEREFORE, Plaintiff respectfully requests the following relief:
a. Declaratory judgment that the acts and omissions of Defendants described herein
violate the laws of the United States and the State of New Jersey;
b. Permanent enjoinment of these legal violations;
c. Compensatory damages;
d. Nominal damages;
e. Punitive damages for Defendants’ wanton and willful disregard of Plaintiff s rights;
f.

Reasonable attorneys’ fees, expenses, and costs, including, but not limited to, court
costs, expert fees, and all attorneys’ fees incurred by Plaintiff; and

g. Any other relief the Court deems just and appropriate.4
JURY TRIAL DEMAND
Plaintiff hereby demands a trial by jury on all issues so triable.

Dated: June 18,2021
By:
/s/ Alex G. Leone
Alex G. Leone
P.O. Box 1274
Maplewood, NJ 07040

4
On an email to Defendant Imhof cc’ing all named individual defendants, Plaintiff asked: “Are there any
people other than those cc’d on this email who have participated in the process of considering and denying the
request?” Neither Defendant Imhof nor any Defendant answered this question. See Ex. G. Accordingly, Plaintiff
reserves the right to amend the Complaint to add additional defendants if appropriate in light of discovery.

19
- App. 19 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 1 of 29 PagelD: 20

Exhibit A

- App. 20 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 2 of 29 PagelD: 21

COUNTY OP ESSEX
OFFICE OF HUMAN RESOURCE
HALL OP RECORDS-ROOM 340
NEWARK, NJ 07102
Request for Religious Accommodation
(To be completed by employee or applicant)
APPLICANT INFORMATION (THIS SECTION IS TO BE COMPLETED BY APPLICANTS ONLY)
APPLICANT NAME;

DEPARTMENT IN WHICH YOU
ASBSBBBlNGBMPLOYMHTr

HOME ADDRESS;

TELEPHONE(HOME):
TELEPHONE(CELL):

EMAIL ADDRESS:
EMPLOYEE INFORMATION (THIS SECTION TO BE COMPLETED BY EMPLOYEES ONLY)
EMPLOYEE NAME:
EMPLOYEEID
j^&X-OA&sf
NUMBER:
POSITION TITLE;

C.OA4./AP

DEPARTMENT;

S

i A. C 0-^3

WORK HOURS/DAYS: <r-.yr*4l3o.
HOME ADDRESS;

If member of Union, Indicate
which Union:

WORK LOCATION:

MW* M

DAYS OFF:
TELEPHONE(WORK):
TELEPHONE(HOME);
TELEPHONE(CELL):

ACCOMMODATION INFORMATION fTMS SECTION TO BE COMPLETED BY APPLICANT AND EMPLOYEES!
ACCOMMODATIONS DESCRIPTION AND REASON THEREFORE • (ATTACH ADDITIONAL SHEETS IF NECESSARY.)

8NOODB

AjllA

«v

R\

V*

x

•

„..

orv^W «.c

/At liAife Aajla ypftAA CQt-'St. qa*1
ACCOMMgDATION REQUESTED IS (ORttE ONE) :

PI

TEMPORARY

IF ACCOMMODATION IS TEMPORARY, PLEASE PROVIDE
START DATE AND END DATE.
** ATTACH ANY DOCUMENTS WHICH SUPPORT YOUR ACCOMMODATION REQUEST.
IF THE ACCOMMODATION WAS REQUESTED PREVIOUSLY, YOU MUST COMPLETE THE FOLLOWING
SECTION:'
DATE OF PREVIOUS REQUEST:
NAME/TTTLE OF PERSON WHO RECEIVED REQUEST:

- App. 21 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 3 of 29 PagelD: 22
Response to Religious Accommodations
.. (To be _completed
by
the
department
director or his/her_________management
designated
_
_ .
,
representative!

Complete this section ONLY if the accommodation is granted.

IS THIS ACCOMMODATION PERMANENT OR TEMPORARY PERMANENT
(CIRCLE ONE)

TEMPORARY

IF ACCOMMODATION IS TEMPORARY, PLEASE PROVIDE
START DATE AND END DATE.

PROVIDE A SYNOPSIS OF THE ACCOMMODATION,
INCLUDING EFFECTIVE DATE, DURATION, AND
CHANGES TO THE REQUESTED ACCOMMODATION, IF
ANY.

O

V.,

Complete this section ONLY if the accommodation is denied
PROVIDE THE REASON(S) FOR DENIAL INCLUDING
WHY GRANTING THE REQUEST
MAY CAUSE UNDUE HARDSHIP TO THE
DEPARTMENT/COUNTY.

(ATTACH ADDITIONAL SHEET IF NECESSARY.)"

RESPONDING OFFICIAL’S SIGNATURE/DATE:

Once a decision has been made to grant or deny a request for religious accommodation, the resnondine official .hmiia
shnnlrt Vhe e™ployf8'°r applicant with a copy of this Response to Religious Accommodation Request form A decision
fomitl“^,oyj!cLppU^tC 1
^
°f ““ "“1“*
>»*»«■ Mmimiatan

'

•!

S

- App. 22 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 4 of 29 PagelD: 23

OUTCOME(CICRLB ONE):

GRANTED

DENIED

/
DATE GRANTED OR DENIED:
STATUS OF ACCOMMODATION (CIRCLE ONE):

APPLICANT/EMPLOYEE SIGNATURE/DATE:
RESPONDING OFFICIAL’S SIGNATURE:
REQUEST RECEIVED ON:

v

o
- App. 23 -

PERMANENT

1

TEMPORARY

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 5 of 29 PagelD: 24

Exhibit B

- App. 24 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 6 of 29 PagelD: 25

Work and pray throughout the day at home, to be physically present at office or court when
reasonably necessary or when accommodating this religious need would cause undue hardship.
Reason: I have a spiritual need to pray in peace and solitude, such as in my backyard, several
times throughout the day.

- App. 25 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 7 of 29 PagelD: 26

Exhibit C

- App. 26 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 8 of 29 PagelD: 27
Alexander Leone
From:
Sent:
To:
Subject:

Alexander Leone
Thursday, May 6, 2021 2:35 PM
Walter Dirkin
"Supplement" Requested by Ms. Gaccione

Dear Walter,
I believe Ms. Gaccione, summarizing what I said on the form and during the meeting, stated the request very well but:
•
•
•

I am requesting an accommodation of modifying the schedule.
Currently, the schedule permits me, during every other week, to work from home primarily and be physically
present at the office or court when reasonably necessary (several examples were discussed).
I am requesting that this status quo continue and be extended from every other week to each week.

The reasons for this request were also covered extensively, but to reiterate:
•

I have a spiritual need to pray in peace and solitude, such as in my backyard, several times throughout the day.

•

Being physically present in the office interferes with this necessary religious practice: For instance, it makes me
feel uncomfortable and unable to concentrate, prevents spontaneous spoken prayer, is antithetical to that
peace and solitude, and permits other people to see or hear me.
For the above reasons, potential alternatives that were considered—such as commuting to a public park or
driving back and forth between my home multiple times throughout the day—are unworkable.

•

Please let me know if you need any additional information.
Thank you,
Alex

From: Alexander Leone
Sent: Friday, April 30, 2021 1:33 PM
To: Walter Dirkin <Walter.Dirkin@njecpo.org>
Subject: Re: Request for Religious Accommodation
Dear Walter,
Attached and below, please find the text from the form (under "accommodations description and reason therefore").
Thank you,
Alex

Work and pray throughout the day at home, to be physically present at office or court when reasonably
necessary or when accommodating this religious need would cause undue hardship. Reason: I have a spiritual
need to pray in peace and solitude, such as in my backyard, several times throughout the day.
l

- App. 27 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 9 of 29 PagelD: 28

From: Alexander Leone
Sent: Monday, April 26, 2021 11:00 AM
To: Walter Dirkin <Walter.Dirkin(S)niecpo.org>
Cc: Pamela Kearney <Pamela. Kearney (Sniecpo.org>
Subject: Request for Religious Accommodation
Dear Walter,
Attached, please find the request for religious accommodation form. Please let me know if any additional information is
required.
Thank you,
Alex

2

- App. 28 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 10 of 29 PagelD: 29

Exhibit D

- App. 29 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 11 of 29 PagelD: 30

OFFICE OF THE ESSEX COUNTY PROSECUTOR
THEODORE N. STEPHENS, II
ACTING ESSEX COUNTY PROSECUTOR
ESSEX COUNTY VETERANS COURTHOUSE, NEWARK, NEW JERSEY 07102
Tel: (973) 621-4700

Fax: (973)621-5697

ROMESH C. SUKHDEO

MITCHELL G. McGUIRE III

ACTING FIRST ASSISTANT PROSECUTOR

ACTING CHIEF OF DETECTIVES

MEMORANDUM

TO:

Alexander Leone, Assistant Prosecutor

FROM: Roger J. Imhof, Chief Assistant Prosecutor
DATE: May 12, 2021
RE:

Religious Accommodation Request
Please accept the within Memorandum in response to your Request for Religious

Accommodation submitted on April 26, 2021. As you know, representatives from the Essex
County Prosecutor's Office (ECPO) and Essex County Counsel, Courtney Gaccione met with you
on May 6, 2021 (via Teams remote video conferencing) to discuss your request and obtain further
information from you regarding the specific nature of the accommodation you are seeking. On
that same date, at the request of Ms. Gaccione, you submitted an email to your direct supervisor
Deputy Chief Assistant Prosecutor, Walter Dirkin, summarizing your accommodation request.
Summary of the Religious Accommodation Request
You have advised the ECPO that you are seeking a schedule modification to work from
home on a full-time basis to pray at home. You are requesting that the accommodation begin
immediately and be permanent. You have identified as holding a belief in Christianity without
more specific information provided about any particular provision of Christianity connected to
your accommodation request.
Currently, due to the COVID-19 pandemic, the ECPO is working an A/B schedule which
permits Assistant Prosecutors to work one week at home and the following week in the office.
This schedule was implemented in March 2020 to minimize the number of staff in the office at
one time. You acknowledged that there are instances when Assistant Prosecutors are required
to be in the office during their "at home" week based on the needs of the office. You have advised
that you do not presently require any accommodation while working at home pursuant to the
A/B schedule format. However, you would like to be able to work from home every day except
for when it is "reasonably necessary" to be physically in the office. You have indicated that you

AN EQUAL OPPORTUNITY EMPLOYER
www njecpo.org

- App. 30 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 12 of 29 PagelD: 31
May 12, 2021
Page 2 of 3
are requesting that this accommodation continue past the discontinuation of the A/B schedule
so that you could remain working from home on a full-time basis. You have advised that you will
continue to be in the office when "reasonably necessary" such as court appearances or in-person
meetings.
The basis for your request is your spiritual need to pray in peace and solitude in a location,
such as in your backyard, several times throughout the day. You have indicated that being
physically present in the office interferes with this necessary religious practice as it makes you
feel uncomfortable and unable to concentrate or focus on prayer, prevents spontaneous spoken
prayer and is contrary to the peace and solitude that you seek. You also indicated that prayer in
the office would subject you to being overheard by others. You advised, when asked, that prayer
in the County park across the street from your worksite was not an acceptable alternative
because it would curtail the spontaneous nature of your prayer and it would also subject you to
being seen and heard by others. You likewise indicated that traveling home from your worksite
during the day to pray would not be acceptable because it would not allow you to pray
spontaneously throughout the day. While not ideal, you advised that prayer in the office on a
limited basis if you are in the office when "reasonably necessary" would be acceptable because
it would be infrequent. You advised that you would pray in your office with the door closed. On
an on-going basis, however, you stated that being in the office every day (or every other week
during the pendency of the A/B schedule) would not be conducive to the peace and solitude you
seek during prayer as well as subjecting you to interruption and being overheard. Finally, you
advised that at this current time you no longer require any specific religious accommodation
while physically present in a courtroom and you confirmed that there are no issues outstanding
in connection with your prior accommodation requests dated January 10, 2020 and March 2,
2020.
ECPO Response
Currently, the ECPO is on an alternating week A/B schedule. You will be permitted to
remain on the current A/B schedule with one week in the office and one week at home on an
alternating basis. Your presence in the office on your "at home" week may still be required based
on the needs of the office. Moreover, the ECPO anticipates that it will discontinue the A/B
schedule in the coming months. At that time, you will be required to be in the office on a full­
time basis. Accordingly, your request to work from home on a full-time basis presently or in the
future is denied.
It is the nature of the work performed by the ECPO that individuals be physically present
in the office. As discussed during our meeting, in person courtroom appearances will resume at
some point in the future. Many ECPO meetings are not pre-scheduled and occur on an ad hoc
basis that requires the presence of attorneys in the office. In person witness interviews are
preferred over those conducted remotely. Additionally, emergent matters that arise may require
immediate response that would necessitate your presence in the office. You acknowledged the

- App. 31 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 13 of 29 PagelD: 32
May 12,2021
Page 3 of 3
collaborative nature of ECPO's work which often requires in person discussion.

Finally, as

discussed during our meeting, the workload of the ECPO was significantly decreased during the
pandemic. It is anticipated that workload will begin to increase now that the pandemic has begun
to subside.

For these reasons, the ECPO takes the position that to allow your religious

accommodation request to work from home on a full-time basis would cause an undue hardship
on the office.

Specifically, your requested accommodation would cause an unreasonable

interference with the efficient operation of the workplace pursuant to N.J.S.A. 10:5-12 (q)(l).
To accommodate your request regarding prayer while in the workplace, the ECPO can
offer you the following accommodations:
1) You may continue to engage in pray in your private office during the work day;
2) You may access the Essex County Eagle Rock Reservation that is directly across the street
from your worksite. The Eagle Rock Reservation is a four hundred (400) acre property
with multiple secluded areas. This option is offered as you specifically referenced your
preference to pray outside. You are granted permission to exercise your right to prayer
at this location as your needs require so long as it does not adversely impact your work
responsibilities;
3) The ECPO has identified a soundproof interview room located on the third floor of the
building where you are currently assigned. The interview room does not have occupants
on either side and would be completely private. The soundproofing will address your
concern about others being able to hear you during prayer. ECPO is prepared to offer you
this room on either a permanent basis (if you wish to relocate your office) or you may
remain in your current office and use this office on an as needed basis. You will have
exclusive use of this office with the ability to lock the door when in use to avoid any
distractions or interruptions.

You are welcome to utilize one or all the above accommodations effective immediately. You may
advise Deputy Chief Assistant Prosecutor Dirkin of your decision to utilize any or all these
accommodations. Finally, please note that your schedule will revert to the normal A/B schedule
effective Monday, May 17th. Thank you for your attention to this matter.

cc:

Theodore N. Stephens, II, Essex County Prosecutor
Romesh Sukhdeo, Acting First Assistant Prosecutor
Walter Dirkin, Deputy Chief Assistant Prosecutor
Gwen Williams, Executive Assistant Prosecutor
Amy DePaul, Trial Court Administrator
Robert Jackson, County Administrator/Director of Human Resources
Jaqueline Jones, Deputy Director, Human Resources
Courtney Gaccione, Essex County Counsel

- App. 32 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 14 of 29 PagelD: 33

Exhibit E

\

- App. 33 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 15 of 29 PagelD: 34

Memorandum
To: Mr. Roger Imhof, Chief Assistant Prosecutor
From: Alex Leone
Date: June 1, 2021
Re: Religious Accommodation Request
Dear Chief Assistant Prosecutor Imhof,
Please accept this memorandum and renewed request for a religious accommodation in
response to your May 12, 2021 memorandum (the “Memorandum”).

The Memorandum cites the New Jersey Law Against Discrimination (“the NJLAD”). The
NJLAD prohibits “imposing] upon a person as a condition of. . . retaining employment. . . any
terms or conditions that would require a person to violate or forego a sincerely held religious
practice or religious observance . . . unless, after engaging in a bona fide effort, the employer
demonstrates that it is unable to reasonably accommodate the employee’s religious observance or
practice without undue hardship on the conduct of the employer’s business.” N.J.S.A. 10:512(q)(l) (emphases added).1 Here, as explained below, ECPO has not engaged in a bona fide
effort to accommodate my sincerely held religious practice and observance. See Request for
Religious Accommodation (April 26, 2021) (“Request for Accommodation” or “the request”);
May 6 Email. Nor has it demonstrated that accommodating my sincerely held religious practice
and observance would impose an undue hardship.
Many, if not all, ECPO employees were permitted to work from home throughout the past
year—and continue to be permitted—based on a secular rationale. Now I, a single employee, am

1
“Undue hardship” means “an accommodation requiring unreasonable expense or difficulty, unreasonable
interference -with the safe or efficient operation of the workplace or a violation of a bona fide seniority system or a
violation of any provision of a bona fide collective bargaining agreement.” N.J.S.A. § 10:5-12(q)(3)(a) (emphases
added). The NJLAD, accordingly, “g[ives] people of faith rights that exceed[] those afforded them through ... Title
VII.” See Victor v. State, 203 N.J. 383, 407 (2010).

1
- App. 34 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 16 of 29 PagelD: 35

requesting what is essentially the same accommodation based on a religious rationale.

The

Memorandum attempts to deny this request categorically with no individualized consideration—
even though the past year and present status quo have shown clearly that it can be accommodated
efficiently, if not easily.
The statutory factors used to assess undue hardship cut against that attempted denial; and
upon scrutiny, the reasons offered for it plainly do not justify it. See N.J.S.A. 10:5-12(q)(3)(b).
Each of the factors is addressed in turn.

(0

“The identifiable cost of the accommodation, including the costs of loss of
productivity and of retaining or hiring employees or transferring employees from
one facility to another, in relation to the size and operating cost of the employer.”
The Memorandum suggests that granting the Request for Accommodation would bear a

“cost” in the form of “loss of productivity.” See N.J.S.A. 10:5-12(q)(3)(b)(i); Memorandum at 3
(asserting that the “requested accommodation would cause an unreasonable interference with the
efficient operation of the workplace”). But the reasons offered in support of this suggestion—
either individually or collectively—plainly do not justify a categorical denial of the request.
First, the Memorandum observes that “in person courtroom appearances will resume at
some point in the future.” Memorandum at 2. Speculation about what might happen “at some
point in the future” cannot justify a categorical denial of the requested accommodation at the
present time. Regardless, in-person courtroom appearances were the first example I provided at
the May 6 meeting of a circumstance in which all would agree that physical presence is reasonably
necessary. See Memorandum at 2 (recognizing that under the Request for Accommodation I “will
continue to be in the office when reasonably necessaryf,] such as court appearances”). They are
also mentioned in the Request for Accommodation itself (requesting “to be physically present at
office or court when reasonably necessary” (emphasis added)).

2
- App. 35 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 17 of 29 PagelD: 36

To be clear, and to reiterate, the requested accommodation would not interfere with inperson courtroom appearances: I have been and would continue to be physically present for all of
them; and the Request for Accommodation expressly recognizes my willingness to be physically
present, not only under those circumstances, but whenever working remotely “would cause undue
hardshipThe Memorandum completely omits that crucial component of the Request for
Accommodation: again, willingness to be physically present whenever “accommodating [my]
religious need would cause undue hardshipIn that omission, as throughout, the Memorandum
flatly fails to provide individualized consideration to the request.
In addition, on April 26,1 submitted a request—to both my immediate supervisor, Deputy
Chief Assistant Prosecutor Walter Dirkin, and potential future supervisor, Director Frank
Ducoat—to transfer to the Appellate Unit, which generally requires fewer in-person court
appearances. This request was specifically mentioned to you, Chief Assistant Prosecutor Imhof,
during the May 6 meeting. Yet the Memorandum does not address it.
Second, the Memorandum asserts that “[m]any ECPO meetings are not pre-scheduled and
occur on an ad hoc basis that requires the presence of attorneys in the office.” Memorandum at 2.
Yet the Memorandum provides no explanation why permitting me to participate in such
meetings telephonically (or through Teams, etc.) in order to accommodate my religious need
would impose an undue hardship, an “unreasonable interference with the safe or efficient
operation of the workplace.'’’ Such meetings have, in fact, occurred telephonically (or through
Teams, etc.) over the past year—as, in fact, did the May 6 meeting to discuss the request. Such
meetings have not required “unreasonable expense or difficulty” or resulted in “unreasonable
interference with the safe or efficient operation of the workplace;” the Memorandum cites no fact

3
- App. 36 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 18 of 29 PagelD: 37

to the contrary. And any rare “ad hoc” in-person meetings have been indistinguishable from
telephonic meetings.
On very rare occasions—perhaps three over the course of the year—a supervisor scheduled
an in-person meeting for which physical presence was requested but not immediately required. I
believe such meetings occurred both during weeks that I was scheduled to work in the office and
weeks I was not. Such scheduling of and attending an in-person meeting, a process which was
already in place before the request, is fully consistent with and contemplated by it. See Request
for Accommodation (anticipating “physical[] presence]” at the office).2
Third, the Memorandum observes that “in person witness interviews are preferred over
those conducted remotely.” Memorandum at 2. But like in-person courtroom appearances, I cited
observation of witness interviews at the May 6 meeting as an example of a circumstance in which
physical presence is reasonably necessary.

To be clear, and to reiterate, the requested

accommodation would not interfere with in-person observation of witness interviews: I have been
and would continue to be present for all of them—for instance, I was scheduled to work from home
but physically present to observe witness interviews on March 11, and March 25, 2021.
Fourth, the Memorandum asserts that “emergent matters that arise may require immediate
response that would necessitate [my] presence in the office.” Memorandum at 2. A timely
response to emergent matters is always appropriate. Yet to my knowledge there has not been a
single instance in which being in the office was “necessitate^]” in order to respond to an emergent

2
The Memorandum asserts that I “acknowledged the collaborative nature of ECPO’s work which often
requires in person discussion.” See Memorandum at 2-3 (emphasis added). I acknowledged, like the Request for
Accommodation itself suggests, that in-person discussion could potentially be required. But I would not acknowledge
that such discussion is “require[d]” “often” because that is false: The Memorandum does not even attempt to explain
why in-person discussion is “required”—either required at all or required so frequently that the Request for
Accommodation must be categorically denied—and there has not been a single occasion on which telephonic (or
Teams, etc.) meetings did not work efficiently. Telephonic (or Teams, etc.) meetings work efficiently, for example,
even for entire grand jury presentations with exposition of exhibits, etc.

4
- App. 37 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 19 of 29 PagelD: 38

matter. The Memorandum cites none: The Memorandum’s vague assertions about nondescript
“emergent matters”—and the Memorandum generally—are devoid of specific examples or
concrete facts. What such a hypothetical scenario would be like is, therefore, a mystery. Even
assuming such a scenario could occur at some theoretical point in the future, it would not be a
reason to deny the Request for Accommodation categorically.

As with other points the

Memorandum tries to make, it provides no explanation why permitting me to assist in such
theoretical matters telephonically (or through Teams, etc.)—or, if necessary, to drive to the office
immediately3—in order to accommodate my need to pray would impose an undue hardship. And
again, the Memorandum provides no individualized analysis.
Finally, the Memorandum observes that “[i]t is anticipated that [the] workload will begin
to increase now that the pandemic has begun to subside.” Memorandum at 3. Like the observation
about potential in-person court appearances “at some point in the future,” a vague observation
about what is “anticipated” cannot justify a categorical denial of the requested accommodation at
the present time.

The Memorandum conspicuously ignores the fact that the Request for

Accommodation could be tailored if necessary in the future. At most, an increased workload may
make the circumstances under which it is reasonably necessary to be in the office more frequent.
And again, such circumstances are contemplated by the Request for Accommodation.

3
The drive to the office from my home is approximately twenty minutes. It is difficult to imagine the strange
scenario in which both physical presence at the office in West Orange (as opposed to the courthouse, which is in
Newark) is required and there is not twenty minutes to spare in getting there. (As observed above, this vague assertion
about nondescript “emergent matters”—like the other assertions in the Memorandum—is not supported by any
specific example or concrete fact. The Memorandum provides zero individualized analysis.)
In addition, this speculation about “emergent matters” shows the illogic of permitting me to range a nearby
“four hundred (400) acre property” “so long as it does not adversely impact [my] work responsibilities,” as discussed
below, but denying me the requested accommodation of working and praying at home when it would not cause undue
hardship. See Memorandum at 3; Request for Accommodation (requesting “to be physically present at office or court
. .. when accommodating [my] religious need would cause undue hardship” (emphasis added)).

5
- App. 38 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 20 of 29 PagelD: 39

Further, my ability to focus on and complete work depends on my religious practice and
observance and resulting spiritual and mental wellbeing: In other words, I suffer and am unable
to focus on and complete work efficiently when denied the opportunity to pray spontaneously in
peace and solitude; and my work is almost always more efficiently completed from home.4
In sum, the Memorandum:
•

Presents two observations—about in-person court appearances and witness interviews—
that are uncontested andfully consistent with the Request for Accommodation, as the past
year and present status quo have made clear;

•

Fails to explain why permitting me to participate in meetings telephonically (or through
Teams, etc.) in order to accommodate my need to pray would impose an undue hardship,
an “unreasonable interference with the safe or efficient operation of the workplace

•

Makes a vague assertion about nondescript “emergent matters,” provides no specific
example or concrete fact in support of its assertions, and fails to provide any
individualized analysis', and

•

Categorically refuses to grant the requested accommodation—even subject to potential
future tailoring—based on extremely rare hypothetical scenarios and speculation.
Given that it provides no specific example, no concrete fact, and no individualized analysis,

the Memorandum fails to show even a de minimis interest in denying the accommodation of
participating telephonically and presenting physically as reasonably necessary. And it does not
permit accommodation to any extent, instead denying categorically—and unlawfully.

4
For instance, while being permitted to work from home, I have volunteered additional assistance many times;
have expressly remarked that I am happy to take more work; and have completed assignments so quickly and
thoroughly that it has surprised my supervisor.

6
- App. 39 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 21 of 29 PagelD: 40

(ii)

“The number of individuals who will need the particular accommodation for a
sincerely held religious observance or practice.”
The Memorandum does not identify a single additional person who “will need the

particular accommodation for a sincerely held religious observance or practice.” See N.J.S.A.
10:5-12(q)(3)(b)(ii). Accordingly, like the first statutory factor, this factor weighs in favor of
granting the Request for Accommodation.
(iii)

“For an employer with multiple facilities, the degree to which the geographic
separateness or administrative or fiscal relationship of the facilities will make the
accommodation more difficult or expensive.”
This statutory factor apparently has no application here. See N.J.S.A. 10:5-12(q)(3)(b)(iii).

Although the Memorandum purports to offer three alternative “accommodations,” it is
unclear whether these are offered in ignorance of the facts—either those underlying the Request
for Accommodation or those of the “accommodations” themselves. And by not permitting any
work and prayer from the peace and solitude of my home—even though it has been and is widely
permitted based on a secular rationale—the “accommodations” show that ECPO has not engaged
in a bona fide effort to accommodate my sincerely held religious practice and observance.
First, the Memorandum states that I “may continue to engage in pray in [my] private office
during the work day.” Memorandum at 3. Permitting me to “continue to engage in pray” in my
private office is not an offer of an accommodation—it is permitted anyway and is plainly legally
required to be permitted. To style this “offer” as an “accommodation” also suggests a lack of basic
knowledge of the facts underlying the Request for Accommodation, which was submitted because
being in the office “makes me feel uncomfortable and unable to concentrate, prevents spontaneous
spoken prayer, is antithetical to that peace and solitude, and permits other people to see or hear
me.” See May 6 Email; Request for Accommodation; Memorandum at 2 (recognizing that “being
7
- App. 40 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 22 of 29 PagelD: 41

physically present in the office interferes with [my] necessary religious practice as it makes [me]
feel uncomfortable and unable to concentrate or focus on prayer, prevents spontaneous spoken
prayer and is contrary to the peace and solitude that [the prayer requires]”)- And to style its
foremost “offer” as an “accommodation”—when what is being “offered” is already part of the
status quo—further shows that ECPO has not engaged in a bona fide effort to accommodate my
sincerely held religious practice and observance.
Second, the Memorandum states that I “may access the Essex County Eagle Rock
Reservation ... so long as it does not adversely impact [my] work responsibilities.” Memorandum
at 3. But as suggested previously, see May 6 Email, requiring me to cross a busy street twice, hike
up and down wooded hills and muddy terrain in work attire, and search out potentially “secluded
areas”—multiple times every day, regardless of the weather—is hardly an accommodation at all.
And as both I and the Memorandum recognize, “it would curtail the spontaneous nature of [my]
prayer and it would also subject [me] to being seen and heard by others.” See Memorandum at 2.
Furthermore, this offer to range “a four hundred (400) acre property” shows how illogical
and unlawful it is to deny the Request for Accommodation: Under this offer, I would be “granted
permission to exercise [my] right to prayer at this [400-acre property] as [my] needs require so
long as it does not adversely impact [my] work responsibilities,” proving that even extended and
ad hoc physical absence from the office would not impose an undue hardship.

See

Memorandum at 3 (emphasis added). Crossing the busy Prospect Avenue twice; hiking up and
down wooded hills and muddy terrain in work attire; searching out potentially “secluded areas” on
the “four hundred (400) acre property;” praying, if possible; and journeying back to the office—
multiple times every day—will take more time than simply driving to the office when reasonably
necessary. And, as reiterated above, it is unworkable because “it would curtail the spontaneous

8
- App. 41 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 23 of 29 PagelD: 42

nature of [my] prayer and it would also subject [me] to being seen and heard by others.” See
Memorandum at 2.
Third, the Memorandum offers me the opportunity to be confined to a repurposed
soundproof room fitted with surveillance cameras and no windows. Memorandum at 3. Yet being
in such a room would further deny me the peace and solitude necessary to pray found in places
such as my backyard. See Request for Accommodation (recognizing the “need to pray . . . such
as in my backyard”); May 6 Email; Memorandum at 3 (recognizing the “preference to pray
outside”). Whereas being confined to a room with no windows fulltime would further deny me
the peace and solitude necessary to pray, the need to commute back and forth to such a room would
also prevent spontaneous prayer and such commuting “would . . . subject [me] to being seen and
heard by others.” See Memorandum at 2. And like the “journey-to-the-center-of-the-400-acreproperty” accommodation, this “accommodation” similarly shows the illogic of denying the
request—and instead requiring a different kind of physical absence from the office: in isolation in
a soundproof room even with the door “lockfed].” See Memorandum at 3.

The past year and present status quo have made it abundantly clear that working from home
does not impose an undue hardship: It has been and continues to be permitted widely based on a
secular rationale. The Memorandum—completely lacking in specific examples, concrete facts,
and individualized analysis—shows that ECPO has not engaged in a bona fide effort to
accommodate my sincerely held religious practice and observance.5 The reasons for denying the

5
The Memorandum asserts that I “have identified as holding a belief in Christianity without more specific
information provided about any particular provision of Christianity connected to [my] accommodation request.”
Memorandum at 1. This assertion is false: I have repeatedly stated that prayer is a necessary component of my
practice of Christianity, that Christianity as I practice it requires prayer in peace and solitude such as in my backyard
throughout the day. The assertion also seems disingenuous: No one asked about “more specific information ... about
any particular provision of Christianity” at the May 6 meeting.

9
- App. 42 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 24 of 29 PagelD: 43

Request for Accommodation offered in the Memorandum do not stand up to scrutiny and cannot
justify treating a religious rationale for telework less favorably than the secular rationale already
accepted. For instance, the Memorandum utterly fails to explain why permitting me to participate
in meetings telephonically (or through Teams, etc.) in order to accommodate my need to pray
would impose an undue hardship, an “unreasonable interference with the safe or efficient operation
of the workplace;” it does not even attempt to explain why physical presence is “required”—either
required at all or required so frequently that the Request for Accommodation must be categorically
denied. And it conspicuously ignores that the Request for Accommodation could be tailored in
the future if necessary, and omits a crucial component of it: willingness to be physically present
whenever “accommodating [my] religious need would cause undue hardship.” Accordingly, it
clearly falls short of demonstrating undue hardship.
If ECPO continues to deny the Request for Accommodation in its entirety, it will be in
violation of theNJLAD among other statutory and constitutional provisions under which I reserve
all rights. I respectfully request that ECPO grant the Request for Accommodation.6

Thank you,
Alex G. Leone

cc:

Theodore N. Stephens, II, Essex County Prosecutor
Romesh Sukhdeo, Acting First Assistant Prosecutor
Walter Dirkin, Deputy Chief Assistant Prosecutor
Gwen Williams, Executive Assistant Prosecutor
Courtney Gaccione, Essex County Counsel

6
The Memorandum asserts that at the May 6 meeting I “confirmed there are no issues outstanding in
connection with [my] prior accommodation requests dated January 10, 2020 and March 2, 2020.” Memorandum at 2.
To be clear, 1 stated that I did not think a religious accommodation request was the proper framework for addressing
that circumstance and that any outstanding issues need not be addressed at that time.

10
- App. 43 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 25 of 29 PagelD: 44

Exhibit F

- App. 44 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 26 of 29 PagelD: 45

OFFICE OF THE ESSEX COUNTY PROSECUTOR
THEODORE N. STEPHENS, II
ACTING ESSEX COUNTY PROSECUTOR
ESSEX COUNTY VETERANS COURTHOUSE, NEWARK, NEW JERSEY 07102
Tel: (973) 621-4700

Fax: (973) 621-5697

MITCHELL G. McGUIRE III

ROMESH C. SUKHDEO

ACTING CHIEF OF DETECTIVES

ACTING FIRST ASSISTANT PROSECUTOR

MEMORANDUM

TO:

Alexander Leone, Assistant Prosecutor

FROM: Roger J. Imhof, Chief Assistant Prosecutor
DATE: June 9, 2021
RE:

Religious Accommodation Request

I am in receipt of you Memorandum dated June 1, 2021, which sets forth your renewed
request for a religious accommodation from the Essex County Prosecutor’s Office (ECPO). The
ECPO’s position, set forth in its Memorandum dated May 12, 2021, remains unchanged.
Furthermore, please be advised that your request to be transferred to the Appellate Section was
denied by an email from the Director of the Appellate Section, Frank Ducoat (dated May 3, 2021),
as there are currently no openings in this section. Your request has been noted and should future
openings become available your request will be considered. Thank you for your attention to this
matter.

cc:

Theodore N. Stephens, II, Essex County Prosecutor
Romesh Sukhdeo, Acting First Assistant Prosecutor
Walter Dirkin, Deputy Chief Assistant Prosecutor
Gwen Williams, Executive Assistant Prosecutor
Amy DePaul, Trial Court Administrator
Robert Jackson, County Administrator/Director of Human Resources
Jaqueline Jones, Deputy Director, Human Resources
Courtney Gaccione, Essex County Counsel

AN EQUAL OPPORTUNITY EMPLOYER
www njecpo.org

- App. 45 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 27 of 29 PagelD: 46

Exhibit G

- App. 46 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 28 of 29 PagelD: 47
Alexander Leone
From:

Roger Imhof
Thursday, June 10,2021 5:38 PM
Alexander Leone
Theodore Stephens; Romesh Sukhdeo; Gwen Williams; Courtney Gaccione
RE: Religious Accommodation

Sent:
To:
Cc:

Subject:
A.P. Leone,

I would again direct you to the Memorandum dated May 12,2021, regarding your request for a religious
accommodation from the Essex County Prosecutor's Office (ECPO) for guidance. ECPO continues to stand by the
reasons set forth in the memorandum as the basis of the religious accommodation being offered to you.
Thank you.

\

m
ujn]

X1

fjfflj Roger J. Imhof
j£jj§ Chief Assistant Prosecutor
jfig Essex County Prosecutor’s Office
HI 50 West Market Street
Newark, New Jersey 070102
21 0-973.621.5693

vw

From: Alexander Leone
Sent: Thursday, June 10,202111:06 AM
To: Roger Imhof <Roger.lmhof@njecpo.org>
Cc: Theodore Stephens <Theodore.Stephens@njecpo.org>; Romesh Sukhdeo <Romesh.Sukhdeo@njecpo.org>; Gwen
Williams <Gwen.Williams@njecpo.org>; Roger Imhof <Roger.lmhof@njecpo.org>; Courtney Gaccione
ccgaccione @cou nse I .essexcou ntynj .org>
Subject: Re: Religious Accommodation
Dear CAP Imhof,
This memo says that "ECPO's position... remains unchanged" but does not provide any substantive reply. To be clear:
•
•

Neither you nor anyone else has any substantive reply to any of the points raised in my June 1 memo? Or any
additional reason or explanation for denying the renewed request?
Are there any people other than those cc'd on this email who have participated in the process of considering
and denying the request?

Separately, what is the process for appealing this denial?
Thank you,
Alex
1

- App. 47 -

Case 2:21-cv-12786-SDW-ESK Document 1-1 Filed 06/18/21 Page 29 of 29 PagelD: 48

From: Roger Imhof <Roeer.lmhof(S)niecpo.ore>
Sent: Wednesday, une , 2021 12:2 PM
To: Alexander Leone <Alexander.Leone(5>niecDo.org>
Subject: Religious Accommodation
A.P. Leone,
Attached please find CP

s response to your memorandum dated une 1, 2021.

C~i

2

- App. 48 -

js44 (Rev.04flf?ase 2:21-cv-12786-SDW-E^Kj^5ct^5^|^ §^^^6/18/21 Page 1 of 2 PagelD: 49
The JS 44 civil cover sheet and the information contained herein neither replace nor supplement the filing and service of pleadings or other papers as required by law, except as
provided by local rules of court. This form, approved by the Judicial Conference of the United States in September 1974, is required for the use of the Clerk of Court for the
purpose of initiating the civil docket sheet. (SEE INSTRUCTIONS ON NEXT PAGE OF THIS FORM.)

DEFENDANTS

I. (a) PLAINTIFFS

Alex G. Leone

Essex County Prosecutor's Office et al.
Union

County of Residence of First Listed Defendant

(b) County of Residence of First Listed Plainti ff
(EXCEPTIN U.S. PUUNTIFF CASES)

NOTE:

Attorneys (If Known)

(c) Attorneys (Firm Name. Address, and Telephone Number)

II. BASIS OF JURISDICTION (Place an "X" in One Box Only)
| |1

U.S. Government
Plaintiff

03

Federal Question
(U.S. Government Not a Party)

| 12

U.S. Government
Defendant

| j4

Diversity
(Indicate Citizenship ofParlies in Item III)

III. CITIZENSHIP OF PRINCIPAL PARTIES (Placean “X" in One Boxfor Plaintiff
and One Box for Defendant)
(For Diversity Cases Only)
PTF
DEF
PTF
DEF
Citizen of This State
0 I
0 1 Incorporated or Principal Place
□ 4 C|4
of Business In This State
Citizen of Another State

| j2

| | 2

Incorporated and Principal Place
of Business In Another State

Q 5

Citizen or Subject of a
Foreign Country

| |3

| | 3

Foreign Nation

□ 6 D6

FORFEITURE/PENALTY
^625 Drug Related Seizure
of Property 21 USC88I
1690 Other

PERSONAL INJURY
110 Insurance
PERSONAL INJURY
310 Airplane
| | 365 Personal Injury 120 Marine
Product Liability
130 Miller Act
315 Airplane Product
| | 367 Health Care/
Liability
140 Negotiable Instrument
Phannaceutical
150 Recovery of Overpayment □ 320 Assault, Libel &
Slander
Personal Injury
& Enforcement of Judgment
Product Liability
| 330 Federal Employers’
151 Medicare Act
| | 368 Asbestos Personal
152 Recover)' of Defaulted
Liability
Injur)' Product
Student Loans
340 Marine
345 Marine Product
Liability
(Excludes Veterans)
LABOR
| | 153 Recovery of Overpayment
Liability
PERSONAL PROPERTY
_ 370 Other Fraud
_1710 Fair Labor Standards
350 Motor Vehicle
of Veteran’s Benefits
_ 371 Truth in Lending
Act
355 Motor Vehicle
_ 160 Stockholders' Suits
_ 380 Other Personal
720 Labor/Managcincnt
_ 190 Other Contract
Product Liability
| 360 Other Personal
Property Damage
Relations
_ 195 Contract Product Liability
740 Railway Labor Act
| | 385 Property Damage
Injuty
196 Franchise
| 362 Personal Injury 751 Family and Medical
Product Liability
Leave Act
Medical Malpractice
REAL PROPERTY
CIVIL RIGHTS
PRISONER PETITIONS ^790 Other Labor Litigation
^791 Employee Retirement
__ 440 Other Civil Rights
Habeas Corpus:
210 Land Condemnation
_ 441 Voting
| 463 Alien Detainee
Income Security Act
220 Foreclosure
442 Employment
^ 510 Motions to Vacate
230 Rent Lease & Ejectment
_ 443 Housing/
Sentence
240 Torts to Land
| 530 General
Accommodations
245 Tort Product Liability
IMMIGRATION
290 All Other Real Property
| 445 Amer. w/Disabilities - 1 535 Death Penalty
1462 Naturalization Application
Employment
Other:
j 465 Other Immigration
| 446 Amer. w/Disabilities 540 Mandamus & Other
Other
^'550 Civil Rights
Actions
__ 555 Prison Condition
448 Education
_ 560 Civil Detainee Conditions of
Confinement

3

3
3

3

V. ORIGIN (Placean “X" in One Box Only)
Removed from
State Court

|^| I Original
Proceeding

□2

VI. CAUSE OF ACTION

□3

| 15

Click here for: Nature of Suit Code Descriptions.

IV* NATURE OF SUIT (Placean “X" in One Box Only)
CONTRACT
TORTS

B

Essex

(IN U.S. PLAINTIFF CASES ONLY)
IN LAND CONDEMNATION CASES, USE THE LOCATION OF
THE TRACT OF LAND INVOLVED.

Remanded from
Appellate Court

| 14 Reinstated or
Reopened

S
_
_
_
| |
[ 1

BANKRUPTCY
422 Appeal 28 USC 158
423 Withdrawal
28 USC 157
INTELLECTUAL
PROPERTY RIGHTS
820 Copyrights
830 Patent
835 Patent - Abbreviated
New Drug Application
840 Trademark
880 Defend Trade Secrets
Act of 2016
SOCIAL SECURITY
861 H1A (1395ff)
862 Black Lung (923)
863 D1WC/DIWW (405(g))
864 SSID Title XVI
865 RSI (405(g))

FEDERALTAX SUITS
□ 870 Taxes (U.S. Plaintiff
or Defendant)
□ 871 IRS—Third Party
26 USC 7609

| | 5 Transferred from
Another District
(specify)

OTHER STATUTES

3

375 False Claims Act
376 QuiTam (31 USC
3729(a))
400 State Reapportionment
410 Antitrust
430 Banks and Banking
450 Commerce
460 Deportation
470 Racketeer Influenced and
Corrupt Organizations
| 480 Consumer Credit
(15 USC 1681 or 1692)
| 485 Telephone Consumer
Protection Act
490 Cablc/Sat TV
850 Securities/Commodities/
Exchange
890 Other Statutory Actions
891 Agricultural Acts
893 Environmental Matters
895 Freedom of Information

3
3

Act

896 Arbitration
899 Administrative Procedure
Act/Review or Appeal of
__
Agency Decision
I 950 Constitutionality of
State Statutes

| | 6 Multidistrict
Litigation Transfer

| | 8 Multidistrict
Litigation Direct File

Cite the U.S. Civil Statute under which you arc filing (Do no! cite jurisdictional statutes unless diversity).
42U.S.C. s. 1983
Brief description of cause:

Defendants have infringed Plaintiffs First Amendment right to free exercise and violated his rights under state law (NJLAD).
DEMAND S
CHECK YES only if demanded in complaint:
JURY DEMAND:
SZlYes DNo

VII. REQUESTED IN
□ CHECK IF THIS IS A CLASS ACTION
UNDER RULE 23, F.R.Cv.P.
COMPLAINT:
VIII. RELATED CASE(S)
(See instructionsj:
IF ANY
JUDGE

DOCKET NUMBER

SIGNATURE OF ATTORNEY OF RECORD

DATE

June 18, 2021
FOR OFFICE USE ONLY
RECEIPT#

- App. 49 -

AMOUNT

APPLYING IFP

JUDGE

MAG. JUDGE

]

JS 44 Reverse

(R&aee)2:21-cv-12786-SDW-ESK Document 1-2 Filed 06/18/21 Page 2 of 2 PagelD: 50
INSTRUCTIONS FOR ATTORNEYS COMPLETING CIVIL COVER SHEET FORM JS 44
Authority For Civil Cover Sheet

The JS 44 civil cover sheet and the information contained herein neither replaces nor supplements the filings and service of pleading or other papers as
required by law, except as provided by local rules of court. This form, approved by the Judicial Conference of the United States in September 1974, is
required for the use of the Clerk of Court for the purpose of initiating the civil docket sheet. Consequently, a civil cover sheet is submitted to the Clerk of
Court for each civil complaint filed. The attorney filing a case should complete the form as follows:
1(a)

(b)

(c)

Plaintiffs-Defendants. Enter names (last, first, middle initial) of plaintiff and defendant. If the plaintiff or defendant is a government agency, use
only the full name or standard abbreviations. If the plaintiff or defendant is an official within a government agency, identify first the agency and then
the official, giving both name and title.
County of Residence. For each civil case filed, except U.S. plaintiff cases, enter the name of the county where the first listed plaintiff resides at the
time of filing. In U.S. plaintiff cases, enter the name of the county in which the first listed defendant resides at the time of filing. (NOTE: In land
condemnation cases, the county of residence of the "defendant" is the location of the tract of land involved.)
Attorneys. Enter the firm name, address, telephone number, and attorney of record. If there are several attorneys, list them on an attachment, noting
in this section "(see attachment)".

II.

Jurisdiction. The basis of jurisdiction is set forth under Rule 8(a), F.R.Cv.P., which requires that jurisdictions be shown in pleadings. Place an "X"
in one of the boxes. If there is more than one basis ofjurisdiction, precedence is given in the order shown below.
United States plaintiff. (1) Jurisdiction based on 28 U.S.C. 1345 and 1348. Suits by agencies and officers of the United States are included here.
United States defendant. (2) When the plaintiff is suing the United States, its officers or agencies, place an "X" in this box.
Federal question. (3) This refers to suits under 28 U.S.C. 1331, where jurisdiction arises under the Constitution of the United States, an amendment
to the Constitution, an act of Congress or a treaty of the United States. In cases where the U.S. is a party, the U.S. plaintiff or defendant code takes
precedence, and box 1 or 2 should be marked.
Diversity of citizenship. (4) This refers to suits under 28 U.S.C. 1332, where parties are citizens of different states. When Box 4 is checked, the
citizenship of the different parties must be checked. (See Section III below; NOTE: federal question actions take precedence over diversity
cases.)

III.

Residence (citizenship) of Principal Parties. This section of the JS 44 is to be completed if diversity of citizenship was indicated above. Mark this
section for each principal party.

IV.

Nature of Suit. Place an "X" in the appropriate box. If there are multiple nature of suit codes associated with the case, pick the nature of suit code
that is most applicable. Click here for: Nature of Suit Code Descriptions.

V.

Origin. Place an "X" in one of the seven boxes.
Original Proceedings. (1) Cases which originate in the United States district courts.
Removed from State Court. (2) Proceedings initiated in state courts may be removed to the district courts under Title 28 U.S.C., Section 1441.
Remanded from Appellate Court. (3) Check this box for cases remanded to the district court for further action. Use the date of remand as the filing
date.
Reinstated or Reopened. (4) Check this box for cases reinstated or reopened in the district court. Use the reopening date as the filing date.
Transferred from Another District. (5) For cases transferred under Title 28 U.S.C. Section 1404(a). Do not use this for within district transfers or
multidistrict litigation transfers.
Multidistrict Litigation - Transfer. (6) Check this box when a multidistrict case is transferred into the district under authority of Title 28 U.S.C.
Section 1407.
Multidistrict Litigation - Direct File. (8) Check this box when a multidistrict case is filed in the same district as the Master MDL docket.
PLEASE NOTE THAT THERE IS NOT AN ORIGIN CODE 7. Origin Code 7 was used for historical records and is no longer relevant due to
changes in statute.

VI.

Cause of Action. Report the civil statute directly related to the cause of action and give a brief description of the cause. Do not cite jurisdictional
statutes unless diversity. Example: U.S. Civil Statute: 47 USC 553 Brief Description: Unauthorized reception of cable service.

VII.

Requested in Complaint. Class Action. Place an "X" in this box if you are filing a class action under Rule 23, F.R.Cv.P.
Demand. In this space enter the actual dollar amount being demanded or indicate other demand, such as a preliminary injunction.
Jury Demand. Check the appropriate box to indicate whether or not a jury is being demanded.

VIII. Related Cases. This section of the JS 44 is used to reference related pending cases, if any. If there are related pending cases, insert the docket
numbers and the corresponding judge names for such cases.
Date and Attorney Signature. Date and sign the civil cover sheet.

- App. 50 -

Case 2:21-cv-12786-SDW-ESK Document 8 Filed 07/30/21 Page 1 of 1 PagelD: 61

UNITED STATES DISCTICT COURT
DISTRICT OF NEW JERSEY
x

NOTICE OF MOTION

ALEX G. LEONE,
Plaintiff,

AND MOTION FOR
PRELIMINARY

v.

INJUNCTION
ESSEX COUNTY PROSECUTOR’S OFFICE,

Docket No. 2:21-cv-12786

THEODORE STEPHENS II,
ROMESH SUKHDEO,
GWENDOLYN WILLIAMS,
and
ROGER IMHOF,
in their individual and official capacities,
Defendants.
x

To the Parties and their Attorneys:
PLEASE TAKE NOTICE that on September 7, 2021, or as soon thereafter as the matter
may be heard, before the Honorable Susan D. Wigenton, United States District Court,
Martin Luther King Building & U.S. Courthouse, Courtroom 5C, Newark, New Jersey,
Plaintiff will and hereby does move the Court for a preliminary injunction.
As explained in the Complaint, Plaintiff seeks to pray each day as his religion
requires, and to that end he sought a religious accommodation from his government
employer, the Essex County Prosecutor’s Office, and its highest-ranking officials, the
individual defendants. Defendants, however, categorically denied that request for a
religious accommodation, thereby prohibiting Plaintiffs free exercise, while, for secular
reasons, broadly extending the very same accommodation Plaintiff sought to other
employees. Defendants continue to engage in religious discrimination against Plaintiff to
this day, and have indicated that they will increase their infringement of Plaintiffs free
exercise by 100% starting August 2, 2021.
In particular, Plaintiff seeks to enjoin Defendants from disciplining or
disadvantaging Plaintiff simply for his free exercise, insofar as he must pray outside the
office at home, in a manner completely consistent with all job responsibilities and rules.
This Motion is based on the Complaint in this action; this Notice of Motion; the
Memorandum of Points and Authorities filed herewith; the Declaration of Plaintiff and
other attached exhibits; all material of which this Court may take judicial notice; and such
oral and documentary evidence as may be presented to the Court.
Date: July 30, 2021
Respectfully submitted:
By: /s/Alex G. Leone
Alex G. Leone

- App. 51 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 1 of 17 PagelD: 62

UNITED STATES DISCTICT COURT
DISTRICT OF NEW JERSEY
x

ALEX G. LEONE,

MEMORANDUM OF
POINTS AND

Plaintiff,
v.

AUTHORITIES

ESSEX COUNTY PROSECUTOR’S OFFICE,

Docket No. 2:21-cv-12786

THEODORE STEPHENS II,
ROMESH SUKHDEO,
GWENDOLYN WILLIAMS,
and
ROGER IMHOF,
in their individual and official capacities,
Defendants.
x

TABLE OF CONTENTS
Introduction

p. 2

Factual Background

p. 2

Legal Standard........

p. 5

Argument................

p. 5

Conclusion..............

p. 17

1
- App. 52 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 2 of 17 PagelD: 63

INTRODUCTION
For more than a year, Defendants have judged that secular reasons are adequate to permit
employees to work from home, and have permitted many employees to do just that,
including on a fulltime basis. Yet at the same time, Defendants have judged religious
reasons inadequate to permit a single employee to work from home at all, and have
categorically prohibited Plaintiff from so doing. The effect of this discriminatory policy
choice—as explained to Defendants prior and subsequent to the filing of this action—is
to prevent Plaintiff from praying as his religion requires throughout each work day. This
infringement of free exercise is devastating to Plaintiff.
Defendants currently require Plaintiff to be physically present in the office during
each day of every other week.

Although this requirement is arbitrary and

discriminatory—again, Defendants have permitted many employees to work from home
fulltime for secular reasons—it is preferable to what Defendants have now stated they
will do on August 2: require Plaintiff to forego his prayer practice every day of every
week, instead of every other week. Changing the status quo and increasing infringement
of Plaintiff s free exercise by 100% is not only unnecessary and inhumane; it is unlawful.
As explained below, this change to the status quo threatens immediate irreparable
injury to Plaintiff, in addition to the irreparable injury already inflicted routinely. The
balance of equities is not even close: It tips decisively in Plaintiffs favor. And the vague
and conclusory reasons asserted to support this discrimination show that it cannot be in
the public interest. Accordingly, Plaintiff respectfully requests a preliminary injunction.
FACTUAL BACKGROUND
Plaintiff incorporates the Complaint (“Compl.”) and its attachments by reference
and briefly recounts the following facts. During the past year, Defendants have permitted
employees to work from home for secular reasons (e.g., to prevent viral transmission).

2
- App. 53 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 3 of 17 PagelD: 64

(Compl. ^[15). For instance, employees in the “Adult Trial” section of Plaintiffs office
were permitted to work from home fulltime during November 2020 into June 2021; and
employees in the “Appellate” section of Plaintiffs office have been permitted to work
from home fulltime from March 2020 to this day. (Compl. f 17; Motion for Preliminary
Injunction (“MPI”) Ex. A

10 & 11). i

On April 26, 2021, Plaintiff requested that he be permitted to work from home for
religious reasons. (See, e.g., Compl. Exs. A & B (“the Request”)). In sum, Plaintiffs
religion requires him to pray, including aloud and spontaneously, throughout each day;
and Plaintiffs religious belief is that the peace and solitude required for this practice are
impossible in the office. (See, e.g., Compl.

19-27; Compl. Ex. C; MPI Ex. A ^ 13).

Notably, in requesting a religious accommodation, Plaintiff did not request to be absolved
of any work responsibility; Plaintiffs prayer practice has never interfered in his work.
(Compl. | 23; MPI Ex. A f 17). Plaintiff did expressly request an accommodation only
to the extent it would not impose a hardship on Defendants. (See, e.g., Compl. Exs. A &
B). Plaintiff is, and has always been, fully willing to be physically present for anything
required by his job responsibilities—including, for instance, in-person court appearances,
witness interviews, or any other obligation. (See, e.g., Compl.

62; MPI Ex. A ^ 9).

Defendants, nonetheless, categorically denied Plaintiffs request for a religious
accommodation, thus prohibiting his free exercise of religion on all work days. (Compl.
Ex. D; MPI Ex. A ^ 13). Astonishingly, Defendants’ categorical prohibition applies
regardless of the circumstances and even “in the future.” (Compl. Ex. D at 3).
Defendants’ sole rationale for this extreme prohibition consisted of a single
paragraph of assertions. (See id. at 2-3). Defendants refused to explain these assertions.

i

This Memorandum cites exhibits both to the Complaint and to this Motion. In
citing exhibits to the Complaint, this Memorandum will cite “Compl. Ex.__.” In citing
exhibits to this Motion, this Memorandum will cite “MPI Ex.__.”
3
- App. 54 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 4 of 17 PagelD: 65

{See Compl. Exs. E, F & G). And, factually as well as a matter of common sense, it is
clear that the assertions cannot justify Defendants’ categorical religious discrimination
against Plaintiff. {See Compl. Ex. E at 2-6; MPI Ex. A

3-8 & 17). If this was clear on

May 12, 2021, when Defendants denied the Request, it is even clearer today, given that
over the past several months none of the purported reasons Defendants gave for
categorically prohibiting Plaintiffs prayer practice has ever applied. {See MPI Ex. A
3-6). In addition, Defendants offered Plaintiff alternative “accommodations” that either
make no sense—for instance, Defendants’ foremost offer of an “accommodation” is
literally no accommodation (Compl. Ex. D at 3)—or directly contradict Defendants’
putative rationale for denying the Request to begin with—for instance, Defendants would
generally permit Plaintiff to be physically out of the office to range “a four hundred (400)
acre [public park] ... so long as it does not adversely impact [his] work responsibilities”
(Compl. Ex. D at 3), but never permit Plaintiff work at his nearby home, where he can
actually pray and work consistent with his job responsibilities, on the very same condition
{see, e.g., Compl. ^ 58; MPI Ex. Afflf 13-17).
On June 22, 2021, in a letter to Defendants’ counsel, Plaintiff reiterated that
“[e]very day [he is] required to go to the office for no apparent reason, [he] suffer[s]
foregoing [his] prayer practice,” and respectfully requested that at least during days
Plaintiff’s supervisor would not be in the office and on vacation—amounting to weeks
across June through August—Plaintiff be permitted to work from home as he does
normally and efficiently every other week. (MPI Ex. B). Counsel for Defendants never
responded to this letter or even acknowledged its receipt.2

2

Subsequently, on July 23, Plaintiff forwarded the letter to Defendants’ newer
counsel {see E.C.F. No. 6), who did acknowledge its receipt.
4

- App. 55 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 5 of 17 PagelD: 66

On July 26, 2021, Defendant Sukhdeo announced that “starting Monday, August
2, 2021,” there would “no longer be” a schedule that permits Plaintiff to work from home
at least half the time. (See M PI Ex. C). Unless the Court grants preliminary relief, this
change in the status quo will cause a 100% increase in Defendants’ infringement of
Plaintiffs free exercise, doubling the number of days on which Defendants prohibit
Plaintiffs prayer practice.
LEGAL STANDARD
“A plaintiff seeking a preliminary injunction must establish that he is likely to
succeed on the merits, that he is likely to suffer irreparable harm in the absence of
preliminary relief, that the balance of equities tips in his favor, and that an injunction is
in the public interest.” Winter v. Natural Res. Def. Council, Inc., 555 U.S. 7, 20 (2008).
Establishing likelihood of success on the merits does not require a showing that the
plaintiffs chance of success is “more likely than not,” but only “a showing significantly
better than negligible:” that the plaintiff “can win on the merits.” Reilly v. City of
Harrisburg, 858 F.3d 173, 179 (3d Cir. 2017) (emphasis added). The balance-of-equities
and public-interest factors “merge when the Government is the opposing party.” Nken v.
Holder, 556 U.S. 418, 435 (2009).
ARGUMENT
I.

Plaintiff has a strong likelihood of success on the merits.
Plaintiff establishes not only that he can win on the merits, but that his likelihood

of success is strong.

As explained below, Defendants’ totally untailored religious

discrimination against Plaintiff is subject to strict scrutiny, which it flatly fails. Moreover,
Defendants “ha[ve] not offered any interest in defense of [their discriminatory] policy
that is able to withstand any form of heightened scrutiny.” See Fraternal Ord. of Police
Newark Lodge No. 12 v. City of Newark, 170 F.3d 359, 366 (3d Cir. 1999) (Alito, J.);

5
- App. 56 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 6 of 17 PagelD: 67

(Compl. Ex. D at 2-3; Compl. Ex. E at 2-6).3 Defendants, therefore, fail to carry their
burden on this motion. See Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal,
546 U.S. 418, 429 (2006); Reilly, 858 F.3d at 180; see also Ashcroft v. American Civil
Liberties Union, 542 U.S. 656, 666 (2004) (affirming that a plaintiff moving for a
preliminary injunction “must be deemed likely to prevail” unless the government justifies
its infringement of First Amendment liberty under the appropriate level of scrutiny).
The First Amendment to the United States Constitution provides: “Congress shall
make no law respecting an establishment of religion, or prohibiting the free exercise
thereof. . . .” (The Free Exercise Clause governs not only Congress, but States and their
political subdivisions, agencies, and officials as well. See, e.g., Church of the Lukumi
Babalu Aye, Inc. v. City ofHialeah, 508 U.S. 520, 531 (1993).) “Free exercise” includes
“not only belief and profession but the performance of (or abstention from) physical acts.”
Employment Div. v. Smith, 494 U.S. 872, 877 (1990). And the Free Exercise Clause
protects even religious practices that some may find unusual or idiosyncratic, such as the
ritual killing and eating of guinea pigs and turtles. See, e.g., Lukumi, 508 U.S. at 525;
Thomas v. Review Bd. of the Ind. Emp’t Sec. Div., 450 U.S. 707, 714 (1981); see also Sts.
Constantine & Helen Greek Orthodox Church, Inc. v. City ofNew Berlin, 396 F.3d 895,
900 (7th Cir. 2005) (noting the “vulnerability” of informal or uncommon Christian

3

If Defendants were to offer new reasons for their discrimination now—after
requiring Plaintiff to file a lawsuit and seek emergency relief—it would mean the reasons
originally offered were pretextual: at the very least, that they were not the reasons that
“actually motivate[d]” Defendants’ decision to deny Plaintiff a religious accommodation.
See Fuentes v. Perskie, 32 F.3d 759, 764 (3d Cir. 1994); (see also infra, note 4). What’s
more: Defendants chose to “stand by” the reasons originally offered as the sole rationale
for their religious discrimination, and refused to offer any additional reason when
Plaintiff asked Defendants before filing this lawsuit. “Neither you nor anyone else has
any . . . additional reason or explanation [for categorically denying Plaintiffs request for
a religious accommodation]?” (Compl. Ex. G).
Inexplicably, Defendants also refused to respond when asked if there is a “process
for appealing th[e] denial” of Plaintiff s request for a religious accommodation. (Id.).
6
- App. 57 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 7 of 17 PagelD: 68

practices to “subtle forms of discrimination”). “[T]he guarantee of free exercise is not
limited to beliefs which are shared by all of the members of a religious sect.” Thomas,
450 U.S. at 715-16. “Courts should not undertake to dissect religious beliefs,” id. at 715,
and “[evaluating the extent of a burden on religious practice is equally impermissible,”
Tenafly Eruv Ass'n v. Borough ofTenafly, 309 F.3d 144, 170 (3d Cir. 2002). Nor is it
permissible to enquire whether religious practices are “mandatory” or “optional.” Id.
Requiring an employee to forego a sincerely-held religious practice as a condition
of retaining employment infringes his right to free exercise within the meaning of the
First Amendment. See, e.g., Thomas, 450 U.S. at 717; Sherbert v. Verner, 374 U.S. 398,
404 (1963); see also Lyng v. Nw. Indian Cemetery Protective Ass’n, 485 U.S. 439, 450
(1988) (“[T]his Court has repeatedly held that indirect coercion or penalties on the free
exercise of religion, not just outright prohibitions, are subject to scrutiny under the First
Amendment.”). For instance, it is unlawful to force an employee “to choose between
following the precepts of her religion and forfeiting benefits, on the one hand, and
abandoning one of the precepts of her religion in order to accept work, on the other hand.”
See, e.g., Hobbie v. Unemployment Appeals Comm’n of Fla., 480 U.S. 136, 140 (1987)
(quoting Sherbert, 374 U.S. at 404); Thomas, 450 U.S. at 717.
Incidental infringement of free exercise could be legally permissible under Smith,
but Smith's rule, by its own terms, applies when an infringement of free exercise is the
result of a “valid and neutral law of general applicability.” See 494 U.S. at 879; Fulton
v. City ofPhiladelphia, Pennsylvania, 593 U.S.___,___(slip op.) at 5 (June 17, 2021).
A government policy can fail to be “generally applicable” in numerous ways, such as:
•

If it “prohibits rel igious conduct whi le permitting secular conduct that undermines
the government’s asserted interests in a similar way,” Fulton, (slip op.) at 6;

7
- App. 58 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 8 of 17 PagelD: 69

•

If a state actor “permit[s] secular exemptions [to the policy] but not religious
ones,” Fulton, (slip op.) at 5-6, including “individualized exemptions,” see, e.g.,
Ward v. Polite, 667 F.3d 727, 739, 740 (6th Cir. 2012), or “categorical
exemptions,” see, e.g., Fraternal Order, 170 F.3d at 365; or

•

“[WJhenever [the policy] treatfs] any comparable secular activity more favorably
than religious exercise,” Tandon v Newsom, 141 S. Ct. 1294, 1296 (2021) (citing
Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 67-68 (2020) (per
curiam)).
And when the requirement of general applicability is not met, strict scrutiny

applies. Fulton, (slip op.) at 13; Tandon, 141 S. Ct. at 1296. Here, Defendants fail to
comply with the mandates of neutrality and general applicability three times over:
•

Defendants have “prohibited] religious conduct,” i.e., working at home for
religious reasons in a manner completely consistent with job responsibilities,
“while permitting secular conduct,” i.e., working from home for secular
reasons, which “undermines the government’s asserted interests in a similar
way”—in fact, the same exact way, see Fulton, (slip op.) at 6.

•

Defendants “permit secular exemptions,” e.g., medical-based exemptions,
“but not religious ones,” Fulton, (slip op.) at 5-6; (Compl. ffl] 15-18; MPI Ex.
A lfl[ 3 & 10-12); Defendants use “a system of individualized exemptions” that
permits some employees to work from home (e.g., employees in the “Adult
Trial” or “Appellate” sections) at some times (e.g., fulltime from March 2020
even to today) but not others, and for some reasons (e.g., secular reasons
related to the pandemic, or employees’ other reasons) but not others, see, e.g.,
Ward, 667 F.3d 739-40; and Defendants categorically discriminate against
religious exemptions, see, e.g., Fraternal Order, 170 F.3d at 365; (Compl. Ex.

8
- App. 59 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 9 of 17 PagelD: 70

D at 2-3). In other words, “we are confronted with a scheme that features both
individualized and categorical secular exemptions.” See Blackhawk v.
Commonwealth, 381 F.3d 202, 212 (3d Cir. 2004) (Alito, J.).
•

Defendants also treat the activity of working from home for secular reasons
more favorably than the same exact activity undertaken for religious reasons,
which they have unlawfully chosen to prohibit categorically, see Tandon, 141
S. Ct. at 1296; (Compl. fflj 35 & 53-54; Compl. Ex. D at 2-3).

So strict scrutiny applies three times over, and it is fatal to Defendants’ religious
discrimination against Plaintiff:

To survive strict scrutiny, the government must

demonstrate that its infringement of free exercise furthers “interests of the highest order”
and is “narrowly tailored in pursuit of those interests.” Lukumi, 508 U.S. at 546.
Defendants cannot demonstrate either requirement; they do not even come close to
meeting their burden under any form of heightened scrutiny, let alone strict scrutiny:.4
•

Defendants assert only weak and vague interests in support of their religious
discrimination, not backed by any concrete fact or specific example, see, e.g,
Fulton, (slip op.) at 13-14 (“The City states these objectives at a high level of
generality, but the First Amendment demands a more precise analysis.” (emphasis
added)); and Defendants provided no individualized analysis in their
discrimination against Plaintiff, see, e.g., id. at 14 (“The question ... is not
whether the City has a compelling interest in enforcing its . . . policies generally,

4

Plaintiffs position is that Defendants have not shown even a de minimis interest
in support of their discrimination. (See, e.g., Compl. Ex. Eat 2-10; see generally Compl.).
In addition, because Defendants’ discrimination is motivated by unlawful intent, is totally
untailored, and is shot through with inconsistencies, it would not pass even the most
minimal level of scrutiny, let alone a heightened level of scrutiny, let alone strict scrutiny.
See, e.g., Romer v. Evans, 517 U.S. 620, 632-33 (1996); (infra, notes 5 & 8).
9
- App. 60 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 10 of 17 PagelD: 71

but whether it has such an interest in denying an exception to [Plaintiff in
particular]”); (Compl. Ex. D at 2-3; Compl. Ex. E at 2-6); and
•

Defendants have categorically prohibited Plaintiff’s free exercise of his prayer
practice under all circumstances and even in the future—the exact opposite of
narrow tailoring (see, e.g., Compl.

53 (Defendants have refused to permit even

“one day, hour, or minute” of work from home as necessary to accommodate
prayer); Compl. Ex. D at 2-3); Fulton, (slip op.) at 13-14.
Defendants refused to provide any additional reasons or explanation for this
religious discrimination. (Compl. Exs. F & G; supra, note 2). Yet by extending the very
same accommodation requested by Plaintiff to many other employees for months or even
more than a year (see Compl.

17&48;MPIEx.

10-12), Defendant Essex County

Prosecutor’s Office “itself has demonstrated that it has at its disposal an approach” that
would accommodate Plaintiffs sincerely-held religious practice without even a minimal
burden. See Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682, 730 (2014). Defendants
even considered and denied the Request—during April 26, 2021, to May 21, 2021 —
during the very time they were already granting the same accommodation to other
employees for secular reasons, proving they have at their disposaljust such an approach.
See id. 573 U.S. at 730; (Compl. Exs. A & D; MPI Ex. A

3, 6-8 & 10-12).

Defendants, therefore, flatly fail strict scrutiny. And as made clear in Plaintiffs
response (Compl. Ex. E) to Defendants’ denial of the Request (Compl. Ex. D),
Defendants “ha[ve] not offered any interest in defense of [their] policy that is able to
withstand any form of heightened scrutiny. ” See Fraternal Order, 170 F.3d at 366.
If the Court of Appeals’s decision in Fraternal Order, is not directly on point here,
it is on all fours with this case. There, as here, the government had a policy requiring its
employees to forego a sincerely held religious practice: growing a beard. See id. at 360.

10
- App. 61 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 11 of 17 PagelD: 72

There, as here, the government made exemptions to its policy for secular reasons. See id.
at 365. There, as here, the government “refuse[d] to make exemptions” for an employee
“whose religious beliefs prohibit them” from complying with the general policy. See id.
at 360. And there, as here, the reasons offered by the government to justify its religious
discrimination dissolved under scrutiny. See id. at 366-67. For instance, the Court of
Appeals rejected even physical safety—“undoubtedly an interest of the greatest
importance”—as a satisfactory rationale for the government’s discrimination because the
government’s “policy w[as] not tailored to serve that interest.” Id. at 366; see also Roman
Catholic Diocese, 141 S. Ct. at 61 (enjoining regulations that burdened religious practices
even though the regulations were designed to “[s]tem[] the spread of COVID—19”—an
“unquestionably a compelling interest”—because they were not “narrowly tailored”)
(emphasis added)).
So here:

As discussed above and in the Complaint, Defendants’ religious

discrimination against Plaintiff is totally untailored:

Whereas Defendants judged a

secular rationale for working from home broadly acceptable, and have permitted
employees to work from home fulltime during the past year, Defendants categorically
rejected a religious rationale for working from home and will not permit Plaintiffto work
for home for religious reasons during even “one day, hour, or minute ”—now or “in the
future. ” (See Compl. ^ 54; Compl. Ex. D at 2; MPI Ex. A

8-12). “Defendants made

no effort to determine when [accommodating Plaintiffs free exercise] would cause undue
hardship and when it would not: They simply asserted, categorically, that it always does.”
(Compl. f 53). Defendants’ assertion is antithetical to their legal obligation here: They
“must do more than assert that certain risk [or cost] factors are always present in [working
from home as necessary to pray], or always absent from [working from home for secular
reasons].” See Tandon, 141 S. Ct. at 1296.

11
- App. 62 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 12 of 17 PagelD: 73

But Defendants’ discriminatory policy is not only totally untailored: Unlike safety
and human life in Fraternal Order and Roman Catholic Diocese, the interests purportedly
underlying Defendants’ policy are themselves exceptionally weak, if even coherent. {See
supra, note 4).5 And Defendants offer not even a single concrete fact or specific example
to support these purported interests. For instance, as foremost reasons for categorically
prohibiting Plaintiffs prayer practice, Defendants vaguely assert that “[m]any ECPO
meetings are not pre-scheduled” and that its work is “collaborative” (Compl. Ex. D. at 23); they then utterly fail to explain why permitting Plaintiff to participate in these
nondescript meetings or collaboration “telephonically (vor through Teams, etc.) in order
to accommodate [his] religious need would impose an undue hardship”—or any burden
at all—on Defendants. (Compl Ex. E at 3-4; see also Compl. Ex. E at 4 n.2).6 Defendants
also vaguely assert that “emergent matters that arise may require immediate response,”
but utterly fail to explain why this vague assertion would suggest Plaintiff can never work

5

Multiple instances of inconsistency on the part of Defendants are discussed herein
as well as in the record. {See, e.g., Compl. Ex. E at 2-10). An example that leaps off the
page is the first sentence of Defendants’ one-paragraph rationale for their religious
discrimination: “It is the nature of the work performed by the [Essex County Prosecutor’s
Office] that individuals be physically present in the office.” (Compl. Ex. D at 2). If this
assertion were accurate, it would mean that all of Defendants’ employees working from
home either performed no work or performed no work “in the nature” of their
employment. This assertion is nonsense and even disrespectful to the many employees
who have worked and continue to work hard, even overtime, from home.
6

As discussed in the Complaint, Defendants also observe that “in person courtroom
appearances will resume at some point in the future” and that “[i]n person witness
interviews are preferred over those conducted remotely.” (Compl. Ex. D at 2; see also
Compl. Ex. E at 2-4 (explaining the irrelevance of these observations)). These
observations are uncontested, but how they tend to support a categorical denial of the
Request is unclear. (They do not.) As Defendants are aware, appearing in person for
court hearings or witness interviews or any work obligation is completely consistent with
working from home as a general matter: Over the past year, Plaintiff has been and would
continue to be physically present for all in-person court appearances, witness interviews,
and other obligations {see Compl. ^[ 62 & 65; MPI Ex. A
3 & 9); and the Request
itself expressly recognizes Plaintiffs willingness to be physically present, not only under
those circumstances, but whenever working remotely “would cause undue hardship” for
Defendants (Compl. Exs. A & B).
12

- App. 63 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 13 of 17 PagelD: 74

from his nearby home as necessary to pray in a manner completely consistent with all job
responsibilities and rules. (See id. at 4-5). Let alone that, during the past year, there has
never been such an “emergent matterf]” that necessitated Plaintiffs immediate physical
presence in the office. (MPI Ex. A U 4). Defendants cannot speculate and “assume the
worst” when an employee seeks a religious accommodation. See Tandon, 141 S. Ct. at
1297; Sherbert, 374 U.S. at 407. Yet that is exactly what Defendants have done here.
If Defendants’ vague assertions regarding their interests could have potentially
been found persuasive, Defendants’ own admissions foreclose that possibility multiple
times over. (See Compl.

43-50). First, Defendants acknowledge that only in certain

circumstances, and not always, are employees “required to be in the office during their
‘at home’ week based on the needs of the officer (Compl. Ex. D at 1 (emphasis added)).
Second, Defendants would generally permit Plaintiff to be physically out of the office to
range “a four hundred (400) acre [public park] .. . so long as it does not adversely impact
[his] work responsibilities,” but never permit Plaintiff to be out of the office to work at
his nearby home, where he can actually pray and work in peace and solitude, on the
very same condition. (Compl. Ex. D at 3 (emphasis added)). And third, Defendants
recognize, as they must, that they already widely permitted the accommodation Plaintiff
is seeking to others for secular reasons. (Compl. Ex. D at 1; Compl.

15-18; MPI Ex.

A THf 3 & 10-12). Plaintiff is “at a loss to understand” how permitting numerous other
employees to work from home for secular reasons fulltime during months to a year—or
permitting Plaintiff to range 400 acres at will during work hours—does not “threaten
important. . . interests,” but permitting a single employee to work at home as necessary
to pray does, and allegedly always does. See, e.g., Fraternal Order, 170 F.3d at 366;
(Compl. Ex. D at 2 (categorically prohibiting free exercise “presently or in the future”)).
“[T]here is no apparent reason why permitting [Plaintiff to work from home] for religious

13
- App. 64 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 14 of 17 PagelD: 75

reasons should create any greater difficulties” than permitting many others to work from
home for secular reasons over long periods. See Fraternal Order, 170 F.3d at 366.
Defendants are required “to explain why [they] could not” accommodate
Plaintiffs religious practice, see Tandon, 141 S. Ct. at 1297, yet under even an
intermediate standard of review they fail to carry their burden on this element, see
Gonzales, 546 U.S. at 429; Reilly, 858 F.3d at 180; Fraternal Order, 170 F.3d at 366, so
Plaintiff “must be deemed likely to prevail,” see Ashcroft, 542 U.S. at 666.
II.

Plaintiff will continue to suffer irreparable harm—and face an immediate
threat of even greater irreparable harm—absent preliminary relief.
A person is “irreparably harmed by the loss of free exercise rights ‘for even

minimal periods of time.’” Tandon v. Newsom, 141 S. Ct. 1294, 1297 (2021) (citing
Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 67 (2020)). Yet, here, the
prohibition on Plaintiffs prayer practice imposed by Defendants is not “minimal” in
duration. See id. According to Defendants themselves, it is categorical and permanent.
{See Compl. Ex. D at 2 (categorically denying Plaintiffs request to work from home as
necessary to pray, regardless of the circumstances, “presently or in the future”)).7
For months, Plaintiff has been using “accrued time” (e.g., “sick” or “vacation”
days) for multiple days during weeks Defendants have arbitrarily required Plaintiff to

7

That Defendants chose to prohibit Plaintiff from working at home as necessary to
pray categorically, regardless of the circumstances, and even in the future, further
evidences their unlawful intent to discriminate against religion.
Notably, on April 26, 2021, Plaintiff requested that he be transferred to the
Appellate section of the office. (Compl. Ex. E at 3). Naturally, because the work of the
Appellate section is predominantly writing and the vast majority of its court appearances
are pre-scheduled in advance, working in the Appellate section is particularly amenable
to the religious accommodation requested by Plaintiff. Plaintiff suspects—but hopes it is
not the case—that Defendants will conspire not to place Plaintiff in the Appellate section
so as not to undermine even further their extraordinarily weak rationale for denying his
religious accommodation request. (Even first-year attorneys hired by the Essex County
Prosecutor’s Office are permitted to join the Appellate Unit, and there is no question
regarding Plaintiffs qualifications.)
14
- App. 65 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 15 of 17 PagelD: 76

forgo his prayer practice. Using accrued time this way helps prevent irreparable harm to
Plaintiff on at least those days. Plaintiffs supervisor has been personally informed of this
practice; and on June 22, Plaintiff sent a letter to Defendants’ counsel informing her of
this practice as well. (MPI Ex. B).
In that letter, Plaintiff respectfully requested that, at least during days or weeks
Plaintiffs supervisor would not be in the office and on vacation, Plaintiff be permitted to
work from home as he does normally and efficiently every other week. (Id.) (Plaintiff
often works from home normally and efficiently even on days when using accrued time.)
Counsel for Defendants never responded to this letter or even acknowledged its receipt.
(See supra, note 2).
A preliminary injunction that would prevent Plaintiff from being penalized simply
for his free exercise—insofar as he works from home as necessary to pray in a manner
completely consistent with all job responsibilities and rules—is necessary to prevent this
irreparable harm. See Tandon, 141 S. Ct. at 1297 (citing Roman Catholic Diocese, 141
S. Ct. at 67). This is irreparable harm that Defendants have inexplicably refused to take
even minimal steps to prevent (see, e.g., MPI Ex. B) and have stated they will double in
the immediate future (MPI Ex. C).
III.

The remaining factors clearly weigh in favor of granting injunctive relief.
As observed above, when the government is the party opposing a preliminary

injunction, the balancing and public-interest factors merge. See Nken v. Holder, 556 U.S.
418, 435 (2009). The balancing factor focuses on the “effect on each party of the granting
or withholding of the requested relief.” Winter v. Nat. Res. Def. Council, Inc., 555 U.S.
7, 24 (2008).

Here, on Plaintiffs side, the effect of withholding relief would be

devastating: As he has repeatedly informed Defendants, being required to forgo his
prayer practice causes him suffering on multiple levels. (Compl. Ex. E at 6 (“I suffer and

15
- App. 66 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 16 of 17 PagelD: 77

am unable to focus on and complete work efficiently when denied the opportunity to
pray”); MPI Ex. B (“Every day I am required to go to the office for no apparent reason, I
suffer foregoing my prayer practice. It is spiritually and psychologically painful.”); MPI
Ex. A If 16). Defendants have now stated that they will increase this irreparable harm by
100% (MPI Ex. C)—unless the Court grants preliminary relief.
On Defendants’ side, it is not clear what harm, if any, would follow if the Court
were to grant relief. Despite Defendants’ vague assertions (see Compl. Ex. D at 2-3;
Compl. Ex. E at 2-6), they have not identified a single concrete fact or specific example—
let alone actual evidence—that suggests they would suffer even a small burden if they
permitted Plaintiff to work from home as necessary to pray in a manner consistent with
all job responsibilities and rules (see Compl. Ex. E at 6 (Defendants “failfed] to show
even a de minimis interest in denying the accommodation.”); supra, note 4).
And if any “public consequences” would result from granting preliminary relief,
see Winter, 555 U.S. at 24, they would be good consequences: “[I]t is always in the public
interest to prevent the violation of a party’s constitutional rights.” See Am. Bev. Ass ’n v.
City and Cty. ofS.F., 916 F.3d 749, 758 (9th Cir. 2019) (en banc); Tenafly Eruv Ass'n v.
Borough of Tenafly, 309 F.3d 144, 178 (3d Cir. 2002) (“[T]he public interest clearly
favors the protection of constitutional rights.”). At the very least, “it has not been shown
that granting th[is] application^ will harm the public.” See Roman Catholic Diocese, 141
S. Ct. at 68. And even the public’s compelling interest in “[sjtemming the spread” of a
virus during a pandemic, cannot justify totally untailored religious discrimination like
Defendants’. See, e.g., id. at 67 (emphasis added). Defendants’ discriminatory “value
judgment that secular (i.e., medical) motivations ... are important enough to overcome
its general interests] . . . but that religious motivations are not” cannot stand. See
Fraternal Order, 170 F.3d at 366.

16
- App. 67 -

Case 2:21-cv-12786-SDW-ESK Document 8-1 Filed 07/30/21 Page 17 of 17 PagelD: 78

CONCLUSION
For the foregoing reasons, Plaintiff respectfully requests that the Court grant Plaintiffs
motion for preliminary relief and enjoin Defendants from disciplining Plaintiff simply for
his free exercise of religion. See, e.g.., Fraternal Order, 170 F.3d at 361 (affirming an
order enjoining the government “from disciplining or otherwise disadvantaging”
employees for their free exercise). 8
Date: July 30, 2021
Respectfully submitted,
By: /s/Alex G. Leone
Alex G. Leone

8

Defendants may attempt to argue that this motion—or this case as a whole—will
be mooted if or when they change their policy that currently permits others to work from
home. This argument would make no sense logically: Defendants continue their
intentional discrimination against Plaintiffs religious practice; Plaintiff continues to
suffer the consequences of that religious discrimination; and treating others differently
for secular reasons changes neither of those facts. (The argument would be equally
meritless as applied to Plaintiffs NJLAD claim.)
The argument is also foreclosed legally: “[Ejven if the government withdraws” a
restriction on free exercise, that action itself would “not necessarily moot the case;” a
plaintiff “otherwise entitled to emergency injunctive relief remain[s] entitled” when he
“remainfs] under a constant threat” the government will use its “power to reinstate the
challenged restriction!]” on free exercise. See Tandon, 141 S. Ct. at 1297 (citing Roman
Catholic Diocese, 141 S. Ct., at 68) (emphases added). Again, here, even if Defendants
change their policy that currently permits others to work from home for secular reasons,
Plaintiff would remain not only under a “constant threat” of free exercise infringement:
Defendants’ free exercise infringement against Plaintiff will have never abated, let alone
the policy resulting in the infringement actually “withdraw[nj.” See id. And of course,
Defendants’ discretion to grant exemptions and permit others to work from home for
secular reasons may again be exercised at any time. See, e.g., Covid cases are rising
again in all 50 states across U.S. as delta variant tightens its grip, CNBC (July 23, 2021),
https://www.cnbc.eom/2021/07/23/covid-cases-are-rising-again-in-all-50-states-acrossus-as-delta-variant-tightens-its-grip.html; Tandon, 141 S. Ct. at 1297.
Additionally, as discussed herein, Defendants’ “decision to provide medical
exemptions while refusing religious exemptions” shows their “discriminatory intent”
against religion. See Fraternal Order, 170 F.3d at 365; Bowen v. Roy, 476 U.S. 693, 708
(1986) (plurality opinion); Tenafly Eruv, 309 F.3d at 168. Government action motivated
by discriminatory intent against religion itself is “never permissible,” regardless of the
government’s treatment of others. See, e.g., Church of the Lukumi Babalu Aye, Inc. v.
City ofHialeah, 508 U.S. 520, 533 (1993).
17
- App. 68 -

Case 2:21-cv-12786-SDW-ESK Document 8-2 Filed 07/30/21 Page 1 of 3 PagelD: 79

Exhibit A

- App. 69 -

Case 2:21-cv-12786-SDW-ESK Document 8-2 Filed 07/30/21 Page 2 of 3 PagelD: 80

UNITED STATES DISCTICT COURT
DISTRICT OF NEW JERSEY
x
ALEX G. LEONE,

DECLARATION SUPP-

Plaintiff,

ORTING MOTION FOR

v.

PRELIMINARY
INJUNCTION

ESSEX COUNTY PROSECUTOR’S OFFICE,

Docket No. 2:21-cv-12786

THEODORE STEPHENS II,
ROMESH SUKHDEO,
GWENDOLYN WILLIAMS,
and
ROGER IMHOF,
in their individual and official capacities,
Defendants.
x
Under 28 U.S.C. § 1746, Alex G. Leone states that the following is true and correct:

- App. 70 -

1.

I have been an employee of the Essex County Prosecutor’s Office since 2019.

2.

I have been employed in the “Intellectual Property/Financial Crimes” section of
this office for approximately the past eleven months to a year.

3.

During this time, all in-person court appearances, witness interviews, or other inperson obligations for which I have been responsible have proceeded normally
and efficiently, including on days I was working from home. (I have worked from
home approximately each day of every other week, except during December 2020
through January 2021, as well as limited other times, when I was permitted to
work from home fulltime for secular reasons.)

4.

During this time, there has never been an emergent matter that necessitated my
immediate physical presence in the office. I am not sure what such a hypothetical
scenario would be like.

5.

During this time, any “ad hoc” meetings conducted in person in the office have
been indistinguishable from any “ad hoc” meetings conducted over the phone
from home.

6.

As a general matter, meetings conducted through the phone or “Teams” permit
efficient collaboration and communication. In fact, Defendants’ chosen method
of meeting has often been through the phone or “Teams,” such as on May 6,2021.

Case 2:21-cv-12786-SDW-ESK Document 8-2 Filed 07/30/21 Page 3 of 3 PagelD: 81

7.

As a general matter, compliance with all work rules and attendance to all work
responsibilities are completely consistent with working from home.

8.

Defendants’ widely-permitted current work-from-home system (e.g., signing in to
work via email, administratively making case documents accessible on an online
platform, and efficiently completing work on a laptop) has shown this.

9.

Even so, I am, and have always been, fully willing to be physically present for
anything required by my job responsibilities—including, for instance, in-person
court appearances, witness interviews, or any other obligation.

10.

Employees in the “Adult Trial” section were permitted by Defendants to work
from home fulltime during November 2020 into June 2021 for secular reasons.
(Plaintiff is informed of this directly by employee(s) in that section.)

11.

Employees in the “Appellate” section were permitted by Defendants to work from
home fulltime during March 2020 through the present day for secular reasons.
(Plaintiff is informed of this directly by employee(s) in that section.)

12.

On information and belief, other employees have been permitted to work from
home for secular reasons as well.

13.

When physically present in the office, I am forced to forgo a prayer practice I
engage in throughout every work day. (1 engage in this practice every day except
Sunday.) My religious belief is that the peace and solitude required for this
practice are impossible in the office.

14.

This prayer practice and the religious belief underlying it are sincerely held and
have formed part of my daily life for more than a year.

15.

Requiring me to commute to and range a public park to seek peace and solitude
each time I feel the need to pray would also force me to forgo this practice,
including the spontaneous aspects of it—as would being confined to a soundproof
room with no windows.

16.

Forgoing my prayer practice causes adverse spiritual, psychological, and even
physical effects on me.

17.

Working at my nearby home is generally a sure way to ensure I can engage in my
required prayer practice as well as attend to all work responsibilities efficiently.
My prayer practice has never interfered in my work.

18.

Defendants are aware of or have previously been advised of the foregoing facts.

I declare under penalty of perjury, under the laws of the United States and the State of
New Jersey, that the foregoing is true and correct to the best of my knowledge.
Executed on: July 30, 2021
By: /s/Alex G. Leone
Alex G. Leone

- App. 71 -

Case 2:21-cv-12786-SDW-ESK Document 8-3 Filed 07/30/21 Page 1 of 2 PagelD: 82

Exhibit B

- App. 72 -

Case 2:21-cv-12786-SDW-ESK Document 8-3 Filed 07/30/21 Page 2 of 2 PagelD: 83

June 22,2021
Dear Ms. Gaccione,
First, I wish to say that I do not consider you an adversary and I apologize if this legal
action will cause any stress or inconvenience for you or your colleagues. As shown by my memo
and subsequent emails, I had hoped there were another way to make progress toward a just
resolution. But based on the June 9 and 10 emails to me, I saw no other way than this.
Second, I wish to renew my request for an accommodation. Every day I am required to go
to the office for no apparent reason, I suffer foregoing my prayer practice. It is spiritually and
psychologically painful. There is even less apparent reason to require me to be here during June
21 to 25, July 12 to 23, and August 25 to 27, when not even my supervisor will be.
To avoid that spiritual and psychological pain, I use accrued time, which adds to this
unfairness. It will run out. Damages will continue to accumulate. We may find ourselves in an
emergency posture. None of us needs any of this trouble.
Third, I wish to advise that I am always willing to work toward a just resolution. As the
complaint has made clear, this failure to follow the law is hurting me. Regardless, despite the legal
errors, I respect Ted, Romesh, Gwen, and Roger and believe they mean well at heart. We can
move past all of this, and dismiss the lawsuit, at any time, with no hard feelings.
I genuinely hope to continue to do good work for this office; and as you are aware, I
requested to transfer to the Appellate Unit, where remote work is even more easily accommodated
and, 1 am told, my abilities would better assist. That said, in lieu of accommodation of my religious
practice as required by law, I will work to protect my rights to the end.
Thank you,
Alex
/s/ Alex G. Leone

- App. 73 -

Exhibit C

- App. 74 -

Case 2:21-cv-12786-SDW-ESK Document 8-4 Filed 07/30/21 Page 1 of 1 PagelD: 84

Alexander Leone
From:
Sent:
To:
Subject:

Walter Dirkin
Monday, July 26, 2021 9:45 AM
Walter Dirkin
August 2, 2021, Return to Regular Schedule

All
I have been advised by the First Assistant Prosecutor that, Starting Monday, August 2, 2021, the Essex County
Prosecutor’s Office will return to regular in office scheduling and there will no longer be an A/B schedule. I
was also asked to remind everyone, as has always been the case, that proper work attire is required within the
office. Sometime after August 2, 2021, we will arrange for the return of office issued equipment that you may
have in your home. Please do not bring the equipment on August 2, 2021, as we need to ensure that a proper
record is made of its return.
Thank you for your attention to this matter.
Very truly yours ,
Walter J. Dirkin
Deputy Chief Assistant Prosecutor

t

- App. 75 -

Case 2:21-cv-12786-SDW-ESK Document 8-5 Filed 07/30/21 Page 1 of 1 PagelD: 85

UNITED STATES DISCTICT COURT
DISTRICT OF NEW JERSEY
x
ALEX G. LEONE,

[PROPOSEDl ORDER

Plaintiff,
v.

ESSEX COUNTY PROSECUTOR’S OFFICE,

Docket No. 2:21-cv-12786

THEODORE STEPHENS II,
ROMESH SUKHDEO,
GWENDOLYN WILLIAMS,
and
ROGER IMHOF,
in their individual and official capacities,
Defendants.
x
On
__, 2021, the Court heard Plaintiffs’ motion for a preliminary injunction.
After hearing this motion and considering the arguments and papers submitted, the Court
hereby GRANTS Plaintiffs’ motion and enters the following preliminary injunction:
IT IS HEREBY ORDERED that Defendants are enjoined from disciplining or otherwise
disadvantaging Plaintiff simply for praying in accordance with his religion, including at
home on work days.
The Court does not enjoin anything else, including disciplining Plaintiff or any employee
for any act or omission inconsistent with any job duty, obligation, rule, or responsibility.

IT IS SO ORDERED.
Dated:

, 2021, at__:

,m.

Newark, New Jersey
The Honorable Susan D. Wigenton
United States District Judge

- App. 76 -

Case 2:21-cv-12786-SDW-ESK Document 10 Filed 08/12/21 Page 1 of 1 PagelD: 88

August 12, 2021
The Honorable Susan D. Wigenton
United States District Judge for the District of New Jersey
Martin Luther King Building & U.S. Courthouse
50 Walnut Street
Newark, New Jersey 07102
Re: Leone v. ECPO, etal. (2:21-cv-12786-SDW-ESK)
Dear Judge Wigenton,
Plaintiff writes to inform the Court at this earliest reasonable time that a hearing
including witness testimony may be necessary to resolve the preliminary injunction
motion filed in this matter (E.C.F. No. 8).
On August 11, 2021, Defendants’ counsel, Ms. Kathleen Barnett Einhorn, sent a
letter to Plaintiff asserting that the preliminary injunction motion “is frivolous” and
declaring that Plaintiff must “withdraw [the] motion” or else Defendants will “seek
sanctions.”1 In the letter, Defendants also stated that they “intend to refute [Plaintiff’s]
factual version.” It is not clear what facts in the record Defendants dispute, but their
opposition papers due August 24 (see L. Civ. R. 78.1(a); D.E. No. 9) should confirm
whether material facts are actually disputed. If they are, Plaintiff respectfully requests
the opportunity to subpoena a small number of witnesses, if not one witness, and present
testimony on any disputed material facts. In addition, Plaintiff believed that the motion
could be decided on the papers, but based on Defendants’ extreme assertion that the
motion is fri volous, Plaintiff respectfully requests that the Court order oral argument and
permit Plaintiff to defend the merits of the motion before the Court.
Because Plaintiff continues to suffer irreparable harm as a result of Defendants’
unlawful discrimination, see, e.g., Tandon v. Newsom, 141 S. Ct. 1294, 1297 (2021),
Plaintiff also respectfully requests expedited consideration of the preliminary injunction
motion once briefing is completed. Plaintiff is aware of the extraordinary number of cases
active in the District and truly appreciates the Court’s thoughtful attention to this matter.
Respectfully submitted,
/s/ Alex G. Leone
Alex G. Leone
P.O. Box 1274, Maplewood, New Jersey 07040
aleone@jdl6Jaw.harvard.edu
Cc: Defendants; Defendants’ Counsel
1
This assertion is defamatory and any motion for sanctions by Defendants would itself violate Rule
11. See Fed. R. Civ. P. 11(b)(2) (requiring that legal contentions presented to the Court be “warranted by
existing law or by a nonfrivolous argument”). In addition, counsel’s threat that Plaintiff must “withdraw
[the] motion” or else Defendants will “seek sanctions” is clearly motivated by an “improper purpose, such
as to harass, cause unnecessary delay, or needlessly increase the cost of litigation.” See Fed. R. Civ. P.
11(b)(1). Counsel’s unfair and apparently unlawful effort to bully Plaintiff into withdrawing the motion,
however, is not the main subject of this letter to the Court. Nonetheless, counsel’s letter—of which almost
every sentence is questionable at best—is attached as Exhibit A.

- App. 77 -

Case 2:21-cv-12786-SDW-ESK Document 10-1 Filed 08/12/21 Page 1 of 4 PagelD: 89

Exhibit A

- App. 78 -

Case 2:21-cv-12786-SDW-ESK Document 10-1 Filed 08/12/21 Page 2 of 4 PagelD: 90
Genova Burns LLC
494 Broad Street, Newark, NJ 07102
Tel: 973.533.0777 Fax: 973.533.1112
Web: www.genovaburns.com

GENOVA
BURNS
ATTORNEYS-AT-LAW

Kathleen Barnett Einhorn, Esq.
Partner
Member of NJ and NY Bars
keinhorn@genovaburns.com
Direct: 973-535-7115

August 11, 2021
BY E-MAIL: aIeone@jdl6.law.harvard.edu
Alex G. Leone, Esq.
P.O. Box 1274
Maplewood, New Jersey 07040
Re:

Alex Leone v. Essex County Prosecutor’s Office, et al.
Civ. No. 2:21-cv-12786 (SDW)(ESK)

Dear Mr. Leone:
As you are aware, this firm represents Defendants, Essex County Prosecutor’s Office,
Theodore Stephens II, Romesh Sukhdeo, Gwendolyn Williams, and Roger Imhof (“Defendants”)
in the above-captioned matter. We are writing to provide you with notice that your Motion for a
Preliminary Injunction filed on July 30, 2021, is frivolous and violates Federal Rule of Civil
Procedure 11.
The Proposed Order appended to the motion seeks to enjoin Defendants “from
disciplining or otherwise disadvantaging Plaintiff simply for praying in accordance with his
religion, including at home on work days.” The relief sought is not only vague, it presupposes
that all facts in Plaintiffs Complaint are uncontroverted, and that Plaintiffs religious
accommodation claims are meritorious. This motion, filed before Defendants were even
afforded the opportunity to file a responsive pleading, is without merit and not sustainable as a
matter of law.
A plaintiff seeking the remedy of preliminary injunctive relief must demonstrate “(1) a
likelihood of success on the merits; (2) that it will suffer irreparable harm if injunction is denied;
(3) that granting preliminary relief will not result in even greater harm to the nonmoving party;
and (4) that the public interest favors such relief.” Kos Pharms., Inc, v. Andrx Corp., 369 F.3d
700, 708 (3d Cir. 2004). Courts have noted that the issuance of a preliminary injunction is “an
extraordinary and drastic remedy, one that should not be granted unless the movant, by a clear
showing, carries the burden of persuasion.” Mazurek v. Armstrong, 520 U.S. 968, 972 (1997).
“[Fjailure to establish any element in [a plaintiffs] favor renders a preliminary injunction
inappropriate.” Rush v. Corr. Med. Servs., Inc., 287 F. App'x 142, 144 (3d Cir. 2008).

- App. 79 -

16050505V1 (1582.132)

Case 2:21-cv-12786-SDW-ESK Document 10-1 Filed 08/12/21 Page 3 of 4 PagelD: 91

GENOm
BURNS
ATTORNEYS-AT-LAW

Alex G. Leone, Esq.
August 11, 2021
Page 2
It is clear that the first two critical elements required for this type of motion cannot be
met, and the motion is improperly before the Court. First, it cannot be argued at this juncture
that Plaintiff has a likelihood of success on the merits, when the motion presupposes facts and
legal bases for an employment discrimination claim that have not yet been litigated, nor have
Defendants yet filed an Answer in response to the initial Complaint. The arguments in Plaintiffs
brief ask the Court to agree with and accept the automatic legal conclusion that Defendants have
violated the New Jersey Law Against Discrimination and infringed upon Plaintiffs First
Amendment right to the free exercise of his religion.
Defendants intend to refute your factual version and establish that any employment policy
is in fact neutrally applied to all ECPO employees. Currently, all ECPO units are required to be
in the office. Further, it is undisputed that Defendants have engaged in the interactive process
with you, and that you were offered several alternative accommodations in response to your
request. What you are arguing now is not whether any of those accommodations were reasonable,
but whether or not they are preferred by you. In addition to conflating an employer’s obligations
in this regard, you are asking the Court to make an accelerated and final determination on the
merits of this case, by way of a motion for preliminary injunction, and this is not permissible.
The second key element that forms the basis for a preliminary injunction - the
demonstration that the plaintiff will suffer irreparable harm if an injunction is not issued - cannot
be met here. In order to demonstrate irreparable harm will result in the absence of preliminary
relief, a plaintiff has the burden of establishing a “clear showing of immediate irreparable
injury.” ECRI v. McGraw-Hill, Inc., 809 F.2d 223, 226 (3d Cir. 1987).
By your own admission, you are “fully willing to be physically present for anything
required by my job responsibilities - including, for instance, in-person court appearances,
witness interviews, or any other obligation.” Cert, of Alex G. Leone,f 9. You are therefore
willing and able to be present in the office and in court when you deem it necessary, and do not
argue that you should be relieved of these duties, or are harmed when you are physically present
on these days. Further, there is no specific harm identified in your supporting brief or
certification on days you do not feel it necessary to be in the office, only that “forgoing prayer
practice causes adverse spiritual, psychological and even physical effects on me.” Leone Cert.,
at fl6. These vague assertions fall far short of the “immediate, irreparable injury” standard
which must be demonstrated by a “clear showing” of actual injury or harm.
Upon further review of the applicable legal standard and procedural posture of this case,
we expect that you will voluntarily withdraw your motion, since it is plainly evident that the
facts of this case do not warrant the “extraordinary and drastic remedy” sought by way of a
motion for a preliminary injunction. There is no basis on which this motion should proceed to
briefing and oral argument.

- App. 80 -

Case 2:21-cv-12786-SDW-ESK Document 10-1 Filed 08/12/21 Page 4 of 4 PagelD: 92

GENOVA
BURNS
ATTORNEYS-AT-LAW

Alex G. Leone, Esq.
August 11, 2021
Page 3
In order to protect the rights of our client, we are notifying you that if you do not
voluntarily withdraw your motion filed on July 30, 2021 within 10 (ten) days, we will be forced
to seek sanctions against you pursuant to Fed. R. Civ. P. 11.
Be guided accordingly.
Very truly yours,
GENOVA BURNS LLC
/s/ Kathleen Barnett Einhorn
KATHLEEN BARNETT EINHORN

- App. 81 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 1 of 26 PagelD: 93

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
ALEX G. LEONE,
Plaintiff,
v.

CIVIL ACTION NO.: 2:21-cv-12786-SDWESK

ESSEX COUNTY PROSECUTOR’S
OFFICE, THEODORE STEPHENS II,
ROMESH SUKHDEO, GWENDOLYN
WILLIAMS and ROGER IMHOF, in their
individual and official capacities,
Defendants.

DEFENDANTS’ BRIEF IN OPPOSITION TO PLAINTIFF’S MOTION FOR THE ENTRY OF
A PRELIMINARY INJUNCTION.

GENOVA BURNS LLC
Kathleen Barnett Einhom, Esq.
Erica M. Clifford, Esq.
494 Broad Street
Newark, New Jersey 07102
Tel: (973) 533-0777
Fax:(973) 533-1112
Attorneys for Defendants,
Essex County Prosecutor’s Office,
Theodore Stephens II, Romesh Sukhdeo,
Gwendolyn Williams, & Roger Imhof.
Of Counsel and on the brief:
Kathleen Barnett Einhorn, Esq.
Erica M. Clifford, Esq.
On the Brief:
Erica M. Clifford, Esq.
Abraham R. Jerushalmy, Esq.

- App. 82 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 2 of 26 PagelD: 94

TABLE OF CONTENTS
TABLE OF CONTENTS

li

TABLE OF AUTHORITIES

in

PRELIMINARY STATEMENT

1

STATEMENT OF FACTS

4

LEGAL ARGUMENT

9

A. Legal Standard for an Application for Injunctive Relief.

9

B. Plaintiff Cannot Show that he is Likely to Succeed On the Merits of his Free Exercise Claim. 9
C. Plaintiff Cannot Show that he is Likely to Succeed On the Merits of his NJLAD Claim

12

D. PLAINTIFF FAILS TO ESTABLISH THAT HE WILL SUFFER IRREPARABLE HARM IF
14
THE COURT DENIES HIS MOTION FOR A PRELIMINARY INJUNCTION.
E. A Balancing of the Equities Weighs Heavily in Favor of Denying Plaintiff s Motion.

16

F. Granting an Injunction Is Not in the Public Interest.................................................

19

CONCLUSION

21

CERTIFICATE OF SERVICE

22

n

- App. 83 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 3 of 26 PagelD: 95

TABLE OF AUTHORITIES
Cases
Am. Tel. & Tel. Co. v. Winback & Conserve Program, Inc.,
42 F.3d 1421 (3d Cir. 1994) ....................................................................

19

Blackhawk v. Pennsylvania,
381 F.3d 202 (3d Cir. 2004).....................................................................

10

Checker Cab of Philadelphia Inc. v. Uber Techs., Inc.,
642 F. App’x 229 (3d Cir. 2016)..............................................................

9

Combs v. Homer-Center Sch. Dist.,
540 F.3d 231 (3d Cir. 2008).....................................................................

10

Consumer Health, Inc. v. Johnson & Johnson-Merck Consumer Pharm. Co.,
290 F.3d 578, 596 (3d Cir. 2002)...............................................................

9, 16

ECRlv. McGraw-Hill, Inc.,
809 F.2d 223 (3d Cir. 1987).....................................................................

14, 15

Employment Div., Dept of Human Res. of Or.,
494 U.S. at 879.........................................................................................

10

Exec. Home Care Franchising LLC v. Marshall Health Corp.,
642 F. App’x 181 (3d Cir. 2016)........................................

9, 14, 16

Julius Realty Corp. v. Thompson,
2020 WL 2539188, at *1 (D.N.J. May 19, 2020)..............

9

McTernan v. City of York,
564 F.3d 636 (3d Cir. 2009).............................................

10

Miller v. Mitchell,
598 F.3d 139 (3d Cir. 2010).............................................

9

Novartis Consumer Health, Inc. v. Johnson & Johnson-Merck Consumer Pharm. Co.,
290 F.3d 578 (3d Cir. 2002).......................................................................................

9, 16

NutraSweet Co. v. Vit-Mar Enters., Inc.,
176 F. 3d 151 (3d Cir. 1999)...................

9

Tenafly Eruv Ass 'n v. Tenafly,
309 F.3d 144 n. 24 (3d Cir. 2002)..........

10

Tucker Anthony Realty Corp. v. Schlesinger,
888 F.2d 969 (2d Cir. 1989)...................

14
iii

- App. 84 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 4 of 26 PagelD: 96

Vista India v. Raaga, LLC, 501 F. Supp.
2d 605 (D.N.J. 2007) ........................

16

Statutes
N.J.S.A. 10:5-1 to -49

1

N.J.S.A. 10:5-12(q)(l)

12, 18

iv

- App. 85 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 5 of 26 PagelD: 97

PRELIMINARY STATEMENT
In his motion for a preliminary injunction, Plaintiff, Alex G. Leone (“Plaintiff”), argues that
the decision of his employer, the Essex County Prosecutor’s Office (“ECPO”), to have all employees
return to the office and court environment on either a hybrid or full-time basis, constitutes a
discriminatory policy in violation of his right to the free exercise of his religion under the Federal
Constitution and in violation of the New Jersey Law Against Discrimination, N.J.S.A. 10:5-1 to -49
(“NJLAD”). That conclusion, however, defies both logic and law and, perhaps more importantly at
this procedural juncture, is a far cry from circumstances that warrant the extraordinary measure of
injunctive relief.
The quandary faced by employers, indeed all individuals, in the face of this pandemic is wellknown and, thus, does not require extensive background for the Court. As the pandemic emerged in
full force in New Jersey in March 2020, many basic human activities came to a standstill - businesses
were shuttered, families were sheltered in place, and the courts operated entirely remotely. Following
CDC guidance and the Governor’s Executive Orders, the ECPO advised its employees in March 2020
that they would be working on a hybrid “A/B Schedule.” Under this policy, half of the ECPO staff
were present in the office for one week, and then working remotely the following week. The primary
purpose for this hybrid transition was to avoid having 100% of the staff in the office at the same time,
to minimize the potential spread of the COVID-19 virus. This policy was implemented after much
consideration as to the safety of its employees, and in response to the realities of struggling with the
novel COVID-19 virus.
In November 2020, the A/B Schedule was suspended due to a spike COVID-19 infections and
the unavailability of vaccination for employees. As a result, at that point in time, most, if not all,
communications were conducted telephonically and by video conferences as a matter of necessity, and
1
- App. 86 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 6 of 26 PagelD: 98

not by arbitrary choice. For the next five months, out of an abundance of caution, all employees
worked from home full-time, and would come into the office only occasionally, for the most important
in-person tasks.
In recognition of the need to return to court and to the office, and with the newly available
COVID-19 vaccinations, the ECPO again implemented the A/B Schedule in April 2021, for units
where it was deemed necessary, based on workload. Supervisors and heads of departments were
overwhelmed with work, as due to the lack of physical availability of assistant prosecutors, they had
extra work to do to move emergent matters along, which meant taking on an extra burden to handle
matters themselves and calling assistant prosecutors after to bring them up to speed on their work.
It cannot be overemphasized that the ECPO, as the local county agency charged with
enforcement of the laws of this State, is tasked with emergent and critical responsibilities and duties to
the public, and the rights of victims as well as those accused before conviction, cannot be held in
abeyance. While these proceedings were conducted remotely when absolutely necessary to the health
and welfare of the general public of this State, as soon as was deemed safe, the courts advised that it
would reopen criminal proceedings and jury trials to be conducted in person.
In acknowledgement of the May 11, 2021 Order from the New Jersey Supreme Court notifying
the Bar that in-person jury trials would resume on June 15, 2021, the ECPO began to develop plans to
return its employees to the office and to the courts full-time. See Certification of Kathleen Barnett
Einhom, dated August 24, 2021 (“Einhom Cert.”), Exhibit (“Ex.”) A. Accordingly, the ECPO
decided that as of August 2, 2021, all employees were required to be in the office full-time - there
were no units excepted from this requirement. See Einhorn Cert, at Ex. B (“Imhof Cert.”) at 1 12.
Plaintiff submitted a request for an accommodation in which he stated that he has “a spiritual
need to pray in peace and solitude, such as in [his] backyard, several times throughout the day.”

2
- App. 87 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 7 of 26 PagelD: 99

Einhom Cert, at Ex. C. Plaintiff requested permission to “work and pray throughout the day at home,
to be physically present at office or court when reasonably necessary or when accommodating this
religious need would cause undue hardship.” Id.
The ECPO made genuine attempts to accommodate Plaintiff, which took into consideration
Plaintiffs request for privacy during prayer (Plaintiff’s own private office, or a soundproof interview
room), as well as his stated interest in being able to access the outdoors when praying (directly across
the street from Plaintiff’s office building is the Eagle Rock Reservation, a 400-acre park accessible to
the public). See Ex. D. These accommodations were summarily rejected by Plaintiff, who insisted that
the only accommodation he would accept was the unilateral and subjective authority to determine when
he would appear for work, if in his estimation it was necessary to do so. If he did not deem it
necessary to appear in person for work, he would not. Plaintiff does not specify dates or times during
the day when he needs to pray so the target is always moving. Critically, Plaintiff never submitted
such a request for an accommodation of his religious briefs prior to the pandemic, when he worked
full time in the office without issue from September 2019 through March 2020.1 Now, Plaintiff claims
that he suffers extreme and irreparable harm should he be forced to come into the office, albeit only
when he deems it unnecessary. If it is necessary, he is willing and able to come into the office and
appear in court, for days and weeks on end with no issue. The harm allegedly suffered by Plaintiff
therefore is difficult, if not impossible, to quantify and thus even more challenging to remedy.
Defendants do not contest that Plaintiff’s religious beliefs are sincerely held, they respect and
take his statements at face value. Defendants instead oppose this motion because the facts of this case
do not warrant the emergent relief that Plaintiff is requesting.
The request referenced on page 2 of Ex. D was related to a dispute when Plaintiff closed his eyes for spiritual reflection in a
courtroom and was asked by the presiding judge to keep his eyes open. This prior request is not referenced in Plaintiff’s Complaint
and has nothing to do with the instant matter, or Plaintiffs current employment status.

3
- App. 88 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 8 of 26 PagelD: 100

Plaintiff cannot demonstrate the likelihood of success on the merits of his claims that
Defendants violated his first amendment right to the free exercise of his religion, nor that Defendants
failed to accommodate his religious accommodation request under the NJLAD. It is undisputed that
Defendants put forth a bona fide effort to communicate with Plaintiff about his request and carefully
considered and then offered several viable alternatives.
Further, the policy of the ECPO requiring its employees to return to work is generally applied
and facially neutral. In addition to Plaintiff’s failures with respect to the second element, Plaintiff
cannot establish that he has suffered and will continue to suffer irreparable harm if the Court does not
grant his motion. Plaintiffs assertions that he suffers psychological and physical harm when he cannot
be home praying are belied by his assertions that he is fine to come to work for any court proceeding,
live witness or victim interviews, or for any other reason, so long as he deems his presence necessary.
Plaintiffs requested emergent relief - that the Court enjoin Defendants from taking any
disciplinary action against Plaintiff “simply for praying in accordance with his religion, including at
home on work days” is likewise exceptionally vague, and purports to grant Plaintiff unilateral
authority to simply come and go as he pleases, with no recourse available to his employer. This relief
is not tied to a specific religious practice, or to any specific day or time. It is exactly this kind of
specious allegations that courts have determined insufficient to support an order for an injunction.
STATEMENT OF FACTS
The mission of the Essex County Prosecutor’s Office is “to seek justice, to serve justice, and
to do justice.”2 Plaintiff is an assistant prosecutor in the Financial Crime and Intellectual Property
unit at the ECPO. Einhorn Cert, at Ex. D (Compl.) at 116. Plaintiff was hired by Defendants on

2 Mission Statement, Essex Cnty. Prosecutor’s Off., available at https://www.njecpo.org/?page_id=59, (last visited: Aug. 18,
2021).

4
- App. 89 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 9 of 26 PagelD: 101

September 9, 2019. Imhof Cert, at 12. Prior to March 2020, Plaintiff worked in the office every-day
along with the rest of the ECPO workforce. See id. at 13. In March 2020, the ECPO officially
instituted its “A/B Schedule,” in which employees, including Plaintiff, would work in the office and
from home on alternating weeks. Id. at 13. In November 2020, the ECPO switched to a fully remote
schedule, with the exception of specific instances where assistant prosecutors were needed with the
greatest urgency. Id. at 14. In April 2021, assistant prosecutors in various units were informed that
they must return on an A/B Schedule, to keep up with the needs of their supervisors. Id. at 15.
During the fully remote schedule beginning in November, department heads had been taking on many
of the responsibilities of assistant prosecutors in dealing with emergent matters and bringing them up
to speed on the phone, which was not thought to be sustainable. See Imhof Cert, at 15.
On April 26, 2021, Plaintiff submitted his request for a permanent religious accommodation.
See Ex. C. In it, Plaintiff stated that he has a “spiritual need to pray in peace and solitude, such as in
[his] backyard, several times throughout the day.” Id. As a result of this “need,” Plaintiff requested
to work from home (permanently) and will only be physically present at the office or court “when
reasonably necessary” or “when accommodating this religious need would cause undue hardship.”
Id. This accommodation request was submitted to Deputy Chief Prosecutor Walter Dirkin (“Dirkin”).
See Imhof Cert, at 16.
On May 6, 2021, Chief Assistant Prosecutor Roger Imhof (“Imhof”), Executive Assistant
Prosecutor Gwendolyn Williams, Dirkin and Essex County Counsel Courtney Gaccione met with
Plaintiff over videoconference to gather more specific information regarding his request. See Ex. D;
see also Imhof Cert, at 17. Imhof stated the following regarding that conference:
During this conference, I explained to Plaintiff that as a new attorney
with the Prosecutor’s Office, his presence in the office was necessary to
his growth and development as a trial lawyer - to observe colleagues at
other trials, and to collaborate and strategize with colleagues in the
5
- App. 90 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 10 of 26 PagelD: 102

office regarding investigations, witness and victim interviews, case
presentations to grand juries, among other responsibilities of an
Assistant Prosecutor.
Imhof Cert, at f8.
On May 12, 2021, Imhof sent a memorandum in response to Plaintiffs request. See Ex. D. In
this memorandum, Imhof first outlined Plaintiff’s requests and the clarifying conversations
surrounding the requests. Id. Plaintiffs request was permanent in nature and was to begin
immediately, seeking to never have to work full-time in the office again. Id.
To add context to his original request, Imhof explained the ECPO’s understanding that the
basis for Plaintiffs request was a spiritual “need” to pray in peace in his backyard several times per
day, “spontaneously.” Ex. D. Plaintiff insisted that being physically present in the office made him
feel uncomfortable and unable to focus on his spontaneous spoken prayer. Id. He claimed that it was
“contrary to the peace and solitude” that he desired. Id. He also stated that he does not want to be
overheard by others. Id. Plaintiff further stated that his “need” to pray spontaneously throughout the
day was based in Christianity, but he did not provide ECPO with a specific provision in Christianity
that this “need” was derived from. Id.
Defendants offered accommodations based on Plaintiff’s criteria. Imhof Cert, at \9. When
asked if prayer at the park across the street from the office was an acceptable alternative, Plaintiff
told the ECPO that it was not, as it would “curtail the spontaneous nature of [his] prayer and subject
[him] to being heard or seen by others.” Ex. D. Plaintiff stated that praying in the office with his
door closed for privacy would occasionally be a viable option, but doing so every day would not be
conducive to the peace and solitude that he needs and would subject him to the possibility for
interruption or being overheard. Id. In sum, Plaintiff is unwilling to accept any deviation from the
accommodations he requested - to be able to work from his backyard, full-time, despite the rest of

6
- App. 91 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 11 of 26 PagelD: 103

the staff returning to the office full-time. See Imhof Cert, at tilIn the second portion of this memorandum, Imhof denied Plaintiffs request to permanently
work from home on a full-time basis. Ex. D. Imhof stated that in the coming months, ECPO would
discontinue the A/B Schedule and return to regular, pre-pandemic in-office work requirements. Id?
Additionally, it is anticipated that a return to in-person court appearances is not far off, Imhof
explained. Id.

Further, Imhof noted that meetings are not always prescheduled, and require the

presence of attorneys, as do in-person witness interviews. Id. Additionally, Imhof explained that
emergent matters come about that require immediate responses, necessitating the presence of
attorneys as well. Id. The collaborative nature of the work would result in a loss of effectiveness if
not done in-person. See Ex. D. Though partially remote work was the only reasonable option during
the pandemic, Imhof anticipates a surge of new matters as the State attempts a return to normalcy
which changes the outlook for assistant prosecutors and would make remote work insufficient. Id. As
a result, Imhof stated that allowing Plaintiff to permanently work from home would constitute and
unreasonable interference with the efficient operation of the workplace, pursuant to N.J.S.A. 10:5-12
(q)(l). Id.
Despite the denial of Plaintiff’s accommodation request, Imhof reiterated three potential
accommodations to Plaintiff: (1) to pray in his office whenever needed throughout the workday; (2)
to utilize the Essex County Eagle Rock Reservation (located directly across the street from the
ECPO’s office), whenever he needed to spontaneously pray, so long as it does not adversely affect
his work responsibilities, Id.\ and (3) to provide exclusive permission to use a soundproof interview
room on the third floor of the same building to which he is currently assigned. See Ex. D.
3 Note, as noted above, that the ECPO did in fact institute full time in-office work requirements on August 2, 2021. At the time of
Imhof s memorandum, the A/B Schedule was in effect, with assistant prosecutors coming in, even during “at home weeks,” based on the
needs of the office.

7
- App. 92 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 12 of 26 PagelD: 104

On June 1, 2021, Plaintiff submitted a memorandum in response to Imhofs, renewing his
request to permanently work from home; voicing his displeasure with Imhofs attempted compromise;
and issuing a new request to be transferred to the ECPO’s Appellate Division Unit. See Einhorn Cert.
at Ex. E. Plaintiff requested to be transferred to the Appellate Division in an effort to not be bound
by the impending schedule changes which would not permit him to work from home. See Plaintiff’s
Brief in Support of his Motion for a Preliminary Injunction, dated July 30, 2021 (“PI. Br.”), p. 14,
Footnote 7. On June 9, 2021, Imhof sent a response to Plaintiff noting that there are no openings in
the Appellate Division, and that the ECPO’s position on his request for religious accommodations
remains unchanged. Ex. F. Plaintiff claims that the Appellate Division employees at Plaintiff’s office
have been permitted to work from home since the beginning of the pandemic in March 2020 through
the present day. See PI. Br., p. 3. However, as of August 2, 2021, all employees of every unit,
including the Appellate and Adult Trial Sections, were required to be back in the office full time. See
Imhof Cert, at

12. This updated protocol was announced in an email from Walter Dirkin to the

Essex County Prosecutor’s Office staff, on July 26, 2021. Ex. G.
After refusing to arrive at a compromise, and displeased with the ECPO’s denial of vesting
Plaintiff with unfettered authority to determine the nature of his employment, Plaintiff filed a
Complaint in the New Jersey District Court on June 18, 2021. See Ex. H. Defendants filed a Notice
of Appearance on July 19, 2021. Plaintiff then filed this motion for a Preliminary Injunction on July
30, 2021. For the reasons set forth below, Defendants assert that the facts do not warrant the extreme
remedy of even temporary injunctive relief, thus, Plaintiff’s motion should be denied.

8
- App. 93 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 13 of 26 PagelD: 105

LEGAL ARGUMENT
A.

LEGAL STANDARD FOR AN APPLICATION FOR INJUNCTIVE
RELIEF.

“[I]njunctive relief is an ‘extraordinary remedy, which should be granted only in limited
circumstances.’”

Checker Cab of Philadelphia Inc. v. Uber Techs., Inc., 642 F. App’x 229, 231

(3d Cir. 2016) (quoting Novartis Consumer Health, Inc. v. Johnson & Johnson-Merck Consumer
Pharm. Co., 290 F.3d 578, 586 (3d Cir._2002)).
To obtain a preliminary injunction, the movant must establish: “(1) a likelihood of success on
the merits; (2) he or she will suffer irreparable harm if the injunction is denied; (3) granting relief
will not result in even greater harm to the nonmoving party; and (4) the public interest favors such
relief. ” Exec. Home Care Franchising LLC v. Marshall Health Corp., 642 F. App’x 181, 183 (3d Cir.
2016) (quoting Miller v. Mitchell, 598 F.3d 139, 147 (3d Cir. 2010)). “The first two factors are the
‘most critical,’ and the Court considers these ‘gateway factors’ before the third and fourth factors. []
Only if a plaintiff meets the threshold for these gateway factors does the Court consider the
remaining factors.” Julius Realty Corp. v. Thompson, 2020 WL 2539188, at *1 (D.N.J. May 19,
2020) (internal citations omitted).
Of course, as is the case here, “[a] plaintiffs failure to establish any element in its favor
renders a preliminary injunction inappropriate.” NutraSweet Co. v. Vit-Mar Enters., Inc., 176 F.3d
151, 153 (3d Cir. 1999). Plaintiff fails to carry this burden on all four elements, therefore, he falls
woefully short of the scrutiny that accompanies a request for injunctive relief.
B.

PLAINTIFF CANNOT SHOW THAT HE IS LIKELY TO SUCCEED
ON THE MERITS OF HIS FREE EXERCISE CLAIM.

9
- App. 94 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 14 of 26 PagelD: 106

Plaintiff’s first count claims that Defendants violated his right to freely exercise his religion
under Section 1983 and the First Amendment of the United States Constitution because he is not
allowed to work from home. See Ex. D. The Free Exercise Clause prohibits regulation of religious
beliefs and also protects religiously motivated expression. See McTernan v. City of York, 564 F.3d
636, 647 (3d Cir. 2009)(citing Employment Div., Dept of Human Res. of Or. v. Smith, 494 U.S. 872,
877 (1990)). That said, no right, including the right vested under the Free Exercise Clause, is
absolute. See id. When the challenged government action, or in this case “state” action, is “neutral
and generally applicable” the government need not justify the policy with a compelling governmental
interest as would be required under the strict scrutiny standard. Employment Div., Dept of Human
Res. of Or., 494 U.S. at 879.
“A [state action] is ‘neutral’ if it does not target religiously motivated conduct....” Blackhawk
v. Pennsylvania, 381 F.3d 202, 209 (3d Cir. 2004). It is “generally applicable” if it extends to all
conduct and does not selectively burden religiously motivated conduct. See Combs v. Homer-Center
Sch. Dist., 540 F.3d 231, 242 (3d Cir. 2008) (citing Blackhawk, 381 F.3d at 209)). Should the action
be deemed neutral and generally applicable, rational basis scrutiny applies which “requires merely
that the action be rationally related to a legitimate government objective.” Tenafly Eruv Ass'n v.
Tenafly, 309 F.3d 144, 165 n. 24 (3d Cir. 2002).
Plaintiff concedes that this analysis applies to neutrally facial policies in his moving brief, but
argues that because the ECPO has made secular exemptions for other categories of employees
ECPO’s return to work policy should be subject to the heightened standard of strict scrutiny. See PI.
Br. pp. 7-9. Plaintiff is incorrect.
The ECPO permitted all of its employees to work from home for a temporary period of time
during a global health emergency. Acting in conjunction with the Executive Orders of the Governor

10
- App. 95 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 15 of 26 PagelD: 107

of New Jersey and the Country at large, especially as New Jersey was substantially impacted by the
virus, the ECPO initially allowed its employees to work partially remotely. That ECPO had this
remote work policy at the height of the pandemic cannot now be argued to constitute a categorical
secular exemption.
It is undisputed that all ECPO employees, of every unit, were required to return to work on
August 2, 2021, following the availability of vaccines and the re-opening of the courts to in person
proceedings. See Ex. G. There is no categorical secular exemption for any group of people, and
Plaintiff has not been subject to “putative action” by being required to return to the office. The
ECPO has a legitimate objective in having its assistant prosecutors, like Plaintiff, in the office,
actively collaborating with senior staff members on case presentations to grand juries, analyzing
whether to prosecute a particular suspect, to accept a plea bargain in a given case or risk taking it to
trial, or to argue a certain point of law. The job is fast paced and high energy, and an Assistant
Prosecutor needs to be able to think on one’s feet. As Defendant Imhof explained to Plaintiff during
the May 6, 2021 discussion regarding his request for accommodation, it is vital to the development of
the new and inexperienced attorneys to observe senior colleagues at other trials, and to collaborate
and strategize with colleagues in the office regarding investigations, witness and victim interviews,
case presentations to grand juries, and other critical law enforcement tasks as they arise. See Imhof
Cert, at 18.
Requiring Plaintiff to come into the office, given the nature of his job, coupled with the
accommodations already offered by the ECPO, satisfies this standard that the policy is rationally
related to a legitimate government objective. The ECPO’s return to work policy therefore withstands
the low bar of rational basis scrutiny. Accordingly, Plaintiff cannot not prevail on his constitutional
claim against Defendants.

11
- App. 96 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 16 of 26 PagelD: 108

C.

PLAINTIFF CANNOT SHOW THAT HE IS LIKELY TO SUCCEED
ON THE MERITS OF HIS NJLAD CLAIM.

In Count Two of his Complaint, Plaintiff claims that Defendants failed to provide him with a
religious accommodation in violation of the NJLAD. See Compl. at til8, 19. The NJLAD prohibits
employers from imposing a condition that “would require a person to violate or forego a sincerely
held religious practice or observance” unless, “after engaging in bona fide effort, the employer
demonstrates that it is unable to reasonably accommodate the employee's religious observance or
practice without undue hardship on the conduct of the employer's business.” N.J.S.A. 10:5-12(q)(l).
Here, Plaintiff, along with all other ECPO employees, is simply being asked to appear for
work as an Assistant Prosecutor in one of the busiest counties in the State. When Plaintiff advised his
supervisor of his need to practice prayer during the day, the ECPO quickly held a meeting to present
Plaintiff with reasonable alternatives. See Ex. D. In other words, the ECPO’s immediate response
was not rejection, as Plaintiff suggests, but a good faith showing of an intent to arrive at a meaningful
compromise. Plaintiff, however, was clearly uninterested in a compromise of any nature.
The ECPO plainly engaged in bona fide efforts to formulate alternative accommodations,
which took into consideration the stated reasons behind Plaintiffs request:
1) You may continue to engage in pray in your private office during
the work day;
2) You may access the Essex County Eagle Rock Reservation that is
directly across the street from your worksite. The Eagle Rock
Reservation is a four hundred (400) acre property with multiple
secluded areas. This option is offered as you specifically referenced
your preference to pray outside. . . .
3) The ECPO has identified a soundproof interview room located on
the third floor of the building where you are currently assigned. The
interview room does not have occupants on either side and would be
completely private. The soundproofing will address your concern

12
- App. 97 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 17 of 26 PagelD: 109

about others being able to hear you during prayer. ECPO is prepared
to offer you this room on either a permanent basis (if you wish to
relocate your office) or you may remain in your current office and use
this office on an as needed basis. . . .
See id. These accommodations were summarily rejected by Plaintiff, who insisted that the
only accommodation he would accept was the unilateral and subjective authority to determine when he
would appear for work. If he did not deem it necessary to appear in person for work, he would not.
See id.
Plaintiff does not claim that anyone at the ECPO forbid him from praying while at work, by
contrast the ECPO permit him to leave the office at any time to access the outdoor park across the
street and pray in complete solitude. Or he can use his private office. Or he can use a soundproof
interview room where he would not have any concern about being overheard. He has not been told
that he can only pray at “X” time, or only in “X” place, nor has he been told that he cannot pray in
the office in any manner at all. The only demand that the ECPO rejected was Plaintiff’s request to
work entirely from home unless and until Plaintiff deems it necessary to come to the office.
At this point, what Plaintiff is arguing is not whether any of the ECPO’s accommodations
were reasonable, as that would imply that Plaintiff was genuinely engaging in the process to arrive at
a fair accommodation. Rather, Plaintiff contends that unless the Court holds that Plaintiff can work
exclusively from home, Plaintiff’s rights under State and Federal law, will be unduly burdened.
Defendants submit that the Court need not address Plaintiff’s alleged undue hardship in its
analysis of this application because the ECPO has not refused to, or been unable to, offer reasonable
v
accommodations to Plaintiff. They have. What would be an undue hardship for the ECPO is to have
Plaintiff work remotely every day, unless or until Plaintiff finds it “reasonably necessary” to come
in. It was explained to Plaintiff that it would be a hardship for the ECPO if one of their Assistant
Prosecutors was not present for ad hoc meetings, or emergent matters as they often arise in Plaintiff’s
13
- App. 98 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 18 of 26 PagelD: 110

line of work, or to collaborate with and observe senior colleagues. See Imhof Cert at f8; see also Ex.
D.
Plaintiff was able to adhere to this requirement to physically appear in the office, upon his hire
and for approximately six months thereafter, before the pandemic forced extreme change at the office.
These are once again the present-day requirements, which Plaintiff initially adhered to without issue.
Plaintiff will not be able to prevail on the merits of his NJLAD claim because Defendants put
forth a bona fide effort to offer Plaintiff reasonable accommodations in light of his request. He cannot
prove otherwise. Thus, Plaintiffs instant motion should be denied.
D.

PLAINTIFF FAILS TO ESTABLISH THAT HE WILL SUFFER
IRREPARABLE HARM IF THE COURT DENIES HIS MOTION
FOR A PRELIMINARY INJUNCTION.

In addition to establishing a likelihood of success on the merits, Plaintiff must also establish
that he will suffer irreparable harm without a preliminary injunction. Exec. Home Care Franchising
LLC, 642 F. App’x at 183. This element cannot be met here. In order to demonstrate irreparable
harm, a plaintiff has the burden of establishing a “clear showing of immediate irreparable
injury.” ECRIv. McGraw-Hill, Inc., 809 F.2d 223, 226 (3d Cir. 1987).
In In re Revel AC, Inc., 802 F.3d 558 (3d Cir. 2015), the Court held that to establish
irreparable harm, a plaintiff “must demonstrate an injury that is neither remote nor speculative, but
actual and imminent.” Id. at 571 (quoting Tucker Anthony Realty Corp. v. Schlesinger, 888 F.2d 969,
975 (2d Cir. 1989)).
Plaintiff claims in his brief that “foregoing [his] prayer practice causes adverse spiritual,
psychological, and even physical effects on me.” See PI. Br. p. 16. However, Plaintiff does not
explain what these effects are, nor is it even remotely a foregone conclusion that Plaintiff must forego

14
- App. 99 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 19 of 26 PagelD: 111

prayer when he is in the office.
By Plaintiff’s own admission, Plaintiff is “fully willing to be physically present for anything
required by [his] job responsibilities - including, for instance, in-person court appearances, witness
interviews, or any other obligation.” Certification of Alex G. Leone, dated July 30, 2021 (“Leone
Cert”), at ^ 9. Plaintiff is therefore willing and able to be present in the office and in court when he
deems it necessary, and does not argue that he should be relieved of these duties, or is harmed when
he is physically present on these days.
There is no specific harm identified in his supporting brief or certification on days he does not
feel it necessary to be in the office, only that “forgoing prayer practice causes adverse spiritual,
psychological and even physical effects on [him].” Leone Cert, at tl6. These vague assertions fall
far short of the “immediate, irreparable injury” standard which must be demonstrated by a “clear
showing” of actual injury or harm. ECRI, 809 F.2d at 226.
Plaintiff also has demonstrated that mere presence in the office does not cause him irreparable
harm of any cognizable sort, as he was able to work full time in the office from hire date in
September 2019 until March 2020.
Plaintiff mentions as part of his argument on this point that he has been using his accrued time
off during times which he has been required to go into the office. See PI. Br., pp. 14-15. Plaintiff is
permitted to use his accrued time off however he would like to. That said, Plaintiff’s decision to call
out every other day to avoid coming into the office does not demonstrate a cognizable, irreparable
harm that ECPO’s policy is inflicting. This conduct actually underscores the fact that Plaintiff does not
suffer actual irreparable harm when he is in the office, because there is no distinctive difference
between coming in on a Monday versus a Wednesday, and Plaintiff does not attempt to make such a
distinction in his brief or declaration. Plaintiff has failed to demonstrate that he will suffer irreparable

15
- App. 100 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 20 of 26 PagelD: 112

harm if the preliminary injunction is not granted at this stage, and as such, the preliminary injunction
should be denied.
E.

A BALANCING OF THE EQUITIES WEIGHS HEAVILY IN
FAVOR OF DENYING PLAINTIFF’S MOTION.

Though it is already clear that Plaintiff fails on the first two prongs of the test outlined in
Exec. Home Care Franchising LLC, Plaintiff also falls short upon review of a balancing of the
equities. Id. at 183. Even setting aside the myriad of fatal deficiencies in Plaintiffs position on the
first two factors, Plaintiff equally fails on this point as well. “Before granting an injunction, a district
court must balance the relative harm to the parties, i.e., the potential injury to the plaintiff if an
injunction does not issue versus the potential injury to the defendant if the injunction is issued.”
Vista India v. Raaga, LLC, 501 F. Supp. 2d 605, 624 (D.N.J. 2007) (quoting Novartis Consumer
Health, Inc. v. Johnson & Johnson-Merck Consumer Pharm. Co., 290 F.3d 578, 596 (3d Cir. 2002)).
Plaintiff’s argument is that if this motion is denied, Plaintiff will “be required to forgo his
prayer practice,” which he insists causes him to suffer on “multiple levels.” PI. Br., pp. 15-16.
However, if that injury were to occur, which Defendants adamantly contend it would not, it would be
of Plaintiffs own doing. Plaintiff was offered three viable accommodations by Defendants in order to
permit him to continue to pray privately even after the remote work protocols ended. See Ex. D. If he
were required to return to the office, he could avail himself of any of the various more than reasonable
accommodations to ensure he could work from the office, and continue to engage in daily prayer.
As outlined in Imhof s memorandum, the ECPO offered to let Plaintiff pray in his office
whenever needed throughout the workday. See Ex. D. Alternatively, the ECPO has permitted
Plaintiff to go directly across the street to the Essex County Eagle Rock Reservation so long as it does
not adversely affect his work responsibilities. Id. It is a 400-acre property with multiple secluded

16
- App. 101 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 21 of 26 PagelD: 113

areas. Id. Plaintiff specifically asked to pray outside, and this would afford him the opportunity to do
so at his desired times. Id.
The final accommodation offer was for Plaintiff to have exclusive permission to use a
soundproof interview room on the third floor of the same building in which he is assigned. Ex. D.
Plaintiff would be allowed to use the room on a permanent basis if he relocated his office, or he
could go to the room when needed from his current office. Id. Plaintiff would have exclusive use of
the office and the ability to lock the door to avoid any distractions or interruptions. Id. This offer
would allow him to pray in quiet, without any chance of him being overheard or disrupted. Id. If he
chooses to utilize the soundproof interview room and move his office to the area, he can seamlessly
enter the room spontaneously, when he feels the sudden urge to pray that he describes. Id.
These accommodations are generous, and directly touch upon the unique, specific criteria
which Plaintiff “needs” to pray. Plaintiff would not only have the chance to pray in a private, quiet
environment - and outside if he so chooses - but he would also simply be in the same day-to-day
situation as he was during the first six months of his employment prior to the pandemic. He would
also be in the same situation as those assistant prosecutors in the Adult Trial and in the Appellate
Division. See Imhof Cert, at \\2.
On the other hand, an erroneously issued preliminary injunction would cause undue harm to
the ECPO, as they have acted in good faith at all times and tried to accommodate Plaintiff as
effectively as possible within reason. As Imhof outlined in his response to Plaintiff’s request, there is
actual harm that would occur to Defendants if this motion were to be granted;
It is the nature of the work performed by the ECPO that [requires]
individuals [to] be physically present in the office. As discussed during
our meeting, in person courtroom appearances will resume at some point
in the future. Many ECPO meetings are not pre-scheduled and occur on
an ad hoc basis that requires the presence of attorneys in the office. In-

17
- App. 102 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 22 of 26 PagelD: 114

person interviews are preferred over those conducted remotely.
Additionally, emergent matters that arise may require immediate
response that would necessitate your presence in the office. You
acknowledged the collaborative nature of ECPO’s work which often
requires in person discussion. Finally, as discussed during our meeting,
the workload of the ECPO was significantly decreased during the
pandemic. It is anticipated that workload will begin to increase now that
the pandemic has begun to subside. For these reasons, ECPO takes the
position that to allow your religious accommodation request to work
from home on a full-time basis would cause an undue hardship to the
office.
Ex. D. Imhof cited N.J.S.A. 10:5-12(q)(l), explaining that this requested accommodation
would bring about undue hardship to the ECPO, by way of “unreasonable interference with the safe
or efficient operation of the workplace.” Id. Although remote work was allowed during the heart of
the COVID-19 pandemic, it is quite obvious that a workplace does not function at full effectiveness
during the emergency protocols that companies temporarily put into place. These measures were
never, at any point, intended to be permanent, and these neutral measures applied to all employees
equally. At this point in time, all employees at Plaintiffs level are no longer permitted to work from
home. See Imhof Cert, at f 12.
However, Mr. Leone is the one seeking preferential treatment. He is the one who wants the
rules to apply in a special way to him, despite accusing the ECPO of treating him in a lesser,
discriminatory fashion. Plaintiff was hired as part of a system, in which employees are expected to be
present at their place of work, in order to do their job utilizing the resources and relationships they
have at the office. He is part of a collaborative team, and he must be present immediately (within
reason) for any sort of unexpected reason in which his availability is necessary. The lack of
availability and irreplaceable physical presence would create an undue hardship, as Plaintiff was hired
and is being paid to do just that, absent temporary extreme measures due to an extreme global health
crisis.

18
- App. 103 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 23 of 26 PagelD: 115

Plaintiff was expected to comply with the above availability needs prior to the pandemic.
Defendants are sensitive to the fact that everyone is different, and some people have unique needs that
are within reason to accommodate. Defendants offered more than reasonable accommodations for
these needs. See Ex. D. However, his demands transform the essence and nature of the job
altogether, leading to an extreme effectiveness decline, and causing undue hardship to Defendants
and thus are not within reason.
If this preliminary injunction were not granted, Plaintiff would simply be returning to the
same day-to-day job situation for which he was hired and successfully worked through for six months
prior to the pandemic. If the preliminary injunction were to be granted, Defendants would be forced
to employ an employee who cannot provide the availability and general effectiveness, which is
irreplaceable, that the job requires, despite offering him extremely reasonable accommodations based
on his demands. This would in turn cause an undue hardship to Defendants. It is quite clear that in
balancing the equities, Defendants would be far more harmed by the granting of the preliminary
injunction than Plaintiff would by its denial. Hence, Plaintiff has failed to satisfy his burden to prove
this third element.
F.

GRANTING AN INJUNCTION IS NOT IN THE PUBLIC
INTEREST.

Plaintiff has failed to establish that not granting this preliminary injunction would be against
public interest, and on the contrary, Defendants argue that granting the injunction is against public
interest. “In considering where the public interest lies, it is essential to evaluate the possible effects
upon the public from the grant or denial of injunctive relief.” Oburn v. Shapp, 521 F.2d 142, 152
(3d Cir. 1975), holding modified by Am. Tel. & Tel. Co. v. Winback & Conserve Program, Inc.,
42 F.3d 1421 (3d Cir. 1994). “As the Supreme Court has observed, ‘parts of equity may, and

19
- App. 104 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 24 of 26 PagelD: 116

frequently do,

go much farther both to give and withhold relief in furtherance of

the public interest than
involved.

5 55

they

are

accustomed

to

go

when

only

private interests are

Instant Air Freight Co. v. C.F. Air Freight, Inc., 882 F.2d 797, 803 (3d Cir.

1989)(quoting Virginian Ry. Co. v. System Fed'n No. 40, 300 U.S. 515, 552 (1937)).
A prosecutor serves the public and the public’s interest. See American Bar Association
Standard 3-1.2: Functions and Duties of the Prosecutor, see also American Bar Association
Standard 3-1.3: The Client of the Prosecutor. Therefore, if a prosecutor is not able to adequately
develop professionally and satisfy his job obligations, it is harmful to public interest. Here,
Defendants argue that by not being available in the office, as he was for months prior to the
pandemic, Plaintiff would be unable to properly develop professionally, which would harm the
public as a whole, whom he represents.
In May 2021, Imhof warned Plaintiff that the ECPO would be disadvantaged by his lack of
physical availability. See Imhof Cert, at 117-8. As a new attorney, Imhof advised Plaintiff that his
presence, outside of his direct personal work responsibilities, was integral to his “growth and
development.” Id. This includes the opportunity to “observe colleagues at other trials, and to
collaborate and strategize with colleagues in the office regarding investigations, witness and victim
interviews, case presentations to grand juries, among other responsibilities.” Id. Additionally, in
his memorandum to Plaintiff, Imhof explained that the case load for an assistant prosecutor will
only grow more burdensome with the return to the office. See Ex. D. As a result, it would not only
be difficult for Plaintiff to develop properly as an attorney, but there is also a high likelihood that
permanently working from home would cause difficulties in handling the burdensome case load,
decreasing his effectiveness as a servant of public interest. Therefore, Plaintiff not being available
in-person is harmful to public interest, and as a result, the preliminary injunction should be denied

20
- App. 105 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 25 of 26 PagelD: 117

on those grounds, as well as the others above.

CONCLUSION
For the foregoing reasons, Plaintiffs Motion for a Preliminary Injunction should be denied.

Respectfully submitted,
GENOVA BURNS LLC

Dated: August 24, 2021

/s/Kathleen Barnett Einhorn
Kathleen Barnett Einhorn, Esq.
Erica M. Clifford, Esq.
494 Broad Street
Newark, New Jersey 07102
Tel: (973) 533-0777
Fax:(973) 533-1112
Attorneys for Defendants,
Essex County Prosecutor’s Office,
Theodore Stephens II, Romesh Sukhdeo,
Gwendolyn Williams, & Roger Imhof

21
- App. 106 -

Case 2:21-cv-12786-SDW-ESK Document 11 Filed 08/24/21 Page 26 of 26 PagelD: 118

CERTIFICATE OF SERVICE
I, Kathleen Barnett Einhorn, the undersigned, certify under penalty of perjury, that on
August 24, 2021, I caused a true and correct copy of the attached Memorandum of Law in
Opposition to Plaintiff’s Motion for a Preliminary Injunction, Certification of Counsel, and the
exhibits attached thereto, to be served via the Court’s CM/ECF System.
Dated: August 24, 2021
/s/ Kathleen Barnett Einhorn
Kathleen Barnett Einhorn
16103074V2 (1582.132)

22
- App. 107 -

Case 2:21-cv-12786-SDW-ESK Document 11-2 Filed 08/24/21 Page 1 of 8 PagelD: 122

EXHIBIT A

- App. 108 -

Case 2:21-cv-12786-SDW-ESK Document 11-2 Filed 08/24/21^ Page 2 of 8 PagelD: 123

NOTICE TO THE BAR
Resumption of In-Person Jury Trials on or After June 15,2021 Prioritization of Criminal Trials that Involve Detained Defendants
The Supreme Court has authorized the resumption of in-person criminal jury
trials, and some in-person civil jury trials, effective on or after June 15, 2021.
Criminal jury trials will be conducted in person and will be the priority, with cases
that involve detained defendants continuing to receive the highest priority. Most
civil jury trials at present will continue to be conducted in a virtual format. The
Court’s May 11, 2021 Order is attached.
The Court’s authorization to resume in-person jury trials is based on
improved COVID-19 trends throughout New Jersey. In-person jury trials will be
conducted with necessary health precautions, including social distancing and the
requirement that participants wear face masks except in limited circumstances
when other health protections are in place. As announced in this May 6, 2021
notice, up to 50% of judges and state court employees will be present in state court
locations as of June 15, 2021. Those on-site judges and state court employees will
support upcoming in-person jury trials and other court events.
The Court in a separate May 11,2021 Order also has authorized the
resumption of in-person grand jury sessions, which must be conducted with
necessary health precautions.
Questions about this notice may be directed to the Office of the
Administrative Director of the Courts at (609) 376-3000.

Hon. Glenn A. Grant, J.A.D.
Acting Administrative Director of the Courts
Dated: May 11,2021

- App. 109 -

Case 2:21-cv-12786-SDW-ESK Document 11-2 Filed 08/24/21 Page 3 of 8 PagelD: 124

SUPREME COURT OF NEW JERSEY
In response to the ongoing COVID-19 public health emergency, the
Supreme Court has authorized various adjustments to court operations so as to
■

protect the health and safety of all court users. Based on improved COVID-19
trends, the Court today authorizes the resumption of certain in-person jury
proceedings on or after June 15, 2021 as set forth in this Order.
The Judiciary throughout the COVID-19 pandemic has been guided by the
recommendations of public health authorities, including the New Jersey
Department of Health (NJ DOH). Today, based on positive trends statewide, key
public health indicators regarding COVID-19 in New Jersey are encouraging.
New cases, hospitalizations, and deaths have been decreasing for several weeks
and continue to decline. In all regions of the state, the COVID-19 Activity Level
Index (CALI) is moderate or better. Subject to continued appropriate precautions,
including face masks and social distancing, the data supports the resumption of inperson jury trials throughout New Jersey.
Although COVID-19 trends today are substantially improved, the pandemic
is still affecting many aspects of court operations. Public health authorities
including the Centers for Disease Control and Prevention (CDC) continue to
caution against large gatherings for all people and against even moderate
gatherings for individuals who are not fully vaccinated against the COVID-19
virus. Accordingly, the resumption of certain in-person jury trials will remain at a
1
- App. 110 -

Case 2:21-cv-12786-SDW-ESK Document 11-2 Filed 08/24/21 Page 4 of 8 PagelD: 125
limited capacity, both statewide and vicinage by vicinage, as compared to pre­
pandemic operations.
The provisions of this Order for the most part align with the Court’s July 22.
2020 Order and appended Plan (as updated August 14, 2020), and replicate to the
extent practicable pre-COVID-19 jury processes. Criminal jury trials will be

■

conducted in person and will be the priority, with cases that involve detained
defendants continuing to receive the highest priority. In addition to those important
and urgent criminal trials, the Judiciary also can sustain civil jury trials, which in
general will continue to be conducted in a virtual format. This blended approach with some jury trials conducted in person and others remotely - will support case
resolution and ongoing adherence to social distancing and other precautions that
remain critical to protect against the COVID-19 virus.
Accordingly, it is ORDERED that the following provisions are effective
immediately except as otherwise stated herein:
(1) JURY SELECTION
a. Jury selection for criminal and civil trials will begin in a virtual format.
b. The juror summons will inform prospective jurors that (1) the jury

;

selection process will begin in a virtual format; and (2) their service may
continue virtually or may involve reporting in person to a courthouse
with safety precautions.

2
- App. Ill -

i

Case 2:21-cv-12786-SDW-ESK Document 11-2 Filed 08/24/21 Page 5 of 8 PagelD: 126

c. Judiciary staff will communicate with qualified jurors about their
technological capacity to participate in virtual selection.
d. Jurors can participate in virtual selection using a laptop, tablet,
smartphone, or other comparable device with a reliable Internet
connection and a functioning web camera.
e. When a juror is otherwise able to participate in virtual selection but
requires technological support, the Judiciary will continue to provide
such jurors with restricted-use devices and related supports (including, as
necessary, broadband capacity), which will be configured and
administered solely by the Judiciary.
f. Before starting virtual jury selection, Judiciary staff will provide initial
Zoom testing and onboarding for qualified jurors.
g. The Judiciary will continue to advise jurors of COVID-19 protocols,
including the requirement that individuals who are subject to isolation or
quarantine must not report to the courthouse. During virtual selection,
the judge will invite jurors to raise any specific questions about their
ability to report in person (if proceeding to an in-person trial) during
sidebar, in the presence of the attorneys and parties.

3
- App. 112 -

Case 2:21-cv-12786-SDW-ESK Document 11-2 Filed 08/24/21 Page 6 of 8 PagelD: 127

(2)

CRIMINAL JURY TRIALS
a. Jury selection for criminal trials will begin virtually and then proceed to a
final in-person phase. The in-person phase of selection will be conducted
in compliance with all applicable current public health precautions.
i. All case-specific questioning of jurors will be conducted
during the virtual voir dire process in the presence of the
judge, attorneys, and parties. Jurors will be excused for
cause based on that questioning.
ii. After virtual questioning and for-cause excusals, the
remaining small number of jurors will be directed to report
in person to the courthouse in small groups for the final
phase of selection, including the exercise of peremptory
challenges.
b. Cases involving detained defendants will continue to be the top priority.
Consistent with existing Judiciary policy, selection of trials will focus on
detained defendants who are approaching the end of excludable time.
The extensions of preindictment and post-indictment excludable time will
conclude as set forth in the Court’s April 9, 2021 Order.

4
- App. 113 -

I

Case 2:21-cv-12786-SDW-ESK Document 11-2 Filed 08/24/21 Page 7 of 8 PagelD: 128

(3) CIVIL JURY TRIALS
a. Jury selection for civil trials will be conducted in an entirely virtual
format, consistent with the provisions of the Court’s January 7, 2021 and
February L 2021 Orders.
b. Most civil jury trials will continue to be conducted in a virtual format,
consistent with the provisions of the Court’s January 7, 2021 and
February L 2021 Orders. Track I and Track II trials will proceed
virtually absent compelling circumstances as determined by the
Assignment Judge.
c. Civil cases that are especially urgent, including those that involve a
plaintiff whom doctors have determined has a limited life expectancy,

i

will be prioritized for in-person trials.
d. Assignment Judges may authorize additional in-person civil jury trials
:

based on local resources, so long as those in-person civil jury trials do not
reduce the Judiciary’s capacity to conduct other urgent court events,
including in-person criminal trials involving detained defendants.
(4) PUBLIC ACCESS TO JURY PROCEEDINGS
a. To avoid inadvertent broadcast of juror images, jury selection in both
criminal jury trials and civil jury trials will not be live broadcast.
b. To the greatest extent practicable, public access to all phases of jury
selection (in both civil and criminal trials) and virtual civil jury trials,
5
- App. 114 -

Case 2:21-cv-12786-SDW-ESK Document 11-2 Filed 08/24/21 Page 8 of 8 PagelD: 129
will be provided by permitting limited numbers of observers to be
physically present in the courtroom or other courthouse location,
consistent with social distancing and other requirements. Assignment
Judges may permit remote options for observation based on individual
circumstances.
c. Socially distanced in-person jury trials may be live broadcast. In general,
instead of live broadcast, public access will be provided by permitting
S

individuals to be physically present in the courtroom, consistent with
social distancing and other requirements. As necessary, individualized
remote access also may be permitted.
(5) OPERATIONAL GUIDANCE
The Administrative Director of the Courts is authorized to promulgate
additional protocols on jury operation relating to this resumption of inperson jury proceedings during the ongoing COVID-19 pandemic.
For the Court,

Chief Justice
Dated: May 11, 2021

6
- App. 115 -

!:

Case 2:21-cv-12786-SDW-ESK Document 11-3 Filed 08/24/21 Page 1 of 5 PagelD: 130

EXHIBIT B

- App. 116 -

Case 2:21-cv-12786-SDW-ESK Document 11-3 Filed 08/24/21 Page 2 of 5 PagelD: 131

GENOVA BURNS LLC
Kathleen Barnett Einhorn, Esq.
Erica M. Clifford, Esq.
494 Broad Street
Newark, New Jersey 07102
(973)533-0777
Attorneys for Defendants
Essex County Prosecutor’s Office,
Theodore Stephens II, Romesh Sukhdeo,
Gwendolyn Williams, and Roger Imhof
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY

ALEX G. LEONE,

CIVIL ACTION NO. 2:21-cv-12786SDW-ESK

Plaintiff,
v.
ESSEX COUNTY PROSECUTOR’S
OFFICE, THEODORE STEPHENS CERTIFICATION OF ROGER
ROMESH
SUKHDEO, IMHOF
II,
GWENDOLYN WILLIAMS, and
ROGER IMHOF, in their individual
and official capacities,
Defendants.

I, ROGER IMHOF, hereby certify as follows:
1.

I am currently employed by the Essex County Prosecutor’s Office

(“ECPO”) as Chief Assistant Prosecutor. I submit this certification upon my personal
knowledge and in support of Defendants’ Opposition to Plaintiff, Alex G. Leone’s
(“Plaintiff’), Motion for a Preliminary Injunction.
1

- App. 117 -

Case 2:21-cv-12786-SDW-ESK Document 11-3 Filed 08/24/21 Page 3 of 5 PagelD: 132

2.

Plaintiff was hired on September 9, 2019.

3.

A little more than six months later, in March 2020, the ECPO offices

informed employees that in order to limit employee exposure to one another due to the
Covid-19 pandemic, employees would be working on an A/B schedule, meaning that
employees would rotate being in the office one week, and then working remotely the
following week.
4.

On or about November 15,2020, the A/B schedule was suspended due to

increased concern about in-person contact, and as such, assistant prosecutors were only
required to come into the office as needed, while supervisors and department heads
were in the office most days handling emergent matters.
5.

On or about April 5, 2021, assistant prosecutors in various units,

including Plaintiffs unit, were informed that they must return to an A/B schedule
based on the workload of their department heads, who had been taking on many of the
responsibilities of assistant prosecutors and calling them to get them up to speed on
matters, which was not sustainable with an increased workload.
6.

On or about April 26, 2021, Plaintiff submitted a request for

accommodation form to his supervisor, Deputy Chief Prosecutor Walter Dirkin
(“Dirkin”).

2

- App. 118 -

Case 2:21-cv-12786-SDW-ESK Document 11-3 Filed 08/24/21 Page 4 of 5 PagelD: 133

7.

On or about May 6, 2021, in response to Plaintiffs request, a video

conference meeting was scheduled with Plaintiff which I participated in, as well as
Executive Assistant Prosecutor Gwendolyn Williams, and Dirkin.
8.

During this conference, I explained to Plaintiff that his presence in the

office was necessary to handle emergent matters, which were unfairly falling on heads
of departments who were coming in daily; additionally, as a new attorney with the
Prosecutor’s Office, his presence in the office was vital to his growth and development
as a trial lawyer - to observe colleagues at other trials, and to collaborate and strategize
with colleagues in the office regarding investigations, witness and victim interviews,
case presentations to grand juries, among other responsibilities of an Assistant
Prosecutor.
9.

There were several accommodations offered by the ECPO that were

discussed with Plaintiff, which were memorialized in my memorandum dated May 12,
2021.
10.

One of the alternatives presented to him was the private interview room

which, while outfitted with surveillance cameras, an employee can remove the key
which activates the surveillance cameras, and take it into the room with him, thereby
assuring him or herself that the cameras are not on and the employee is not being
recorded.
11.

Plaintiff rejected all of the ECPO’s proposed accommodations.
3

- App. 119 -

Case 2:21-cv-12786-SDW-ESK Document 11-3 Filed 08/24/21 Page 5 of 5 PagelD: 134

12.

As of August 2, 2021, all ECPO employees - of every unit including the

Appellate and Adult Trial Sections - are required to be back in the office full time.
I hereby certify that the foregoing statements made by me are true. I am aware
that if any of the foregoing statements are willfully false, I am subject to punishment.

/s/ Roger Imhof
ROGER IMHOF
Dated: August 24, 2021

16076039vl (1582.132)

4

- App. 120 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 1 of 29 PagelD: 210

UNITED STATES DISCTICT COURT
DISTRICT OF NEW JERSEY
x

REPLY IN SUPPORT

ALEX G. LEONE,
Plaintiff,

OF MOTION FOR
PRELIMINARY

v.

INJUNCTION
ESSEX COUNTY PROSECUTOR’S OFFICE,

Docket No. 2:21-cv-12786

THEODORE STEPHENS II,

Motion Day:

ROMESH SUKHDEO,

September 7, 2021

GWENDOLYN WILLIAMS,
and
ROGER IMHOF,
in their individual and official capacities,
Defendants.
x

TABLE OF CONTENTS
Introduction

p. 2

Argument .

p. 2

Conclusion

p. 28
TABLE OF AUTHORITIES

Alabama Ass ’n ofRealtors, et al. v. Dept. HHS, et al., 594 U.S.__(August 26, 2021)p. 5
Fulton v. City ofPhiladelphia, Pennsylvania, 593 U.S.__(June 17, 2021)

p.4

Tandon v Newsom, 141 S. Ct. 1294 (2021).................................................

p.4

Roman Catholic Diocese ofBrooklyn v. Cuomo, 141 S. Ct. 63 (2020) (per curiam).....p.20
Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct. 2751 (2014)

p.10

Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal, 546 U.S. 418 (2006).. .p .3
Ashcroft v. American Civil Liberties Union, 542 U.S. 656 (2004)......

■P-3

Hobbie v. Unemployment Appeals Commission, 480 U.S. 136 (1987)

p. 12

Thomas v. Review Bd. of Indiana Employment Security Div., 450 U.S. 707 (1981)... .p. 10
Reilly v. City ofHarrisburg, 858 F.3d 173 (3d Cir. 2017).................................

■P-3

Tenafly EruvAss ’n v. Borough ofTenafly, 309 F.3d 144 (3d Cir. 2002)..........

p. 20

Fraternal Order, Police Newark v. City, Newark, 170 F.3d 359 (3d Cir. 1999)

p. 5

1
- App. 121 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 2 of 29 PagelD: 211

INTRODUCTION
In their legal arguments, Defendants fail to cite the applicable legal standards;
conspicuously omit binding and on-point cases, citing only one of the Supreme Court’s
precedents on religious liberty only in passing; and make multiple clearly identifiable
legal errors. In their assertions on the facts, Defendants offer virtually no evidence and
fail to identify any concrete fact or specific example that could even conceivably justify
their totally untailored religious discrimination—instead resorting to mischaracterizations
if not downright misrepresentations.
Plaintiff replies to each of these sets of fatal issues below. i
ARGUMENT
I.

Defendants’ Legal Arguments

Defendants’ legal argument section is sloppy, to say the least.
A. Likelihood of Success on the Merits
First, after opening with citations to three unpublished cases,2 Defendants cite a
defunct case that misstates the preliminary injunction standard. (See Opp. at 9 (citing
NutraSweet Co. v. Vit-Mar Enters., Inc., 176 F.3d 151, 153 (3d Cir. 1999)).

In a

precedential opinion, the Court of Appeals identified NutraSweet—down to Defendants’
exact pincite—as part of an “inconsistent line of cases” that “compounded subtle
misinterpretations of . . . longstanding jurisprudence,” and went on to clarify the

l

Citations in this brief will be as follows: to the Complaint (D.E. No. 1) as “Compl.”
and its exhibits as “Compl. Ex.__”; to the Memorandum (D.E. No. 8-1) supporting the
Motion for Preliminary Injunction (D.E. No. 8) as “MPI Br.” and the exhibits to the
Motion as “MPI Br. Ex.
and to Defendants’ Brief (D.E. No. 11) as “Opp.”
_____

5’.
?

2

(See Opp. at 9 (citing Checker Cab ofPhiladelphia Inc. v. Uber Techs., Inc., 642
F. App’x 229, 231 (3d Cir. 2016); Exec. Home Care Franchising LLC v. Marshall Health
Corp., 642 F. App’x 181, 183 (3d Cir. 2016); Julius Realty Corp. v. Thompson, 2020 WL
2539188 (D.N.J. May 19, 2020))). Unpublished cases “are not binding.” El v. City of
Pittsburgh, 975 F.3d 327, 340 (3d Cir. 2020).
2

- App. 122 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 3 of 29 PagelD: 212

applicable standard. See Reilly v. City of Harrisburg, 858 F.3d 173, 177 (3d Cir. 2017).
Whereas Defendants incorrectly state that “of course” “[a] plaintiffs failure to establish
any element in its favor renders a preliminary injunction inappropriate”—and would strip
the Court of its discretion to weigh all four preliminary injunction factors—the correct
standard is more favorable to Plaintiff:
[A] movant for preliminary equitable relief must meet the
threshold for the first two “most critical” factors: it must
demonstrate that it can win on the merits (which requires a
showing significantly better than negligible but not
necessarily more likely than not) and that it is more likely
than not to suffer irreparable harm in the absence of
preliminary relief. If these gateway factors are met, a court
then considers the remaining two factors and determines in
its sound discretion if all four factors, taken together,
balance in favor of granting the requested preliminary
relief.
Id. at 179 (footnotes omitted).
Then, Defendants—either ignorantly or intentionally3—omit an aspect of the
preliminary injunction analysis crucial “in First Amendment cases:” A plaintiff moving
for a preliminary injunction “must be deemed likely to prevail” on the merits unless the
government justifies its infringement of First Amendment liberty under the appropriate
level of scrutiny. See Ashcroft v. American Civil Liberties Union, 542 U.S. 656, 666
(2004); Reilly, 858 F.3d at 180 (emphasis added). Here—as explained in Plaintiffs brief
(MPI Br. at 5-14) and again below—“the [government failed” to do so: Defendants do
not even come close. See Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal,
546 U.S. 418, 429 (2006); (MPI Br. at 5-14).

3

Because Defendants’ counsel is a law partner and chair of her law firm’s
“Complex
Commercial
Litigation”
practice
group,
https://www.genovaburns.com/attorneys/kathIeen-barnett-einhorn, and because Plaintiff
previously cited Reilly and its applicable standards several times (MPI Br. at 5, 6 & 14),
it is difficult to avoid the inference that this omission was intentional.
3
- App. 123 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 4 of 29 PagelD: 213

But not only have Defendants omitted this important aspect of the applicable legal
standard—and utterly failed to carry their burden under it—they have illicitly attempted
to shift the burden to Plaintiff to explain why their proposed “accommodations” are
unreasonable.

(See, e.g., Opp. at 13 (asserting that “the Court need not address”

Defendants’ burdening of Plaintiff s free exercise “because the ECPO has . . . offer[ed]
reasonable accommodations to Plaintiff’)).

It is easy to explain why Defendants’

proposed “accommodations” are unreasonable, and Plaintiff will do so, for the fourth
time,4 below. But to be clear, Defendants’ illicit attempt to shift that burden to Plaintiff
has no basis in law—and is even directly contradicted by the state law governing
Defendants. See N.J.S.A. 10:5-12(q)(l) (providing that an employer cannot “require a
person to violate or forego a sincerely held religious practice” unless the employer
“demonstrates” that accommodating the religious practice would cause “undue
hardship”)', (Opp. at 12 (recognizing this legal requirement)).
Next, Defendants fallaciously argue that because some or all employees “were
required to return [physically] to work on August 2, 2021”—or because Defendants are
not at this moment granting secular exemptions from the requirement that employees be
physically present in the office—their policies are “neutral and generally applicable.”
(See Opp. at 10-11). This fallacious argument, however, “misapprehends the issue:” The
Supreme Court has foreclosed Defendants’ argument—actually, stronger versions of it—
twice over. See Fulton v. City of Philadelphia, Pennsylvania, 593 U.S.___,___(slip
op.) at 10 (June 17, 2021); Tandon v Newsom, 141 S. Ct. 1294, 1297 (2021).5

4

(-See Compl. Ex. E at 7-9; Compl

47 & 55-59; MPI Br. at 4 & 13).

5

Defendants do not cite Fulton even one time, not even when discussing the
requirements of neutrality and general applicability, which the Court directly addressed
in Fulton only months ago. (See Opp. at 10); Fulton v. City ofPhiladelphia, Pennsylvania,
593 U.S.
___(slip op.) at 5-7 (June 17, 2021). It is understandable why Defendants
would want to pretend Fulton does not exist: It is a binding Supreme Court case that
_______ ?

4
- App. 124 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 5 of 29 PagelD: 214

•

In Fulton, the Supreme Court made clear that having “a formal mechanism for
granting exceptions” at all “renders [Defendants’] policy not generally applicable,
regardless whether any exceptions” are currently given or even whether any
exceptions ever have been given. Fulton, (slip, op.) at 10.6 This is so because it
permits the government “to decide which reasons for not complying with the
policy are worthy of solicitude.” Id. Here, not only may Defendants’ “decide
which reasons for not complying with the[ir] [physical presence] policy are
worthy of solicitude:” They in fact decided during more than a year that secular
reasons are “worthy of solicitude” but that religious reasons are not and never are.
See id. Moreover, Defendants may exercise the arbitrary discretion accorded to
them under their formal or informal exemption policies at any time and decide
again that secular reasons are worthy of solicitude while continuing to
discriminate against religion. See, e.g., Alabama Association ofRealtors, etal. v.
Department of Health and Human Services, et al., 594 U.S.__,__(slip op.) at 8

severely undermines, if not outright refutes, their entire position and shows clearly that
preliminary relief should be granted.
6

Defendants may attempt to argue that because they do not have a formal
mechanism for granting exemptions from the requirement that employees report
physically for work, they are not subject to the legal analysis in Fulton. Defendants
apparently do have a formal mechanism, or several, for granting exemptions from that
requirement. {See, e.g., MPI Ex. A
10-11; MP1 Ex. C; Opp. at 1-2 (describing the
deliberative processes underlying Defendants’ decisions to permit certain employees to
work from home at certain times); Opp. at 5-6 (describing the formal process Defendants
claim they followed when considering Plaintiffs request for an exemption)). But “formal”
or “informal,” the argument would make no sense: The very potential for granting
exemptions, Fulton makes clear, is the problem; and an informal system depending even
more on Defendants’ arbitrary discretion poses an even greater threat of religious
discrimination. See Fulton, (slip op.) at 10. Stated simply, the Supreme Court’s “concern
[i]s the prospect of the government’s deciding that secular motivations are more important
than religious motivations,” Fraternal Order, Police Newark v. City, Newark, 170 F.3d
359, 365 (3d Cir. 1999), and that is precisely what Defendants have done here—and in
the absence of preliminary relief, would be permitted to continue to do.
5

- App. 125 -

I

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 6 of 29 PagelD: 215

(August 26, 2021) (“It is indisputable that the public has a strong interest in
combating the spread of the COVID-19 Delta variant.”); Hospital visitor
restrictions return in parts of New Jersey as COVID cases spike.1 Stated simply,
the Supreme Court’s “concern [i]s the prospect of the government’s deciding that
secular motivations are more important than religious motivations, ” Fraternal
Order, Police Newarkv. City, Newark, 170 F.3d 359, 365 (3d Cir. 1999), and that
is precisely what Defendants have done here—and in the absence of preliminary
relief, would be permitted to continue to do.
•

In Tandon, which Defendants also pretend does not exist, the Supreme Court
made clear that “even if the government withdraws” a restriction on free exercise,
a plaintiff “otherwise entitled to emergency injunctive relief remain [s] entitled”
when he “remain[s] under a constant threat” the government will use its “power
to reinstate the challenged restriction[]” on free exercise. Tandon, 141 S. Ct. at
1297 (citing Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 68
(2020) (per curiam))) (emphases added). Here, Plaintiff remains not only under a
“constant threat” of free exercise infringement:

Defendants’ free exercise

infringement against Plaintiff has never ended—and was recently increased by
100%—let alone the discriminatory policy resulting in the infringement actually
“withdraw[nj.” See id.', (Compl. Ex. D. at 2-3 (stating Defendant’s policy of
categorically discriminating against a religious accommodation even “in the
future”)). And despite Defendants’ August 2 shifting of who must be physically
present in the office or when, Defendants’ discretion to grant exemptions and

7

North Jersey.com, (Aug. 19, 2021),
https://www.northiersev.com/story/news/coronavirus/2021/08/19/southern-ni-hospitalslimit-visitors-covid-cases-spike-delta-varient/8199037002/.
6

- App. 126 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 7 of 29 PagelD: 216

permit employees to work from home for secular reasons may again be exercised
at any time. See Tandon, 141 S. Ct. at 1297; Alabama Association, (slip op.) at 8;
(see, e.g., supra, note 7). In other words, as observed above, Defendants maintain
arbitrary discretion to favor secular reasons for working from home over religious
reasons. This is precisely the kind of discretion the Supreme Court has said is not
neutral and generally applicable and squarely raises—and, here, actualizes—the
Court’s concern that the government will engage in religious discrimination. See
Fulton, (slip, op.) at 10; Fraternal Order, 170 F.3d at 365.
In addition, regardless of their treatment of others for secular reasons, Defendants
intentionally discriminated against religion in denying the Request for Accommodation,
explicitly and categorically singling out religion as never an adequate basis to permit
work from home. (Compl. Ex. D at 2 (categorically asserting that religion can never
justify working from home at all “presently or in the future”). This “decision to provide
medical exemptions while [categorically] refusing [a] religious exemption^ is
sufficiently suggestive of discriminatory intent so as to trigger heightened scrutiny.” See
Fraternal Order, 170 F.3d at 365; id. (noting that it is even more problematic when a
government employer permits a “categorical exemption” for secular reasons “but not
for . . . religious” reasons). Defendants’ discriminatory intent has continued from that
decision until this day. It does not cease to exist simply because Defendants have decided
to treat others differently for secular reasons, and Defendants’ hostility to religion is
shockingly evident even in their brief.

(See, e.g., Opp. at 5, 6 &17 (derisively referring

to the religious need to pray in scarequotes multiple times); Opp. at 3 (derisively referring
to Plaintiffs prayer practice as a “moving” “target”)).

7
- App. 127 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 8 of 29 PagelD: 217

Therefore, there are three reasons each of which is independently sufficient to
reject Defendants’ contention that their discretionary policies are neutral and
generally applicable. (See also Compl.

72-76; MPI Br. at 7-9).

Finally, and tellingly, Defendants argue only that rational basis scrutiny applies
and that their religious discrimination “withstands the low bar of rational basis scrutiny.”8
This is a pipedream and deliberate disregard for the applicable standard announced by the
Supreme Court. See, e.g., Fulton, (slip op.) at 6; Tandon, 141 S. Ct. at 1296; see also
Fraternal Order, 170 F.3d at 366. As Plaintiff had twice explained, strict scrutiny applies
three times over. (See Compl.

72-76; MPI Br. at 7-9). And similar to their failure to

cite the applicable preliminary injunction standards (and Fulton and Tandon), Defendants’
fail to cite the Court of Appeals’s binding decision in Fraternal Order, which is on all
fours with this case and shows clearly that heightened scrutiny applies and that
preliminary relief should be granted. (See MPI Br. at 10-11). Defendants do not even
attempt to distinguish Fraternal Order; they literally do not even cite it even one time.9
On the merits, Plaintiff needed only to make “a showing significantly better than
negligible:” that he “can win on the merits.” See Reilly, 858 F.3d at 179 (emphasis added).

8

It does not: Because Defendants’ discrimination is motivated by unlawful intent,
is totally untailored, and is shot through with inconsistencies, it would not pass even the
most minimal level of scrutiny, let alone a heightened level of scrutiny, let alone strict
scrutiny. See, e.g., Romer v. Evans, 517 U.S. 620, 632-33 (1996); (MPI Br. at 12 n.5).
9

The loosely relevant cases Defendants do cite plainly support the application for
preliminary relief. Compare, e.g., McTernan v. City of York, 564 F.3d 636, 647 (3d Cir.
2009) (“Government action is not neutral and generally applicable ... if it burdens
religiously motivated conduct but exempts substantial comparable conduct that is not
religiously motivated.”), with Compl. f 75 (Defendants have “prohibited] religious
conduct,” i.e., working from home as necessary to pray, “while permitting secular
conduct,” i.e., working from home for secular reasons, which “undermines the
government’s asserted interests in a similar way”—in fact, the same exact way. (citing
Fulton, (slip op.) at 6)); see also McTernan, 564 F.3d at 650-51 (suggesting that even
when the government asserts an “interest in safety and avoiding collisions” its
discrimination should be enjoined if its means of advancing its asserted interest are not
narrowly tailored (emphasis added)).
8
- App. 128 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 9 of 29 PagelD: 218

Plaintiff easily made this showing. (See MPI Br. at 5-14). In contrast, Defendants do not
even come close to discharging their duty to justify their burdening of Plaintiffs free
exercise, having eked out only a dubious argument that they pass mere rational basis
scrutiny. (See supra, note 8). Accordingly, Plaintiff “must be deemed likely to prevail”
on the merits. See Ashcroft, 542 U.S. at 666; Gonzales, 546 U.S. at 429; Reilly, at 180.
B. Irreparable Harm
On the issue of irreparable harm, Defendants continue to make clearly identifiable
errors of law and fact.10
First, Defendants entirely omit the controlling standard provided directly by the
Supreme Court: A person is “irreparably harmed by the loss of free exercise rights ‘for
even minimal periods of time.'1” Tandon, 141 S. Ct. at 1297 (emphasis added) (citing
Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 67 (2020)). As if this
standard and Plaintiffs analysis of it were not sufficient to find this factor in favor of
Plaintiff here (see MPI Br. at 14-15)—where Defendants’ infringement of free exercise
is not only not “minimal” in duration but categorical and permanent—Defendants
themselves apparently concede that Plaintiff is suffering irreparable harm: “The harm
allegedly suffered by Plaintiff.. . is difficult, if not impossible, to quantify and thus even
more challenging to remedy.” (See Opp. at 3); Ramsay v. Nat 7 Bd. of Med. Examiners
968 F.3d 251,262 (3d Cir. 2020) (defining irreparable harm).

10

As in the preceding section, Defendants again open with citation to an unpublished
case and again cite a defunct case on which the Court of Appeals cast doubt in Reilly.
(See Opp. at 14 (citing ECRI v. McGraw-Hill, Inc., 809 F.2d 223, 226 (3d Cir. 1987));
Reilly, 858 F.3d at 177 (discussing ECRI).
Defendants also cited ECRI in their dubious attempt to bully Plaintiff into
withdrawing the instant motion. (D.E. No. 10-1 (Ex. A)). As is now clear, counsel’s
letter was premised on a negligent lack of basic legal research—and sheer bad faith at
worst—further strengthening the inference that the attempt to bully Plaintiff into
withdrawing the instant motion was unlawful and further undermining the defamatory
assertion that the motion “is frivolous. ” See id.; (infra, note 22).
9
- App. 129 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 10 of 29 PagelD: 219

Then, having correctly recognized that “Plaintiffs religious beliefs are sincerely
held” (Opp. at 3), Defendants illegitimately attempt to dispute that “Plaintiff must forego
prayer when he is in the office” (Opp. at 14-15). Yet Plaintiff has stated (and declared
under penalty of perjury) unequivocally:
When physically present in the office, I am forced to forgo
a prayer practice I engage in throughout every work day.
(I engage in this practice every day except Sunday.) My
religious belief is that the peace and solitude required for
this practice are impossible in the office.
(MPI Ex. A ^ 13; see also, e.g., Compl.

19-27).

As the Supreme Court has made clear, “it is not for [courts] to say that... religious
beliefs are mistaken or insubstantial. Instead, [thei]r ‘narrow function ... in this context
is to determine’ whether the line drawn reflects ‘an honest conviction;”’ and, here, “there
is no dispute that it does.” See Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct. 2751
2779 (2014) (quoting Thomas v. Review Bd. of Indiana Employment Security Div., 450
U.S. 707, 716 (1981)); (Opp. at 3). Yet Defendants would have the Court disregard this
rule and enquire whether Plaintiffs religious convictions really require Plaintiff to pray
audibly and spontaneously in peace and solitude outside the office, requiring him to forgo
his prayer practice while in the office. What’s more: Defendants have repeatedly
suggested that it is appropriate to dissect “a specific provision in Christianity” to
determine whether granting the requested accommodation is appropriate. (Opp. at 6;
Compl. Ex. D at 1; see also Compl. Ex. E at 9 n.5; Compl. n.2).n See Thomas, 450 U.S.
at 715 (“Courts should not undertake to dissect religious beliefs.”).

n

If Defendants are interested in “a specific provision in Christianity” relevant to
Plaintiffs prayer practice, they could consult the Bible. See, e.g., Genesis 1:1; Exodus
15:26; Deuteronomy 10:14; Joshua 1:9; I Kings 4:29-33; I Chronicles 16:8; Nehemiah
2:4-5; & 9:4-6; Job 26:13, 38:4 & 38-41; Psalms 1:1-3, 8:3-5, 19:1-2, 30:11-12, 35:28,
40:16-17, 51:15-17, 63:5, 64:1, 66:19, 71:8 & 24, 89:1 & 11,94:18-19, 95:1-5, 102:25,
104:14-17 & 33, 107:41, 119:12-13 & 148:7-10; Isaiah 44:24 & 51:13; Jeremiah 17:14;
Ezekiel 1:1; Amos 9:6; Matthew 5, 6:3-4, 6:5-6, 6:17-18, 6:26-29, 8:7, 14:23, 22:37-40
10
- App. 130 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 11 of 29 PagelD: 220

Next, Defendants fallaciously assert that, because Plaintiff is “fully willing to be
physically present for anything required by [his] job responsibilities,” he does not suffer
irreparable harm when discriminatorily forced to forgo his prayer practice. (See Opp. at
15). Of course, irreparable harm occurs here as a result of Defendants’ unlawful
discrimination—but requiring Plaintiff to be physically present in order to fulfill his job
responsibilities would not be unlawful discrimination, because the same requirement
applies to all employees when work from home is permitted by Defendants for secular
reasons, and Plaintiff has never even asked to be absolved of any job responsibility to
begin with. (See, e.g., Compl. Exs. A & B). He asked simply that the status quo that
extended a work-from-home accommodation to employees for secular reasons be
extended to him for religious reasons. (See, e.g., Compl. Ex. C).
But in discriminatorily requiring Plaintiff to be physically present irrespective of
his job responsibilities,12 Defendants are refusing to extend that same accommodation
accorded to all employees for secular reasons: requiring their physical presence only
“based on the needs of the office.” (See Compl. 45-46 & MPI Br. at 13 (quoting Compl.
Ex. D at 2)). Hence Defendants fallaciously conflate the forgoing of Plaintiffs prayer
practice at all—which may incidentally occur as a result of being in the office when

& 25:31-46; Mark 1:35-36, 6:46 & 7:34; Luke 2:13-14, 12:22-28, 18:9-14 & 23:34; John
1:1, 12:44 & 17:1-2; Acts 1:10-11 & 6:2-4; Romans 1:20; II Corinthians 10:3-5;
Ephesians 1:15-16, 6:1-4 & 6:13-18; Philippians 4:6; Colossians 4:2; I Thessalonians
5:16-18; Hebrews 13:15; James 1:27; Revelation 21:9-11.
12

The illogic of Defendants’ discrimination against religion is plainly evident in
their “offers” of “accommodations”—for instance, Defendants would generally permit
Plaintiff to be physically out of the office to range “a four hundred (400) acre [public
park] .. . so long as it does not adversely impact [his] work responsibilities'” (Compl. Ex.
D at 3 (emphasis added)), but never permit Plaintiff work at his nearby home, where he
can actually pray and work consistent with his job responsibilities, on the very same
condition (see, e.g., Compl. ^[ 58; MPI Ex. A ^[| 13-17). These putative “accommodations”
will be addressed again below.
11
- App. 131 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 12 of 29 PagelD: 221

reasonably necessary—with irreparable harm, which occurs only when forgoing the
prayer practice is a result of Defendants ’ unlawful discrimination. Plaintiff already
observed that forgoing his prayer practice “is sometimes an unavoidable consequence of
life.” (Compl. f 26). To attempt to use this commonsense observation against Plaintiff
is legally fallacious and highly inappropriate.13
Additionally, and again fallaciously, Defendants suggest that their religious
discrimination “does not cause [Plaintiff] irreparable harm” because “he was able to work
full time in the office” before the pandemic. (See Opp. at 15; Opp. at 3 (calling this
observation “critically” important)). It is true that Plaintiff worked in a different unit of
the office for several months before the pandemic and during that time sought only other
religious accommodations. Yet, again, the Supreme Court puts the lie to Defendants’
fallacy: “The First Amendment protects the free exercise rights of employees who adopt
religious beliefs or convert from one faith to another after they are hired;” and “[t]he
timing” of when an employee chooses to begin engaging in a religious practice “is
immaterial” to determining whether an employer burdens his free exercise rights and
causes him irreparable harm. Hobbie v. Unemployment Appeals Commission, 480 U.S.
136, 144 (1987). Defendants do not cite Hobbie; and other than Smith on one page in
passing (Opp. at 10), they do not cite any Supreme Court precedent on religious liberty.

13

The upshot of Defendants’ observation that “there is no distinctive difference
between coming in on a Monday versus a Wednesday,” if any, is unclear. (See Opp. at
15). As made clear in his brief, “Plaintiff has been using ‘accrued time’ ... for multiple
days during weeks Defendants have arbitrarily required Plaintiff to forgo his prayer
practice”—now, every week (see MPI Ex. C)—which “prevents] irreparable harm to
Plaintiff on at least those days.” (See MPI Br. at 13-14). The need to use accrued time
this way arises solely because of Defendants’ unlawful religious discrimination. The only
reason Plaintiff does not use accrued time on both “Monday” and “Wednesday” is
because it “will run out” (see Compl. MPI Ex. B); and Defendants have threatened to
penalize Plaintiff if he works from home as necessary to pray—completely consistently
with his job responsibilities—without using accrued time (see, e.g., Compl. Ex. D at 2-3)
12
- App. 132 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 13 of 29 PagelD: 222

C. Balancing of the Equities
Defendants already concede that “[t]he harm allegedly suffered by Plaintiff.. . is
difficult, if not impossible, to quantify and thus even more challenging to remedy.” (See
Opp. at 3).

They also concede that Plaintiff has identified additional harm he is

suffering—“adverse spiritual, psychological and even physical effects”—but that this
formulation is not “specific” enough in Defendants’ estimation. (See, e.g., Opp. at 15).
Defendants could have answered their own desire for specificity by actually reading the
Complaint and other record documents: In addition to the irreparable harm of burdened
free exercise, Plaintiff has identified numerous specific examples of harm inflicted on
him by Defendants’ unlawful discrimination: “experiencing anxiety or dread during time
in the office as well as during nights before going to the office;” “being unable focus on
and complete work efficiently;” “suffering sleep problems or headaches;” and bearing the
unfair financial disadvantage of being forced by Defendants to use accrued time in order
to engage in his prayer practice; and more. (See Compl. f 25; MPI Ex. B; see also MPI
Br. at 15 (“Plaintiff often works from home normally and efficiently even on days when
using accrued time”)). Yet, despite their desire for specificity when they hope it will
harm Plaintiffs case, Defendants still have not identified a single specific fact or concrete
example in support of their totally untailored religious discrimination.
In contrast to Plaintiff, Defendants claim, Defendants would suffer “actual harm”
if the Court granted preliminary relief. (Opp. at 18). This assertion is as unfounded now
as it was when Defendants first made it (Compl. Ex. D at 2-3) and then refused to defend
it (Compl. Ex. G). The past several months have made this abundantly clear: None of the
purported reasons Defendants gave for categorically prohibiting Plaintiffs prayer
practice has ever applied. (See MPI Ex. A ^ 3-6). The extent of “actual harm” identified
by Defendants is limited to the paragraph of vague assertions in their memorandum that

13
- App. 133 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 14 of 29 PagelD: 223

initially denied Plaintiffs request for a religious accommodation. (See Opp. at 17-18
(citing Compl. Ex. D at 2-3)).

These vague assertions have already been debunked—

repeatedly. (See, e.g., Compl. Ex. E at 2-6; Compl.

35-67; MPI Br. at 12-14; see also

MPI Br. at 12 n.5). And the Supreme Court has made clear that stating putative interests
“at a high level of generality” is not sufficient to justify Defendants’ discrimination: “the
First Amendment demands a more precise analysis.” See Fulton, (slip op.) at 13-14.
But not only have these vague assertions been repeatedly debunked: Even now
Defendants fail to offer a single concrete fact or specific example in support of them, as
is evident from the certification of Defendant Imhof. (Opp. Ex. B).14 Other than a press
release (Opp. Ex. A), the certification of Defendant Imhof is the only putative evidence
offered by Defendants—yet it contains only vague assertions and uncontested
observations without citing any concrete fact or specific example that could even
potentially justify Defendants’ religious discrimination.
A particularly telling example is Defendants’ repeated, vague assertions regarding
“emergent matters” (Opp. Ex. B at

8), that “emergent matters that arise may require

immediate response that would necessitate [Plaintiffs] presence in the office” (Opp. at
18 (citing Compl. Ex. D at 2)). To someone who has no idea what is going on, that
statement could potentially sound persuasive. But as Plaintiff has made clear (and
declared under penalty of perjury): During the entirety of a year in Plaintiffs present
position, “there has never been an emergent matter that necessitated [his] immediate
physical presence in the office;” and Plaintiff is not even “sure what such a hypothetical
scenario would be like,” nor do Defendants provide any insight on this mystery even now.

14

Defendant Imhof s certification fails to comply with 28 U.S.C. § 1746 (e.g., it
fails to certify “under penalty of perjury”). See L. Civ. R. 7.2(a) (listing “affidavits,
declarations, [and] certifications” in reference to 28 U.S.C. § 1746). Regardless, as
explained above, it does not controvert any material fact in the record.
14
- App. 134 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 15 of 29 PagelD: 224

(See, e.g., MPI Ex. A U 4; Compl.

40). Plaintiffs testimony is entirely uncontroverted

and the closest Defendants even come to addressing it is the additional vague assertion
that “emergent matters . . . often arise in Plaintiffs line of work.” (See Opp. at 13-14).
Yes, emergent matters often arise within a legal “line of work” generally—but not in
Plaintiffs employment specifically. (See, e.g., MPI Ex. A 4; Compl. f 40). Defendants
apparently do not even try to dispute this fact. Nor do Defendants explain why in the
event such a rare and hypothetical scenario comes to pass “Plaintiff could not simply
drive to the office immediately” from his nearby home. (See Compl.

40 & 65; see also

Compl. Ex. E at 5 n.3 (“The drive to the office from [Plaintiffs] home is approximately
twenty minutes.”)).
Another telling example is Defendants’ continued, misplaced reliance on potential
in-person obligations such as witness interviews or court presentations. (Opp. Ex. B at f
8). As Plaintiff made clear before filing this action, and even clearer when he declared
under penalty of perjury in his motion papers: “To be clear, and to reiterate, the requested
accommodation would not interfere with in-person observation of witness interviews” or
court appearances (Compl. Ex. E at 2); “all in-person court appearances, witness
interviews, or other in-person obligations for which [Plaintiff] ha[s] been responsible
have proceeded normally and efficiently, including on days [he] was workingfrom home”
(MPI Ex. A 3 (emphasis added)). Plaintiff is “fully willing to be physically present for
anything required by [his] job responsibilities—including, for instance, in-person court
appearances, witness interviews, or any other obligation.” (MPI Ex. A f 9). Again, this
testimony is entirely uncontroverted and Defendants do not address it factually.
Additionally—and, predictably, vaguely—Defendants appeal to “collaboration]”
(Opp. Ex. B at 8) and “ad hoc meetings” (Opp. at 13). Yet Defendants again fail to offer
evidence on this putative interest, and fail to controvert Plaintiffs evidence: Ad hoc

15
- App. 135 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 16 of 29 PagelD: 225

meetings are rare (Compl. U 38), like in-person meetings generally (Compl. Ex. E at 4);
“ad hoc” meetings conducted in person in the office have been indistinguishable from “ad
hoc” meetings conducted electronically while working from home (MPI Ex. A f 5); and
electronic meetings are “efficient or even seamless” and are often Defendants’ and
Plaintiffs supervisor’s chosen method of meeting (Compl. K 39). Defendants utterly fail
to explain with any fact or example why permitting Plaintiff to participate in such
meetings or collaboration electronically would “requirfe] unreasonable expense or
difficulty [or] unreasonable interference with the safe or efficient operation of the
workplace”—or how doing so would place even a small burden on Defendants. (Compl.
1[38 (quoting N.J.S.A. 10:5-12(q)(3)(a)).15
As with each putative interest: Defendants make a vague assertion at a high
level of generality, see Fulton, (slip op.) at 13-14, without even trying to connect it to
Plaintiffs employment specifically; Plaintiff debunks it with a clear explanation and
citation to evidence; and Defendants fail to respond with anything but another vague
assertion—let alone a shred of evidence to the contrary.
In their brief and accompanying papers, Defendants illicitly attempt to supplement
their rationale for religious discrimination—despite previously “standing] by” that
plainly deficient rationale as the exclusive rationale for their religious discrimination.
(See MPI Br. at 6 n.3 (citing Compl. Ex. G)).16 Regardless, the interests they attempt to

15

Plaintiff recognizes that in-person meetings may sometimes be reasonably
necessary (Compl. Ex. E at 4 n.2) although they have generally been quite rare (Compl.
Ex. E at 4 (“On very rare occasions—perhaps three over the course of the year—a
supervisor scheduled an in-person meeting for which physical presence was requested but
not immediately required.”)). Again, Plaintiff is “fully willing to be physically present
for anything required by [his] job responsibilities—including, for instance, in-person
court appearances, witness interviews, or any other obligation. ” (MPI Ex. A U 9
(emphasis added)).
16

Defendants chose to “stand by” the reasons originally offered as the sole rationale
for their religious discrimination, and refused to offer any additional reason when Plaintiff
16
- App. 136 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 17 of 29 PagelD: 226

smuggle in now are equally without merit. For instance, after never mentioning the issue
before, Defendants now vaguely assert that “department heads . . . had been taking on
many of the responsibil ities of assistant prosecutors” (see Opp. Ex. B at ^ 5 & 8) but do
not even attempt to connect this vague assertion to Plaintiff. Nor could they: Plaintiff is
not aware of a single occasion on which a “department head,” or anyone, “took on” any
of his job responsibilities, nor do Defendants identify even one such occasion. Similarly,
after never mentioning a putative interest in Plaintiffs “growth and development”
through “observation of] colleagues at other trials,” they now cite this as a reason for
categorically discriminating against Plaintiffs religious practice. (See Opp. Ex. B at f 8).
Yet, as with each putative interest debunked previously, Defendants have provided zero
evidentiary basis in support of the putative interest: Plaintiff is not aware of a single
occasion on which Defendants (or Plaintiffs supervisor) requested that Plaintiff observe
another attorney’s trial—nor would Plaintiff have objected to doing so had Defendants
made this request. As explained repeatedly. Plaintiff is “fully willing to be physically
present for anything required by [his] job responsibilities—including, for instance, inperson court appearances, witness interviews, or any other obligation,” such as observing
a trial (MPI Ex. A | 9); and, again, Plaintiff is fully willing to be physically present
whenever “accommodating [his] religious need would cause undue hardship.” (Compl.
Exs. A & B; Compl. Ex. E at 3; MPI Br. at 12 n.6).

asked Defendants before fding this lawsuit. “Neither you nor anyone else has any . . .
additional reason or explanation [for categorically denying Plaintiffs request for a
religious accommodation]?” (Compl. Ex. G). That Defendants are smuggling in new
reasons for their discrimination now—after requiring Plaintiff to sue and seek emergency
relief—means the reasons originally offered were pretextual: at the very least, that they
were not the reasons that “actually motivate[d]” Defendants’ decision to deny Plaintiff a
religious accommodation. See Fuentes v. Perskie, 32 F.3d 759, 764 (3d Cir. 1994).
17
- App. 137 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 18 of 29 PagelD: 227

Defendants—in their brief but, tellingly, not their certification—vaguely suggest
that permitting Plaintiff to work from home as necessary to pray would lead to a lack of
“availability” or “effectiveness decline.” (Opp. at 19). Yet they do not cite a single fact
to support this vague suggestion and do not address Plaintiffs testimony to the contrary.
(See MPI Ex. A

3-9 & 17). Defendants have also apparently chosen to remain willfully

ignorant of information known by Plaintiffs supervisor regarding Plaintiffs excellent
availability and efficiency when working from home.17 For instance, when working from
home, Plaintiff “completed assignments so quickly and thoroughly [(e.g., on May 6)] that
it has surprised” his supervisor. (Compl. Ex. E at 6 n.4). And Plaintiffs availability
when working from home—e.g., the frequency and speed with which he answers work
related phone calls; his exemplary average response time to email communications; and
his willingness to take on, or even volunteer for, and complete any assignment at any time,
even outside of working hours—has always been exceptional. (See id. (“For instance,
while being permitted to work from home, I have volunteered additional assistance many
times; have expressly remarked that I am happy to take more work; and have completed
assignments so quickly and thoroughly that it has surprised my supervisor.”)). And being
forced to forgo his prayer practice hampers Plaintiffs work efficiency: Plaintiffs “prayer
practice has never interfered in Plaintiffs work, work efficiency, or responsiveness to

17

A complete failure by Defendants to consult Plaintiffs supervisor regarding this
highly relevant information would be an inexcusable failure in diligence. See Fed. R. Civ.
P. 11(b) (requiring “an inquiry reasonable under the circumstances”); New Jersey Rule
of Professional Conduct 1.3 (“A lawyer shall act with reasonable diligence and
promptness in representing a client.”); L. Civ. R. 103.1(a); Compl. f 65 (observing that
Plaintiffs supervisor “could have informed Defendants” of relevant information).
In the alternative, if Defendants and Defendants’ counsel consulted Plaintiffs
supervisor and are aware of this highly relevant information but have hidden it from the
Court, they apparently have “misle[d] the tribunal.” See New Jersey Rule of Professional
Conduct 3.3(5); Fed. R. Civ. P. 11(b)(3) (requiring that “factual contentions have
evidentiary support”).
18
- App. 138 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 19 of 29 PagelD: 228

work communications. In fact, it greatly assists Plaintiff in his work” (Compl.

23

(emphasis added)).
Despite the transparent weakness of these vague, evidence-free “interests,”
Defendants assert that it is “quite clear that in balancing the equities, Defendants would
be far more harmed by the granting of the preliminary injunction than Plaintiff would by
its denial.” (Opp. at 19). Defendants would have the Court accept this assertion despite
their concession that Plaintiff suffers irreparable harm—harm, in Defendants’ words,
“difficult, if not impossible, to quantify and thus even more challenging to remedy” (Opp.
at 3)—as well as other harm (Opp. at 15) and despite offering zero evidence in support of
any harm that Defendants would suffer if the Court were to grant preliminary relief (see
generally Opp. Ex. B). Yet the assertion is not only totally unsupported and contradicted;
it makes no sense to begin with: If the Essex County Prosecutor’s Office can maintain
its important responsibility to serve the public when everyone is working from home for
secular reasons during a year (see Opp. at 20), the Court should be “at a loss to
understand” why Defendants are now saying they cannot permit a single person to work
from home for religious reasons—at all, ever. See Fraternal Order, 170 F.3d at 367.
D. Public Interest18
Defendants’ arguments on this factor cannot pass the straight-face test. After
completely omitting concern for Plaintiffs professional development in the
extraordinarily weak rationale they “st[ood] by” previously (see Compl. Ex. G; supra,
note 16), Defendants now would have the Court accept as a foremost reason against
granting the motion that permitting Plaintiff to work from home as necessary to pray

18

Continuing their string of failures to engage in basic legal research and consult
Supreme Court precedent, Defendants have not noted that the balance-of-equities and
public-interest factors “merge when the Government is the opposing party.” See Nken v.
Holder, 556 U.S. 418, 435 (2009). Because Defendants have distinguished these two
factors for separate analysis, this reply’s structure will reflect that distinction.
19
- App. 139 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 20 of 29 PagelD: 229

would be “harmful to public interest” because Plaintiff would not “adequately develop
professionally.” (See Opp. at 20). Defendants, however, cannot speculate and “assume
the worst” simply because Plaintiff is seeking a religious accommodation. See Tandon,
141 S. Ct. at 1297; Sherbert, 374 U.S. at 407. Yet an assumption of the worst is exactly
what Defendants’ speculative assertion reduces to. (See also Opp. at 7 (“anticipating]”
that “remote work is insufficient”); Compl. Ex. E at 2 & 5 (explaining that vague
“anticipation” and speculation about “some point in the future” cannot justify Defendants’
categorical religious discrimination)). Furthermore, being forced to forgo his prayer
practice—regardless of the “needs of the office” (see Compl. Ex. D at 2)—severely
hampers Plaintiff’s professional development and wellbeing on multiple levels. (See
Compl. 1J25; MPI Ex. A If 17).
Defendants’ remaining attempts to make an argument in this section similarly fall
flat: For instance, Defendants assert a “likelihood” that “working from home would cause
difficulties in handling [a] burdensome case load.” (Opp. at 20). But Plaintiff already
refuted this non-point months ago: Defendants “conspicuously ignore[] the fact that [an
accommodation granted] could be tailored if necessary in the future;” and “[a]t most, an
increased workload may make the circumstances under which it is reasonably necessary
to be in the office more frequent; and, “again, such circumstances are contemplated by
the Request for Accommodation"’ itself. (Compl. Ex E at 5; Compl. Exs. A & B).
These weak attempts at arguments do not even come close to showing that it
would be in the public interest to permit Defendants.to continue to burden Plaintiffs free
exercise: “[I]t is always in the public interest to prevent the violation of a party’s
constitutional rights.” See Am. Bev. Ass’n v. City and Cty. ofS.F., 916 F.3d 749, 758 (9th
Cir. 2019) (en banc); Tenafly Eruv Ass’n v. Borough ofTenafly, 309 F.3d 144, 178 (3d
Cir. 2002) (“[T]he public interest clearly favors the protection of constitutional rights.”).

20
- App. 140 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 21 of 29 PagelD: 230

Even the public’s compelling interest in “[sjtemming the spread” of a virus
during a pandemic, cannot justify totally untailored religious discrimination like
Defendants’.

See, e.g., Roman Catholic Diocese, 141 S. Ct. at 67 (emphasis added);

Fraternal Order, 170 F.3d at 366-67. And permitting Plaintiff to work from home as
necessary to pray would actually advance the public’s interest in stemming the spread of
the virus during this pandemic. See Alabama Association, (slip op.) at 8; (see, e.g., supra,
note 7). Even though Defendants used this putative interest to suspend the requirement
that “all employees ” report physically to work for prolonged periods (Opp. at 2), they
have apparently given it zero weight in their calculated decision to discriminate against
Plaintiffs religious practice.
This is pure discrimination against religion: Defendants’ discriminatory “value
judgment that secular (i.e., medical) motivations . . . are important enough to overcome
its general interests] . . . but that religious motivations are not” cannot stand. See
Fraternal Order, 170 F.3d at 366; (MPI Br. at 5-16).
II.

Defendants’ Factual Mischaracterizations (or Misrepresentations)
That Defendants’ legal arguments are baseless, and because they utterly failed to

carry their burden under the applicable standard, see, e.g., Reilly, 858 F.3d at 180, suffice
to refute their assertion that the Court should deny the motion. But several of Defendants’
factual mischaracterizations—if not downright misrepresentations—require at least brief
responses in support of the same conclusion:
•

Defendants’ opening statement falsely asserts that Plaintiff argues that Defendants’
August 2 decision “to have all employees return to the office . . . constitutes a
discriminatory policy in violation of [Plaintiffs] right to the free exercise.” (Opp. at
1). To be clear, Defendants’ August 2 exercise of discretion is a result of their policy,
formal or informal, that permits Defendants to make value judgments about which

21
- App. 141 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 22 of 29 PagelD: 231

reasons are adequate to permit working from home: Defendants’ policy permits them
arbitrary discretion to favor secular reasons for working from home over religious
reasons, and they in fact exercised their discretion in that fashion for more than a year.
The “discriminatory policy” itself, however, is Defendants’ categorical discrimination
against religion expressed explicitly in a memorandum:

According to that

memorandum, religion can never be an adequate basis to permit workfrom home as
necessary to pray at all, to any extent, under any circumstances “presently or in the
future. ” (Compl. Ex. D at 2-3). Even milder religious discrimination would violate
the Free Exercise Clause, but here Defendants have chosen a position of extreme
intolerance and hostility to religion glaringly evident not only in the facts of this case
but even in their brief. (See, e.g., Opp. at 5, 6 & 17 (derisively referring to the
religious need to pray in scarequotes multiple times); Opp. at 3).
•

Defendants repeatedly make false assertions like, “Plaintiff [seeks] unilateral
authority to simply come and go as he pleases, with no recourse available to his
employer.” (Opp. at 4; see also, e.g., Opp. at 3, 5, 8 (falsely accusing Plaintiff of
seeking “unfettered authority to determine the nature of his employment”) & 13). To
be clear, Plaintiff seeks only the exact same accommodation that was extended to
employees for secular reasons for more than a year, to work from home as a general
matter and to be physically present whenever reasonably necessary or, as Defendants’
put it, “based on the needs of the office.” (See Compl. Ex. D at l).19 In other words,
Plaintiff simply requested that the “status quo continue” (Compl. Ex. C): that the

19

Here, Plaintiff could again observe that he is “fully willing to be physically present
for anything required by [his] job responsibilities—including, for instance, in-person
court appearances, witness interviews, or any other obligation” (MPI Ex. A ^ 9)—-but
only in an echo chamber of willful ignorance and religious animus would this not already
be clear.
22
- App. 142 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 23 of 29 PagelD: 232

status quo that permitted “all employees [to] work[] from home full-time” for secular
reasons (Opp. at 2) continue for Plaintiff for religious reasons. This was made
especially clear during the May 6 meeting (see Compl.

11-12) when Defendants’

counsel, Ms. Courtney Gaccione, expressed puzzlement over the meaning of the term
“status quo.” That was Plaintiffs request then and it is Plaintiffs request now.
Defendants attempt to mislead by mischaracterizing what Plaintiff is seeking, which
was proven to be efficiently administrable for hundreds of employees for more than
a year and, obviously, did not accord them “unfettered authority to determine the
nature of [their] employment.” (Opp. at 8; MPI Br. at 12 n.5).20
•

Defendants assert that their proposed “accommodations” are “generous” and “more
than reasonable.” (Opp. at 16 & 17). But these are not accommodations at all, which
has already been explained to Defendants multiple times. (See Compl. Ex. E at 7-9;
Compl.

55-50; MPI Br. at 4). They are better described as anti-accommodations,

which not only would require Plaintiff to forgo his prayer practice but would also
impose significant burdens on Plaintiff:

0)

Defendants’ foremost “offer” of an “accommodation” is literally no
accommodation: that Plaintiff “may continue to engage in pray” under the
circumstances which Plaintiff informed Defendants his religious convictions
do not permit him to do so, the circumstances from which Plaintiff requested
an accommodation in the first place. {See Compl. Exs. A, B & D at 3; MPI

20

A variation on the flavor of the false assertions discussed in this paragraph is that
“Plaintiff contends that unless the Court holds that Plaintiff can work exclusively from
home, Plaintiffs rights under State and Federal law, will be unduly burdened.” {See Opp.
at 13). Plaintiff has never asked to work “exclusively from home”—this is a blatant
mischaracterization or downright misrepresentation—and, in fact, he has made clear on
more than five occasions now that he seeks to work from home only when doing so would
not impose a hardship on Defendants. (Compl. Exs. A & B; Compl. Ex. E at 3 & 10;
Compl. | 10; MPI Br. at 12 n.6).
23

- App. 143 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 24 of 29 PagelD: 233

Ex. A | 13; see also Opp. at 16 (outrageously calling “let[ting] Plaintiff pray
in his office . .. generous”)).
(2)

Defendants’ second offer of an “accommodation” would require Plaintiff to
forgo the spontaneous nature of his prayer practice and commute to a nearby
public park in order to pray. (Compl. Ex. D at 3). Defendants even concede
that this “accommodation” would “curtail the spontaneous nature of
[Plaintiffs] prayer and it would also subject [him] to being seen and heard by
others.” (Compl. Ex. D at 2). What’s more: This “accommodation” would
“require Plaintiff—multiple times every day, regardless of the weather—to
cross a busy street twice, hike up and down wooded hills and muddy terrain
in work attire, and search for [and hope to find] secluded areas spread across
400 acres”—all while away from his work computer. (Compl. f 56). This list
of burdens imposed on Plaintiff is non-exhaustive. In what sense any of this
could be described as an “accommodation”—let alone a “generous” one—is
a mystery.

(3)

Defendants’ third offer of an “accommodation,” similarly, would require
Plaintiff to forgo the spontaneous nature of his prayer practice or the
connection to creation that it requires. (See, e.g., Compl. ^ 21 (noting that an
element of Plaintiffs prayer practice is “perceiving and contemplating the
handiwork of the Creator, such as by looking up at the sky”)). In other words,
Plaintiff must refrain from praying until he commutes to a soundproof room
with no windows and no connection to nature—or be confined to that room
all day every day. (Compl. Ex. D at 3).
Defendants’ “accommodations,” therefore, are thinly-disguised efforts to

force Plaintiff to change his religious practice. They also make no sense to begin

24
- App. 144 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 25 of 29 PagelD: 234

with: For instance, Defendants would always permit Plaintiff to be out of the office
to range “a four hundred (400) acre property ... so long as it does not adversely
impact [his] work responsibilities,” but never permit Plaintiff to be out of the office
to work at his nearby home as necessary to pray on the very same condition. (Compl.
Ex. D at 2-3). This fact alone refutes Defendants’ entire position (see Compl.
44-51) and again shows that religious animus is the only plausible explanation
for Defendants’ categorical refusal to accommodate religion at all.11
•

Defendants assert that the “remote work [they] allowed” constituted “neutral
measures applied to all employees equally.” (Opp. at 18). But apparently Defendants
do not have the facts of their own employment straight: Employees in some units were
permitted to work at home fulltime while at the same time others (e.g., Plaintiff) were
permitted to work at home only halftime, and Defendants shifted these policies around
multiple times. (MPIEx. A^[ 10-12; Compl. ffl[ 16-18). Defendants even considered
and categorically denied Plaintiffs religious accommodation request—during April
26,2021, to May 21,2021 —during the very time they were already granting the exact
same accommodation to other employees for secular reasons. (Compl. U 81; MPI Ex
A

10 & 11). If this is not evidence of extreme hostility to religion, it is not clear

what would be—short of explicit examples of derision such as those found in
Defendants’ brief. (See, e.g., Opp. at 5, 6 & 17; Opp. at 3).
•

Defendants falsely assert that “Plaintiff requested to be transferred to the Appellate
[Section] in an effort to not be bound by the impending schedule changes which would

21

As explained above, Defendants’ illicit attempt to shift the burden to explain why
those “accommodations” are unreasonable in order to prevail on this motion turns the law
on its head. See Gonzales, 546 U.S.at 429; Ashcroft, 542 U.S. at 666; Reilly, 858 F.3d at
180; Fraternal Order, 170 F.3d at 366; N.J.S.A. 10:5-12(q)(l); see also Greater Phila.
Chamber of Commerce v. City of Philadelphia, 949 F.3d 116, 133 (3d Cir. 2020) (“In
First Amendment cases the initial burden is flipped.”).
25
- App. 145 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 26 of 29 PagelD: 235

not permit him to work from home.” (Opp. at 8). Plaintiff requested to transfer to the
Appellate Section in April, when there were no “impending schedule changes,” based
on his genuine interest, the encouragement of a wise and respected colleague, and his
belief that his abilities would better serve the office there. That “remote work is even
more easily accommodated” there is, indeed, an additional reason Plaintiff would
wish to transfer there (see MPI Ex. B) but raises the question why Defendants—who
do not dispute that remote work is more easily accommodated there—have not so
much as recognized this as a viable future accommodation (see MPI Br. at 14 n.7).
•

Defendants assert —so falsely, and with such a palpable lack of self-awareness—that
Plaintiff has been “clearly uninterested in a compromise of any nature.” (See Opp. at
12). It is Defendants, however, that have inexplicably refused to accommodate
Plaintiffs prayer practice “even by one day, hour, or minute” (Compl. Iflj 53, 54 &
78), even while permitting others to work from home fulltime for secular reasons
(Compl.

81; MPI Ex A

10 & 11). Defendants also refused to provide any

substantive reply to Plaintiffs “thorough and carefully-researched response” to their
denial of his request for a religious accommodation (Compl. ^ 60); and they even
refused to respond when asked whether there was any way to appeal their extreme
denial of Plaintiff s request, raising significant due process concerns (see Compl. Ex.
G). Plaintiff, in contrast, endeavored to reason with Defendants in good faith before
filing this action (see Compl. Exs. E, F & G) and informed Defendants shortly after
filing this action that he is “always willing to work toward a just resolution”—a
communication which Defendants entirely ignored. (MPI Ex. B; MPI Br. at 15).
Defendants have even inappropriately and ironically sought to use Plaintiff’s
willingness to be physically present at work when reasonably necessary against him.
(Opp. at 15).

26
- App. 146 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 27 of 29 PagelD: 236

•

Defendants claim that the relief requested (MPI Br. at 17; D.E. No. 8-5) is
“exceptionally vague” (Opp. at 4). The relief requested, however, is substantially
identical to the relief granted and affirmed by the Court of Appeals in Fraternal Order,
see 170 F.3d at 361 & 367, which is on all fours with this case, but that Defendants
do not cite even one time. In Fraternal Order, the District Court enjoined the
government employer “from disciplining or otherwise disadvantaging Plaintiffs . . .
for violating Order 71-15 or any other directive which would require them to shave
or trim their beards in violation of their religious beliefs.” Id. at 361; (see also MPI
Br. at 10-11 (discussing the overwhelming analogy of Fraternal Order to this case)).
Here, Plaintiff has proposed that the Court enjoin Defendants “from disciplining or
otherwise disadvantaging Plaintiff simply for praying in accordance with his religion,
including at home on work days.” (D.E. No. 8-5). But the word choice for any relief
granted is fully within the Court’s discretion and could just as easily say: “Defendants
are enjoined from disciplining or otherwise disadvantaging Plaintiff for violating the
May 12, 2021 Memorandum (Compl. Ex. D) that categorically discriminates against
religion, or any other directive which would require him to forgo prayer in violation
of his religious beliefs.” The precise parallel to the relief granted in Fraternal Order
is crystal clear. And Plaintiff—consistent with his desire not to impose hardship on
Defendants and for the sake of clarity—added that the Court would “not” be enjoining
“anything else, including disciplining Plaintiff or any employee for any act or
omission inconsistent with any job duty, obligation, rule, or responsibility.” (See D.E.
No. 8-5). The requested relief would not only be clear and substantially identical to
that granted in Fraternal Order. Defendants would already know exactly what it

27
- App. 147 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 28 of 29 PagelD: 237

entails because it would preserve the status quo under which the parties operated when
Plaintiff was permitted to work from home for secular reasons.22
CONCLUSION
Defendants’ legal arguments are baseless; they neither carried their burden under
the applicable standards nor cited any concrete fact or specific example in support of their
discrimination; and by repeatedly mischaracterizing or misrepresenting facts—and even
deriding religion in their brief—they rear the ugly face of their entrenched desire to
burden Plaintiffs free exercise.
For the reasons discussed in Plaintiffs brief and reiterated herein, Plaintiff
respectfully requests that the Court grant preliminary relief. 23

Respectfully submitted,
/s/ Alex G. Leone
Alex G. Leone
P.O. Box 1274
Maplewood, New Jersey 07040
aleone@jdl6Jaw.harvard.edu

22

The unfounded notion that the relief sought is “vague” was Defendants’ foremost
point in support of their defamatory assertion that the motion “is frivolous.” (See D.E.
No. 10-1 (Ex. A)). At minimum, the choice to send Plaintiff the letter containing that
assertion now appears even more likely to have been highly unethical: Whereas that letter
threatened that Plaintiff must “withdraw [the] motion” or else Defendants will “seek
sanctions,” Defendants have not even attempted to argue in their brief that any aspect of
the motion is frivolous—or that there is any basis for sanctions. (See id.) Accordingly,
it is difficult if not impossible to avoid the inference that the letter was simply a legallybaseless attempt to bully Plaintiff into withdrawing the motion so that Defendants could
gain a strategic advantage in this case—an unethical embarrassment.
23

Plaintiff apologizes for the length of this brief and respectfully requests leave to
file it without a separate docket entry and despite the page limit prescribed in the Local
Rules. See L. Civ. R. 7.2(b). Counsel for Defendants has consented.
The length of this brief was determined not only by the need to illuminate
Defendants’ fundamental errors of law and to refute their factual mischaracterizations or
misrepresentations, but also to leave no doubt regarding Defendants’ defamatory
assertion that the pending motion “is frivolous.” (See D.E. No. 10 Ex. A; see also supra,
note 22).
28
- App. 148 -

Case 2:21-cv-12786-SDW-ESK Document 13 Filed 08/31/21 Page 29 of 29 PagelD: 238

CERTIFICATE OF SERVICE
Alex G. Leone hereby certifies that this brief is served electronically on the defendants in
this matter and their counsel on August 31, 2021. See L. Civ. R. 5.2, Section 14(b)(1).

/s/ Alex G. Leone
Alex G. Leone
P.O. Box 1274
Maplewood, New Jersey 07040
aleone@jdl6.Iaw.harvard.edu

29
- App. 149 -

1

1

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY

2
3

CIVIL ACTION NUMBER:
ALEX G. LEONE,

4

2:21-cv-012786-SDW
Plaintiff,

5

ORAL ARGUMENT
v.

6
7
8
9

Pages 1-29
ESSEX COUNTY PROSECUTOR'S
OFFICE, THEODORE STEPHENS
II, ROMESH SUKHDEO,
GWENDOLYN WILLIAMS, and
ROGER IMHOF, in their
individual and official
capacities,

10
Defendants.
11
12
13
14
15

Martin Luther King
50 Walnut Street
Newark, New Jersey
Tuesday, September
Commencing at 3:06
BEFORE:

Building & U.S. Courthouse
07101
7, 2021
p. m.
THE HONORABLE SUSAN D. WIGENTON,
UNITED STATES DISTRICT JUDGE

16
17
18
19
20
21
22

Joanne L. Sekella
Official Court Reporter
sekella@gmail.com
(908) 310-1177
Proceedings recorded by mechanical stenography; transcript
produced by computer-aided transcription.

23
24
25

- App. 150 -

United States District Court
District of New Jersey

2

1
2
3

APPEARANCES:
ALEX G. LEONE, PRO SE
PO Box 1274
Maplewood, New Jersey 07040
aleone®jdl6.law.harvard.edu

4
5
6
7

GENOVA, BURNS, GIANTOMASI & WEBSTER, ESQS.
BY:
ERICA CLIFFORD, ESQUIRE
494 Broad Street
Newark, New Jersey 07102-3230
(973) 533-0777
keinhorn@genovaburns.com
For the Defendant

8
ALSO

PRESENT:

9
Courtney Gaccione, Essex County Prosecutor's Office
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

- App. 151 -

UNITED STATES DISTRICT COURT
District of New Jersey

3

1

INDEX

2
3
4

ARGUMENT BY PLAINTIFF

5

5

ARGUMENT BY DEFENDANT

18

6

REPLY ARGUMENT BY PLAINTIFF

21

7

COURT'S DECISION ON REQUEST FOR PRELIMINARY
INJUNCTION

23

COURT'S DECISION ON REQUEST TO STRIKE THE
ANSWER

28

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

- App. 152 -

United States District Court
Newark, New Jersey

Colloquy

1
2

(PROCEEDINGS held remotely before The Honorable
SUSAN D. WIGENTON, United States District Judge, at 3:06 p.m.)

3

THE COURT:

Good afternoon, everyone.

4

MR. LEONE:

Good afternoon, Judge.

5

THE COURT:

This is the matter of Alex

7

MR. LEONE:

Leone is good, Judge.

8

THE COURT:

Very good.

6

10

Thank you.

Alex Leone vs. Essex County Prosecutor's Office,
et al. under Docket Number 21-12786.

11

And we will have appearances entered first and then

12

we will go from there.

13

Mr. Leone.

14
15

is it Leone

or Leone?

9

MR. LEONE:

And we will start with you first,

Yes, Judge.

Alex Leone for myself, the

plaintiff.

16

THE COURT:

17

And I don't know, are we going to you, Ms. Clifford,

18
19

- App. 153 -

4

All right, very well.

or. . .
MS. CLIFFORD:

Your Honor, Erica Clifford from Genova

20

Burns, on behalf of defendants, Essex County Prosecutor's

21

Office, Theodore Stephens, II, Romesh Sukhdeo, Gwendolyn

22

Williams and Roger Imhof.

23

THE COURT:

24

And, Ms. Gaccione, if I am saying that right.

25

MS. GACCIONE:

All right, very well.

Good afternoon, Your Honor.

United States District Court
District of New Jersey

I am not

Colloquy

1

making an appearance in this matter.

2

representing the County of Essex, but I will not be appearing

3

on the record.

4
5

THE COURT:

I am in this case just

All right, very well.

Thank you for

entering your appearance.

6

So we are set down today, I scheduled this for an

7

oral hearing in light of the application that has been filed

8

by Mr. Leone in this matter for a preliminary injunction and

9

injunctive relief.

10

I have read the submissions that have been provided

11

to the Court and wanted to give an opportunity to be heard as

12

it relates to the claims.

13

So I will hear from you first, Mr. Leone.

14

read what you have submitted, but to the extent you want to

15

expound upon that a little bit, you are certainly free to do

16

so.

17
18
19

- App. 154 -

5

I have

ARGUMENT BY PLAINTIFF
MR. LEONE:

Thank you, Judge.

Good afternoon and may

it please the Court.

20

If I may just begin by briefly addressing a few facts

21

in the case that are based on some record documents and then I

22

can walk more methodically through preliminary injunction

23

factors, if it would please the Court.

24

I know Your Honor said that Your Honor has read all the

25

submissions.

I will keep it brief.

United States District Court
District of New Jersey

Colloquy

1

So I will begin with Exhibit A of the complaint,

2

which was the request for religious accommodation in this

3

matter.

A few things to note about that.

4

The request for accommodations specifically asks

5

accommodation only to the extent that it would not put an

6

undue hardship on the defendants.

7

In addition, it requests only that the same status

8

quo that was extended to employees, including myself, for

9

secular reasons permitting them to work from home be extended

10

to me for religious reasons.

11

I just wanted to note that about Exhibit A to the

12

complaint, and then as important as is Exhibit A to the

13

complaint is Exhibit D of the complaint, which is the denial

14

of that request.

15

about that.

16

And there would be a few things that I note

I think first and foremost that it's important to see

17

that it's a categorical denial, that it doesn't permit

18

accommodation to any extent, even on the important condition

19

in the request itself, which was that accommodation not put

20

any hardship or undue hardship on the defendants.

21

- App. 155 -

6

The denial is categorical.

It says, essentially,

22

under no circumstances that that request can be granted, even

23

now or in the future.

24

religious request for especially harsh treatment that it did

25

not

To that extent, it is singling out this

that the defendants in this matter did not treat

United States District Court
District of New Jersey

Colloquy

1
2

secular reasons for working from home in that way.
And then I think in addition to those two exhibits,

3

Exhibit A of the complaint and Exhibit D of the complaint,

4

it's important to be aware of the factual context in which

5

these were made.

6

The denial occurred at the very time the defendants

7

were already granting the very same accommodation requested to

8

other people for secular reasons.

9

the defendants didn't permit any further discussion or appeal

And in addition to that,

10

of the denial.

11

the defendants don't answer when I asked if there was any way

12

to appeal it.

13

And that's in Exhibit G of the complaint where

I think that those facts, taken together based on the

14

record documents and the context, really tell the story of

15

this case.

16

And if now it would please the Court, I can walk more

17

methodically through the preliminary injunction factors.

18

It's important to have the right standard here.

I

19

think there was an issue that came up in the briefing.

20

think the right standard is essentially summarized in Reilly

21

and then applied by later cases.

22

- App. 156 -

7

I

It's important to note that the defendants also have

23

an obligation on this motion.

24

of the test is that if I show that they are burdening my for

25

exercise, then they have a burden to justify that infringement

I think that my understanding

United States District Court
District of New Jersey

Colloquy

1

for exercise under the appropriate level of legal scrutiny.

2

And to the extent that they don't,

3

including Ashcroft v ACLU, which is cited in Reilly that I

4

must be deemed likely to prevail on the merits.

5

So on this first factor,

I think that the cases say,

I think it's clear that I

6

have shown a burden to my free exercise that the defendants

7

have required me to forego sincerely-held religious practice

8

as a condition of retaining employment.

9

The practice is described in the complaint and it's

10

made even clearer in my declaration under penalty of perjury

11

as to what the practice is and that I would be required to

12

forego it when required to be physically present in the

13

office.

14

I think it's very clear that there is a burdening of

15

free exercise in this case.

16

make it clear that strict scrutiny applies.

17

that rational basis does not apply.

18

And I think the cases that apply
It's very clear

One could argue at a minimum that some heightened

19

scrutiny applies, but I think that Fulton in particular makes

20

clear that strict scrutiny applies here.

21

the actions and the policy of the defendants are not neutral

22

or generally applicable.

23

- App. 157 -

8

And that's because

There's multiple ways in which their policies and

24

their decisions have failed to be neutral and generally

25

applicable.

I can address it in more detail.

I think they

United States District Court
District of New Jersey

Colloquy

1

were addressed pretty comprehensively in the briefing.

2

The defendants tried to raise a few arguments in

3

their briefing as to why these policies are neutral and

4

generally applicable.

5

this misapprehends the argument, and I've cited Fulton on

6

that.

7

detail.

8
9

I believe the way I have put it is that

I am happy to discuss any of those arguments in more

But in any event, the defendants, I believe, are
subject to strict scrutiny under the cases and the cases show

10

clearly that they have not even begun to justify their

11

religious discrimination here.

12

To justify their religious discrimination under

13

strict scrutiny they would need to show that they have

14

compelling interest.

15

going back to their assertions in Exhibit D of the complaint

16

where they attempt to justify the religious discrimination --

17

just paragraph Assertions — are stated in extremely high

18

level of generality.

19

level of generality.

20

- App. 158 -

9

Their assertions in this case thus far,

They never get more detailed than that

And Fulton says, expressly, that the defendant that

21

is engaging in religious discrimination cannot justify its

22

religious discrimination at such a high level of generality by

23

stating its interests at such a high level of generality.

24

Here, the defendants do that repeatedly.

25

only would that alone be sufficient to show that I must be

United States District Court
District of New Jersey

And not

Colloquy

1

deemed likely to prevail and likely to have success on the

2

merits,

I actually debunked their interests.

3

So they don't state their interests at a very -- at

4

the requisite level of specificity.

5

I debunk them by providing the testimony under penalty of

6

perjury and repeated explanations, going back to Exhibit E of

7

the complaint, that explain why their interests are either

8

nonexistent or don't even come close to justifying this

9

religious discrimination.

10

But in addition to that,

I will just mention one example that was mentioned in

11

my reply and has been mentioned many times before, which is

12

where the defendants appealed to some vague notion of emergent

13

matters without any factual connection to my employment.

14

they go so far in their brief as to mention this extremely

15

high level of generality as to the line of employment but

16

don't provide a single fact in support of that alleged

17

interest.

And

And we see in the cases, including Fraternal Order

18
19

and Roman Catholic Diocese, that the government, even

20

asserting an interest in safety, is not going to be sufficient

21

unless they can show their interest is narrowly tailored.

22

I will address in a moment.

23

Just some of the fact

24

THE COURT:

25

- App. 159 -

10

right.

Let me ask you this, Mr. Leone.

Let me ask you this.

United States District Court
District of New Jersey

All

And

Colloquy

1

MR. LEONE:

Yes.

2

THE COURT:

Where do things stand now?

3

MR. LEONE:

I believe

4

THE COURT:

Meaning are you going into the office or

5
6

are you not?
MR. LEONE:

Yes, Judge.

So I do go into the office

7

as a general matter.

8

record exhibit and mentioned in the briefing, that I do use

9

some accrued time in order to be able to pray, as I have

10
11

I use accrued time, as I mentioned in a

described in the papers.
As a general matter, the defendants are requiring me

12

to go into the office every day, which is the factual

13

circumstance that is mentioned on the face of the motion for

14

preliminary injunction itself.

15

So in other words, the defendants do continue to

16

categorically discriminate against religion, do continue to

17

refuse to permit even one minute, day or hour of the religious

18

practice that asked them accommodation for.

19

THE COURT:

So one of the accommodations that were

20

outlined in the memorandum from the prosecutor's office

21

indicated providing you access to a soundproof room.

22

been something that has been permitted, explored?

23

that stand?

24
25

- App. 160 -

11

MR. LEONE:

Yes, Judge.

Has that

Where does

So if I may just preface my

response to Your Honor's question with a more general legal

United. States District Court
District of New Jersey

Colloquy

1

12

point.

2

THE COURT:

Sure.

3

MR. LEONE:

The defendants on this motion and in

4

general attempt to shift the burden to me as the plaintiff to

5

explain why their proposed accommodations are unreasonable.

6

have explained repeatedly why they are, but just wanted the

7

record to be clear that to my knowledge there is no source of

8

law that would require me to explain why these accommodations

9

are unreasonable in order to be entitled to relief here.

10

On the accommodations itself, Your Honor mentioned

11

the soundproof room.

12

commute to a nearby public park if I wanted to pray.

There is also the requirement that I

13

THE COURT:

Right.

14

MR. LEONE:

Or the nonaccommodation of just

15

maintaining the status quo.

16

All three of the accommodations would essentially

17

require me to change my religious practice.

18

that clear in the brief, in the latter part of the brief where

19

I address the defendants I

20
21

And I try to make

factual assertions.

So regarding, if I can just go in order in each of
the accommodations starting from --

22

THE COURT:

I am only asking you about the soundproof

23

room.

24

want to know specifically what is the issue with that?

25

That is the only thing I am asking you about and I just

I understand you have put a lot of things in your
-J

- App. 161 -

I

United States District Court
District of New Jersey

Colloquy

I am just asking

1

papers, your papers are very voluminous.

2

you, we are on the record, so if you can just indulge me and

3

tell me what the issue is with that.

4
5
6

MR. LEONE:

Yes, Judge.

If I may rely on my brief

for that and read from my brief.
Judge, I addressed this accommodation at Page 24 of

7

the brief.

8

offer of accommodation similarly would require plaintiff to

9

forego the spontaneous nature of his prayer practice or the

10
11

And this is where I say that the defendants' third

connection to creation that it requires.
And I cite complaint Paragraph 21, noting that an

12

element of plaintiff's prayer practice is, quote, perceiving

13

and contemplating the handiwork of the Creator, such as by

14

looking up at the sky.

15

And then I say, regarding this proposed

16

accommodation, In order words, plaintiff must refrain from

17

praying until he commutes to a soundproof room with no windows

18

and no connection to nature or be confined to that room all

19

day every day.

20

THE COURT:

Okay.

21

MR. LEONE:

So, as all three of these accommodations,

22

similar among them is that it would require me to change my

23

religious practice in order to accept this as a so-called

24

accommodation.

25

- App. 162 -

13

THE COURT:

Okay, fair enough.

All right.

United States District Court
District of New Jersey

Colloquy

1

Anything else you want to add, Mr. Leone?

2

MR. LEONE:

I was just going to continue to walk

3

through likelihood of success on the merits on irreparable

4

harm.

5
6

Would Your Honor like me to move onto irreparable
harm.

7

THE COURT:

Right, yes, you can.

8

MR. LEONE:

Sure.

9

harm,

So, Judge, regarding irreparable

I think this factor is especially clear here.

The

10

Supreme Court stated directly that being denied First

11

Amendment liberty or infringement of First Amendment rights

12

for even a minimal period of time constitutes irreparable

13

harm.

14

The defendants don't cite the cases that this is

15

stated in.

16

apply here.

17

Court cases on religious liberty other than Smith in passing.

18

They don't try to explain why the standard doesn't
In general, they really don't cite any Supreme

I think it's clear under Tandon v Newsome, for

19

example, and Roman Catholic Diocese, that being denied

20

religious liberty under infringement such as this, for even a

21

minimal period of time, constitutes irreparable injury.

22

- App. 163 -

14

And then I just wanted to say that if that were not

23

clear enough, the defendants actually themselves apparently

24

concede that I am suffering irreparable injury here, which

25

they say in their brief is, I believe they say difficult if

United States District Court
District of New Jersey

Colloquy

1

not impossible to remedy.
So I think that factor under in light of Tandon and

2
3

in light of Roman Catholic Diocese and in light of the

4

defendants' own admissions is also particularly clear.

5

combined balancing of harms and public interest here, this

7

factor

9
10
11

THE COURT:
That's fine.

You don't have to go through those.

I mean, obviously the Court's focus is on the

irreparable harm and the likelihood of success.
Let me ask you in terms of, once again from a

12

practical standpoint, what would be your proposal in terms of

13

you going into the office?

14

referenced going in as necessary.

15

to what that actually means.

16

MR. LEONE:

Because I know that your request

Yes, Judge.

And so just I am curious as

Well, I have tried to be

17

clear from the beginning, and from Exhibit C of the complaint,

18

which was an e-mail sent post the meeting that I had with the

19

defendants to discuss this matter, that I am simply requesting

20

that the status quo that was extended to employees for secular

21

reasons be extended to me for religious reasons.

22

To my knowledge, there would be no difference between

23

what I am requesting and what they already gave employees,

24

including me, for secular reasons.

25

- App. 164 -

Regarding the third factor, Judge, which is the

6

8

15

THE COURT:

Would you agree that those extensions

United States District Court
District of New Jersey

Colloquy

1

were provided during the course of the pandemic when most

2

people were not in the office, so they had the A/B schedule

3

and people were coming in every other week?

4

extensions that have been provided outside of that?

5

MR. LEONE:

Are there other

Outside of that, Judge, I do believe, on

6

information and belief, that the defendants do permit people

7

to work from home from time to time for other reasons other

8

than the pandemic.

9

The pandemic is the main reason that they made

10

exceptions to their physical requirement, their policy of

11

requiring people to be physically present in the office for.

12

It's a medical rationale.

13

know, physical health, like the rationale in Fraternal Order,

14

which is another case the defendants don't cite here.

15

It's based on medicine or, you

But yes, Judge, I believe that that's the main

16

instance in which they have permitted people this benefit of

17

this accommodation for secular reasons.

18

virus-related or medical-related rationale.
Okay.

That would be the

19

THE COURT:

20

And prior to that, Mr. Leone, it is fair to say when

All right.

21

you commenced employment on September 9th of 2019, you were

22

going into the office regularly, up until March of 2020, when,

23

essentially, the office closed or was placed on this A/B

24

schedule as a result of the pandemic.

25

- App. 165 -

16

Is that accurate?

United States District Court
District of New Jersey

Colloquy

1

MR. LEONE:

I was

2

in a different unit of the office and I believe that I might

3

have taken days off for religious reasons here or there.

4

as a general matter, I did report.

5

But

It seems that, if I may just offer a point on this,

6

the defendants tried to use that against me in a way that

7

violates Supreme Court precedent, which would be the case v

8

Hobble, Hobble that I cited in my briefing and I can find it

9

and cite it for Your Honor.

10

But the timing -- the case says that the timing of

11

when a person chooses to engage in the religious exercise such

12

as this is not relevant to determining whether they are being

13

burdened in their free exercise or whether they are suffering

14

irreparable harm.

15

THE COURT:

So when you initially began employment

16

with the prosecutor's office you were in what division and

17

where are you now?

18

MR. LEONE:

So that was in the juvenile division

19

where I began.

20

property and financial crimes unit.

21

And now I am currently in the intellectual

THE COURT:

Okay.

And I note that there was a

22

request to be moved to the appellate division, but that was

23

denied because there was no availability of a position.

24
25

- App. 166 -

That's generally, correct, Judge.

17

MR. LEONE:
it.

Yes, Judge.

I think that's a way to say

I didn't understand it as a denial in a communication

United States District Court
District of New Jersey

Colloquy

1

with the director himself.

2

in mind and as soon as there is an opening you will be

3

considered.

4

denial.

5

unit.

He said, you know, I will keep you

So I considered it kind of in abeyance, not a

But yes, I have not been transferred to the appellate

6

Does that answer Your Honor's question?

7

THE COURT:

8

Anything else you want to add, Mr. Leone?

9

MR. LEONE:

Yes, it does.

Very well.

I think, Judge, I would just, if I was

10

going to add a final thing, it would be to look at the cases

11

here.

12

Order is on force with this case down to the very rationale

13

that they use, which is a medical rationale, to permit

14

exemptions from their policy.

I tried to make it clear in the brief that Fraternal

15

Fulton also makes very clear that there would be a

16

burdening for exercise here and that the defendants' system

17

that permits them discretion to discriminate among the kinds

18

of reasons that permit people to work from home, triggers

19

strict scrutiny.

20

those cases, the defendants essentially cannot succeed on the

21

merits here.

22
23
24
25

- App. 167 -

18

I think once that that's clear, and based on

THE COURT:

All right, very well.

Thank you,

Mr. Leone.
Ms. Clifford, do you want to be heard?
ARGUMENT BY DEFENDANT

United States District Court
District of New Jersey

Colloquy

1

MS. CLIFFORD:

2

We won't belabor the points, as Your Honor has made

3

Thank you, Judge.

some of the arguments that the defendants brought up.

4

I do want to distinguish several of the cases that

5

plaintiff cites to.

6

accurate, those cases are factually distinguishable.

7

example,

8

that prohibited social gatherings for religious services, but

9

then permitted them for households of three or more for

And while his cites to the caselaw are
For

Tandon vs. Newsom, regarding a California regulation

10

secular activities such as restaurants, retail stores and hair

11

salons.

12

So there was a clear distinction as to how secular

13

versus religious activities were treated.

14

cases the standard was properly strict scrutiny.

15

And thus, in those

I just want to briefly focus on the two prongs of the

16

standard that the plaintiff must surmount to be successful in

17

this motion; as he mentions, likelihood of success on the

18

merits as well as irreparable harm.

19

here established irreparable harm.

20

And plaintiff has not

As we have already discussed, when he began his

21

employment with the ECPO from September 2019 to March 2020, he

22

was at work in the office and at trial every day with no

23

issues, did not make any requests related to working from home

24

to accommodate his religious beliefs.

25

- App. 168 -

19

And even now, as he does admit, the requested relief

United States District Court
District of New Jersey

Colloquy

1

is he can work in the office and in court when he believes it

2

is warranted.

3

subjective to the plaintiff's own determination as to when he

4

believes that he should be physically present at work.

5

And that's not defined and it's highly

On those days when he is preparing for grand jury

6

presentations, trials, witness interviews, and the like, he is

7

not physically harmed.

8
9
10
11

He is in the office.

He has made several requests, of which the ECPO
engaged in a bona fide effort to determine any reasonable
accommodations made to him.
And not to again belabor the point, and in the

12

alternatives of which we are all aware, the soundproof room,

13

he has a private office with a door.

14

outdoor access.

15

Reservation across the street.

16

by plaintiff.

17

He was requesting

He can go outside; there is the Eagle Rock
These were summarily rejected

And the defendants' obligation is only to engage in

18

that bona fide effort.

19

preventing the efficient operation of the ECPO, that's where

20

that obligation ends.

21

And if it's unduly interfering with or

It appears that the plaintiff in this case doesn't --

22

is not interested in a reasonable accommodation but the one

23

that he prefers, which is to work at home on the days he wants

24

to and to come in on the days he doesn't.

25

- App. 169 -

20

We would end that, with respect to his First

United States District Court
District of New Jersey

Colloquy

1

Amendment claim, because it's a neutral, generally applicable

2

policy of the ECPO that every single employee must now be full

3

time in the office, it would be subject to rational review,

4

which is only that the ECPO proved that it is -- there is a

5

rational reason, excuse me — that the work policy is

6

rationally related to a legitimate Government objective.

7

The ECPO is the county's law enforcement agency and

8

it is one of the busiest in the state.

9

prosecutors are required to be at trial to collaborate with

10

The assistant

colleagues, to engage in ad hoc meetings, and be there.

11

Now that the courts have reopened, criminal trials

12

have now become -- are now conducted in person.

13

respectfully, not for the plaintiff to decide that he can do

14

these functions remotely with such a critical law enforcement

15

agency.

16
17
18
19

It's,

Emergency appearances come up from time to time as
well.
And so, respectfully, Your Honor, he has not been
able to establish those two prongs.

20

THE COURT:

21

Do you want to add anything else, Mr. Leone?

22

Very well.

Thank you, Ms. Clifford.

REPLY ARGUMENT BY PLAINTIFF

23

MR. LEONE:

24

I think there is a theme here kind of

25

- App. 170 -

21

Judge, just to respond to a few points.

mischaracterizes what I am not seeking.

I am not seeking any

United States District Court
District of New Jersey

Colloquy

1

subjective authority.

2

Ms. Clifford used.

3
4

I think that was the word that

I am seeking simply the same exact accommodation that
was extended to people for secular reasons.

5

And then I think, again, the defendants try to rely

6

on their shifting of their policies on August 2nd to require

7

some or all — the briefing actually kind of leaves open,

8

because it mentions the qualification of at plaintiff's level

9

of the employees that are required to be in the office now,

10

but they shifted the policies in August 2nd to require most

11

employees to be in the office.

12

I think that the defendants misunderstand the

13

significance of this decision.

There is essentially no

14

significance of this decision.

Even if they never granted the

15

ability for people to work from home in the pandemic, the fact

16

that they maintain a system that permits them the discretion

17

to do that means that their policies are not general —

18

neutral and generally applicable, and the Fulton case makes

19

that clear.

20

- App. 171 -

22

In addition, on that same point, the Tandon case

21

makes this point doubly aware that the Court says that even

22

when the defendants withdraw a restriction on free exercise, a

23

plaintiff nonetheless remains entitled to emergency injunctive

24

relief when he remains under a constant threat, the Government

25

will use its power to reinstate the challenged restriction.

United States District Court
District of New Jersey

Colloquy

1

Here the defendants maintain their power to reinstate

2

the challenged restriction because the challenged restriction

3

is still in effect.

4

THE COURT:

5
6

They still burden my free exercise.
Very well.

Thank you.

COURT'S DECISION ON REQUEST FOR PRELIMINARY INJUNCTION
THE COURT:

As I indicated at the outset,

I did have

7

the opportunity to read the submissions that have been filed

8

with the Court and wanted to have argument today to allow each

9

side to expound a bit.

10

And I think here, because we are talking about a

11

request for injunctive relief, which is obviously

12

extraordinary relief.

13

lawsuit involves.

14

request for injunctive relief was filed thereafter.

15

the Court has to look at the primary two factors, albeit there

16

are four factors, but those two primary factors being

17

irreparable harm that would result if relief is not granted to

18

the plaintiff; and in addition to that, the likelihood of

19

success on the plaintiff's claims in this action.

20

It is not in the context of what the

This lawsuit was filed and then this
And so

And so I focus on those two things first because I

21

think that that's, while the balancing of the harms and

22

obviously the public interest are other aspects of the Court's

23

consideration, these primary two areas are the ones that I

24

draw attention to.

25

- App. 172 -

23

So the part I am having trouble with, quite frankly,

United States District Court
District of New Jersey

Colloquy

1

is that there a constant sort of representation that relief

2

has been granted for secular reasons.

3

assertion is the fact that the relief that was granted,

4

specifically that everyone was permitted to work from home,

5

was during the course of a pandemic.

6

pretty much everyone throughout the country and in many parts

7

of the world, were not able to go to their places of

8

employment because of the very serious affects and concerns

9

related to the pandemic.

10

And what's lost in that

And when, essentially,

So this was not a decision that was made sort of just

11

very loosely or without very serious consideration to what's

12

involved in making a determination to not go into our offices.

13

And in this instance in particular, we are speaking

14

of a prosecutor's office, and probably one of the most,

15

busiest counties in the state where, I mean, the number of

16

trials that are done on a regular basis far exceeds what

17

happens in many counties in this state.

18

But aside from that, the fact is that it appears that

19

there has been a schedule that was set out by the prosecutor's

20

office as to the return, information was given in a timely

21

manner to all employees that they had to return.

22

- App. 173 -

24

I am not suggesting in any way that Mr. Leone is not

23

at liberty to engage in religious practices, regardless of

24

whether he engaged in them before or that he just started

25

engaging in these practices now.

The issue is whether or not

United States District Court
District of New Jersey

Colloquy

1

his religious practice is truly being prevented or not being

2

accommodated in any way.

3

And once again, there were several accommodations

4

that were offered by the prosecutor's office that were not

5

acceptable to Mr. Leone.

6

the request was to work from home unless necessary to., come in.

7

There is no indication as to what "necessary to come in," what

8

that means or when that would happen.

9

And as I understand it, essentially,

And quite frankly, in this position, being an

10

assistant prosecutor in a prosecutor's office, to basically

11

have the employee determine when is an acceptable time to come

12

in versus when it is not would be extremely difficult for the

13

office to maintain any type of control or any type of

14

direction over the office.

15

So now we turn to whether these are even reasonable

16

accommodations.

17

determination that is a final determination.

18

purposes of a preliminary injunction.

19

injunctive relief that is being sought is essentially that the

20

status quo be maintained, that Mr. Leone does not have to go

21

into the office unless he feels it is necessary and so that he

22

can exercise his religious practice of being able to engage in

23

vocal prayer or prayer of any nature.

24

are referring to.

25

- App. 174 -

25

And let's be clear, I am not making a
This is for

And so the preliminary

And so that is what we

And so for our purposes here today, as to whether

United States District Court
District of New Jersey

Colloquy

1

there is in fact a true likelihood of success on that claim

2

with all the factors being considered, that this was a

3

pandemic that existed, that schedules were put in place by the

4

prosecutor's office to eliminate and certainly decrease the

5

potential of the spread of COVID-19, and that essentially

6

those many restrictions were lifted, and some are being

7

engaged in again, but many restrictions were lifted.

8

those restrictions being lifted, therefore required that

9

people are required to go back into the office.

10

Some of

And so while it's indicated that upon information and

11

belief that others might be given some accommodation, none of

12

that has been brought before the Court and nothing has been

13

submitted to the Court that anyone else is being given an

14

accommodation to not go into the office, in light of the

15

determination as of August 2nd for all employees to return to

16

the prosecutor's office.

17

- App. 175 -

26

So that component of irreparable harm is also an

18

extremely heavy burden.

19

understand.

20

religion being curtailed, irreparable harm is assumed and it

21

is pretty much automatic.

So the irreparable harm being, and I

Obviously when you are talking about freedom of

22

In this instance, however, when accommodations have

23

certainly attempted to be made, I am not suggesting they are

24

acceptable in final form, but that is what the lawsuit is for.

25

And that is what the lawsuit will basically flush out and

United States District Court
District of New Jersey

Colloquy

1

that's what discovery will address, to the extent that those

2

are issues that still have yet to be addressed.

3

But for purposes of this Court rendering a decision

4

at this preliminary status and at this point to say that there

5

is a sincere likelihood of success and that there is

6

irreparable harm that has resulted to the plaintiff in this

7

case,

I don't feel that that burden has been met.

8
9

And I would also note that when, like I said, there
is a lot of documentation that has already been submitted, and

10

this may be something that gets moved to a summary judgment

11

stage very quickly, quite frankly, and I am fine with that as

12

well.

13

that proceeds and goes forward.

Obviously, I will defer to the magistrate judge on how

14

But for our purposes here today, where we are asking

15

for injunctive relief, I don't believe that the factors have

16

been satisfied, specifically the factors of a likelihood of

17

success.

18

irreparable harm to the plaintiff in this case.

19

- App. 176 -

27

And I don't believe that there has been a showing of

There have certainly been assertions as to it not

20

being preferred and that there is a comparison of secular

21

reasons versus religious reasons.

22

important to note the distinction here is that these are --

23

the return to the office was dictated by the pandemic.

24

being away from the office was being dictated by the pandemic.

25

At this point, while, Mr. Leone, you might find great

But once again, it is

United States District Court
District of New Jersey

And

Colloquy

1

success of the lawsuit overall,

2

warrants an injunctive relief in this case.

3

I don't believe that this

So the request for injunctive relief is denied.

4

matter will proceed in the normal course.

5

be set down before Judge Kiel and you will proceed with

6

discovery aspects of the case.

7

The

And the matter will

And as I said, if he moves it quickly to a summary

8

judgment stage, then we will certainly address that in short

9

order as well.

10
11
12
13

But I will issue an order to that effect.

It will be

filed on the electronic filing system.
COURT'S DECISION ON REQUEST TO STRIKE THE ANSWER
THE COURT:

And I also want to address something that

14

was filed recently as well, which was a request to strike the

15

answer of the prosecutor's office.

16

That is extreme relief.

17

That request is denied.

Certainly, under the circumstances, there has been

18

absolutely no showing of any prejudice to the plaintiff or

19

anything of that nature.

20

answer, which would be, once again, an extreme penalty under

21

the circumstances.

22

- App. 177 -

28

So there is no basis to strike the

So with that being stated, I thank all of you for

23

your presentations today.

24

said, it will be filed electronically, so you will have access

25

to it in that way as well.

I will have an order issued.

As I

And you will hear from Judge Kiel

United States District Court
District of New Jersey

Colloquy

29

1

going forward as it relates to the discovery portion of the

2

case.

3

Have a great day.

4

MR. LEONE:

Thank you, Judge.

5

THE COURT:

I'm sorry?

6

MR. LEONE:

Sorry, Judge.

If I may ask --

Will Your Honor be

7

submitting a written opinion or any further explanation for

8

your

9

THE COURT:

I will not.

No.

10

Anything further?

11

Very well.

12

I will keep my staff on.

13

go.

Have a great afternoon, everyone.
Everyone else is free to

Thank you.

14

THE COURTROOM DEPUTY:

15

(The proceeding is adjourned at 3:38 p.m.)

Court is adjourned.

16
17

FEDERAL OFFICIAL COURT REPORTER'S CERTIFICATE

18
19
20

I certify that the foregoing is a correct transcript
from the record of proceedings in the above-entitled matter.

21
22

/S/ Joanne Sekella, CCR, CRCR, RMR

23

Official Court Reporter

September 9, 2021

24
25

- App. 178 -

United. States District Court
District of New Jersey

Date

Case 2:21-cv-12786-SDW-ESK Document 18 Filed 09/07/21 Page 1 of 2 PagelD: 262

NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
ALEX G. LEONE,
Plaintiff,

Civil Action No. 21-12786 (SDW) (ESK)

v.

ORDER

ESSEX COUNTY PROSECUTOR’S
OFFICE, THEODORE STEPHENS II,
ROMESH SUKHDEO, GWENDOLYN
WILLIAMS, and ROGER IMHOF,

September 7, 2021

Defendants.

WHEREAS on July 30, 2021, Plaintiff Alex G. Leone (“Plaintiff’) filed a motion
requesting a preliminary injunction to bar Defendants Essex County Prosecutor’s Office, Theodore
Stephens II, Romesh Sukhdeo, Gwendolyn Williams, and Roger Imhof (collectively,
“Defendants”) from requiring that Plaintiff return to the office “every day of every week.” (D.E.
8-1 at 2 (emphases in original).) On August 24, 2021, Defendants opposed. (D.E. 11.) Plaintiff
replied on August 31, 2021. (D.E. 13); and
WHEREAS on September 1, 2021, Plaintiff filed a letter, (D.E. 15), requesting that this
Court strike Defendants’ Answer, (D.E. 14), as untimely; and
WHEREAS this Court has considered the parties’ submissions, as well as the oral
arguments presented before this Court at the virtual hearing held on September 7, 2021,
IT IS, on this 7th day of September 2021, for the reasons stated on the record today,
ORDERED that Plaintiffs request for a preliminary injunction (D.E. 8) is DENIED, and
ORDERED that this matter shall proceed in the normal course; and

- App. 179 -

Case 2:21-cv-12786-SDW-ESK Document 18 Filed 09/07/21 Page 2 of 2 PagelD: 263

ORDERED that Plaintiffs request to strike Defendants’ Answer (D.E. 15) is DENIED.
SO ORDERED.
/s/ Susan D. Wigenton
United States District Judge
Orig: Clerk
cc:
Parties
Edward S. Kiel, U.S.M.J.

2
- App. 180 -

Case 2:21-cv-12786-SDW-ESK Document 19 Filed 09/07/21 Page 1 of 2 PagelD: 264

UNITED STATES DISCTICT COURT
DISTRICT OF NEW JERSEY
x

ALEX G. LEONE,

NOTICE OF APPEAL

Plaintiff,
v.

ESSEX COUNTY PROSECUTOR’S OFFICE,

Docket No. 2:21 -cv-12786

THEODORE STEPHENS II,
ROMESH SUKHDEO,
GWENDOLYN WILLIAMS,
and
ROGER IMHOF,
in their individual and official capacities,
Defendants.
x

Notice is hereby given that Alex G. Leone, Plaintiff in the above-captioned case, appeals
to the United States Court of Appeals for the Third Circuit from the Court’s Order denying
Plaintiffs Motion for a Preliminary Injunction (D.E. No. 8), entered on the record in this
matter on September 7, 2021 (D.E. No.__(forthcoming); see D.E. No. 17 (“motion
denied . . . Order to be filed”)).

Date: September 7, 2021
Respectfully submitted,
By: /s/Alex G. Leone
Alex G. Leone
P.O. Box 1274
Maplewood, New Jersey 07040
aIeone@jdl6.law.harvard.edu

1
- App. 181 -

Case 2:21-cv-12786-SDW-ESK Document 19 Filed 09/07/21 Page 2 of 2 PagelD: 265

CERTIFICATE OF SERVICE
Alex G. Leone hereby certifies that this notice is served electronically on the defendants
in this matter and their counsel on September 7,2021. See L. Civ. R. 5.2, Section 14(b)(1).

/s/ Alex G. Leone
Alex G. Leone
P.O. Box 1274
Maplewood, New Jersey 07040
aleone@jdl6.law.harvard.edu

2
- App. 182 -

Case: 21-2684

Document: 3

Page: 1

Date Filed: 09/14/2021

No. 21-2684

IN THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Alex G. Leone,
Plaintiff-Appellant,

v.

Essex County Prosecutor’s Office,
Theodore Stephens II,
Romesh Sukhdeo,
Gwendolyn Williams, and
Roger Imhof,
Defendants-Appellees.
On Appeal from the United States District Court
for the District of New Jersey
No. 21-12786
(Honorable Susan D. Wigenton)
EMERGENCY MOTION OF APPELLANT ALEX G. LEONE
FOR AN INJUNCTION PENDING APPEAL
UNDER FED. R. APP. P. 8

Alex G. Leone
P.O. Box 1274
Maplewood, New Jersey 07040
aleone@jdl6.law.harvard.edu

1
- App. 183 -

Case: 21-2684

Document: 3

Page: 2

Date Filed: 09/14/2021

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES

,3

INTRODUCTION

5

FACTUAL AND PROCEDURAL BACKGROUND

5

ARGUMENT
I.

10

Appellant has demonstrated a strong likelihood of success on the
merits of his First Amendment Free Exercise claim......................

11

A.

Defendants’ discrimination is subject to strict scrutiny.

B.

Defendants’ discrimination cannot pass strict scrutiny—or
any form of
18
scrutiny.
1.

2.

Defendants’ putative interests are far from
compelling.....................................................

12

18

Defendants’ chosen method of advancing their
putative interests—categorical religious
discrimination—is totally untailored.
21

3.

Defendants’ discrimination would not pass even
rational basis.
22

Appellant must be deemed likely to prevail on the
C.
merits
II.

Appellant has demonstrated that he will suffer—and is suffering—
irreparable harm on each work day in the absence of injunctive
relief....................................................................................................... 23

III.

Granting preliminary relief is in the public interest.

26

CONCLUSION

28

CERTIFICATE OF SERVICE

30

2

- App. 184 -

.23

Case: 21-2684

Document: 3

Page: 3

Date Filed: 09/14/2021

TABLE OF AUTHORITIES
Cases

Page

Alabama Ass ’n ofRealtors, et al. v. Dept. HHS, etal., 594 U.S.__(August 26, 2021)... 16
Fulton v. City of Philadelphia, Pennsylvania, 593 U.S.__(June 17, 2021)

4

Tandon v Newsom, 141 S. Ct. 1294 (2021)

4

Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63 (2020) (per curiam)

12

Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights Comm ’n, 138 S. Ct. 1719 (2018).......12
Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct. 2751 (2014)

.24

Winterv. Natural Res. Def. Council, Inc., 555 U.S. 7 (2008)

10

Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal, 546 U.S. 418 (2006)

11

Ashcroft v. American Civil Liberties Union, 542 U.S. 656 (2004)

.23

Hobbiev. Unemployment Appeals Commission, 480 U.S. 136(1987)

11

Thomas v. Review Bd. ofIndiana Employment Security Div., 450 U.S. 707 (1981)

11

Reilly v. City of Harrisburg, 858 F.3d 173 (3d Cir. 2017)

10

Blackhawkv. Commonwealth, 381 F.3d 202 (3d Cir. 2004)

13

Tenafly Eruv Ass’n v. Borough ofTenafly, 309 F.3d 144 3d Cir. 2002)

.27

Fraternal Order, Police Newark v. City, Newark, 170 F.3d 359 (3d Cir. 1999)

,4

Am. Bev. Ass ’n v. City and Cty. ofS.F., 916 F.3d 749 (9th Cir. 2019) (en banc)

.27

Statutory Law
N.J.S.A. 10:5-12(q)(l)

11

Other Authority
Severe COVID Cases Hit ‘Troubling ’ 4-Month High as Delta Fuels Back-to-School Fears,
NBC (September 9, 2021), https://www.nbcnewyork.com/news/coronavirus/ny-reportshighest-single-day-covid-death-toll-in-months-as-delta-drives-back-to-schoolworries/3 260499/.
16
3

- App. 185 -

Case: 21-2684

Document: 3

Page: 4

Date Filed: 09/14/2021

Appellant Alex G. Leone (“Appellant”) respectfully moves for an emergency
injunction pending appeal pursuant to Federal Rule of Appellate Procedure 8.

On

September 7, 2021, the District Court denied Appellant’s motion for a preliminary
injunction. (D.E. No. 18).1 That day, Appellant appealed and moved for an emergency
injunction pending appeal before the District Court. (D.E. No. 20). The District Court has
not decided that motion. Given the ongoing violation of the First Amendment and the
resulting irreparable harm to Appellant, Appellant respectfully submits that awaiting a
ruling by the District Court would be “impracticable.” See Fed. R. App. P. 8(a); see also,
e.g., Homans v. City ofAlbuquerque, 264 F.3d 1240, 1243 (10th Cir. 2001) (not requiring
the filing of a motion for injunction in a district court because of the “immediacy of the
problem and the district court’s legal error concerning the First Amendment”).
Absent an injunction, Appellant will continue to suffer irreparable harm as a result
of the appellees’ (“Defendants’”) religious discrimination. See, e.g., Fulton v. City of
Philadelphia, Pennsylvania, 593 U.S.

_______ ?

__ (slip op.) at 5-6 (June 17, 2021); Tandon

v. Newsom, 141 S. Ct. 1294, 1297 (2021). Accordingly, Appellant respectfully requests
an order enjoining Defendants from disciplining or otherwise disadvantaging Appellant
for his free exercise, such as for violating their May 12, 2021 policy (D.E. No. 1
(“Compl”) Ex. D at 2-3), which categorically discriminates against religion. See, e.g.
Fraternal Ord. of Police Newark Lodge No. 12 v. City of Newark, 170 F.3d 359, 361,366
(3d Cir. 1999) (affirming an injunction against a government employer preventing it from
“disciplining or otherwise disadvantaging” Free Exercise Clause plaintiffs “for violating
[a government policy that categorically discriminated against religious accommodation]
or any other directive which would require them to ... violat[e]... their religious beliefs”).

i

A September 9, 2021 docket entry for this appeal (No. 21-2684) states that the
record is “available on District Court CM/ECF,” to which Appellant cites herein.
4
- App. 186 -

Case: 21-2684

Document: 3

Page: 5

Date Filed: 09/14/2021

INTRODUCTION
For more than a year, Defendants have judged that secular reasons are adequate
to permit employees to work from home, and have exercised discretion to permit many
employees to do just that, including on a fulltime basis for prolonged periods. Yet at the
same time, Defendants have judged religious reasons inadequate to permit a single
employee to work from home at all, and on May 12, 2021, categorically prohibited
Appellant from so doing. The effect of this discriminatory policy choice—as explained
to Defendants prior to the filing of this action and in the record and briefing below—is to
prevent Appellant from praying as his religion requires throughout each work day. This
burdening of free exercise is devastating to Appellant; and, absent injunctive relief, the
irreparable harm and other harms it inflicts on each work day will continue.
FACTUAL AND PROCEDURAL BACKGROUND
Appellant incorporates the Complaint and its attachments by reference and briefly
recounts the following facts. Defendants are high-ranking officials at the Essex County
Prosecutor’s Office, and the office itself, an agency of the State of New Jersey, and have
employed Appellant since 2019. (Compl.

4-7).

Since early 2020, Defendants have

exercised discretion to permit employees to work from home for secular reasons (e.g., to
prevent viral transmission). (Compl. |15). In the District Court, Defendants confirmed
that “out of an abundance of caution” they exercised that discretion to enact policies under
which “all employees worked from home full-time” for secular reasons for prolonged
periods during the past year. (D.E. No. 11 at 2).2

2

For instance, employees in the “Adult Trial” section of Appellant’s office were
permitted to work from home fulltime during November 2020 into June 2021; and
employees in the “Appellate” section of Appellant’s office have been permitted to work
from home fulltime from March 2020 through the date on which Appellant filed a motion
for preliminary injunction. (Compl. ^ 17; D.E. No 8-2 (“Leone Deck”)
10 & 11).
5
- App. 187 -

Case: 21-2684

Document: 3

Page: 6

Date Filed: 09/14/2021

On April 26, 2021, Appellant requested that going forward he be permitted to
work from home for religious reasons. (See, e.g., Compl. Exs. A & B; Compl. Ex C
(requesting that the “status quo” that permitted Appellant to work from home for secular
reasons at least half the time “continue” for Appellant for religious reasons)). In sum,
Appellant’s religion requires him to pray, including aloud and spontaneously, throughout
each day; and Appellant’s religious belief is that the peace and solitude required for this
practice are impossible in the office. (See, e.g., Compl.

19-27; Compl. Ex. C; D.E. No.

8-1 (“Leone Deck”) | 13; see also infra, note 15). Importantly, in requesting a religious
accommodation, Appellant did not request to be absolved of any work responsibility;
Appellant’s prayer practice has never interfered in his work and greatly assists him in his
work.

(Compl. U 23; Leone Deck f 17).

Appellant expressly requested an

accommodation only to the extent it would not impose a hardship on Defendants. (See,
e.g., Compl. Exs. A & B (requesting “to be physically present at [the] office . . . when
accommodating this religious need would cause undue hardship”)). Appellant is, and has
always been, fully willing to be physically present for anything required by his job
responsibilities—including in-person court appearances, witness interviews, or any other
obligation. (See, e.g., Compl. ^ 62(a); Leone Deck | 9).
Defendants, nonetheless, categorically denied Appellant’s request for a religious
accommodation, thus singling out religion as never worthy of accommodation at all—
putting Appellant to the choice of forgoing his prayer practice or being disciplined by his
employer, and thus burdening Appellant’s free exercise of religion on all work days.
(Compl. Ex. D at 2-3; Leone Deck f 13-14). Astonishingly, Defendants’ policy of
categorically refusing to accommodate religion applies regardless of the circumstances
and even “in the future.” (Compl. Ex. D at 2-3). Yet at the very time Defendants adopted
this discriminatory policy, they were already granting to other employees for secular

6
- App. 188 -

Case: 21-2684

Document: 3

Page: 7

Date Filed: 09/14/2021

reasons the very accommodation requested by Appellant. {See, e.g., Leone Decl.

10-

11; D.E. No. 11 at 2). This inexplicable singling out of religion for especially harsh
treatment forms the primary basis of Defendants’ violation of the First Amendment.
Defendants’ sole rationale for their extreme prohibition on accommodating
religious reasons for working from home consisted of a single paragraph of vague
assertions. (See Compl. Ex. D at 2-3). Defendants refused to explain these assertions but
nonetheless “st[oo]d by” them. (Compl. Exs. E, F & G). The record below makes clear
that the assertions cannot justify Defendants’ categorical religious discrimination against
Appellant. {See, e.g., Compl. Ex. E at 2-6; Leone Decl.

3-9 & 17; D.E. No. 13

(“Reply”) at 13-19). If this was clear on May 12, 2021, when Defendants denied the
request for accommodation, it is even clearer today: Since Defendants’ discriminatory
policy was adopted, none of the purported reasons Defendants gave for categorically
prohibiting Appellant’s prayer practice has ever applied. {See, e.g., Leone Decl. Tflf 3-7).
On July 26, 2021, Defendant Sukhdeo announced that “starting Monday, August
2, 2021,” there would “no longer be” a schedule that permits Appellant to work from
home at any time. {See D.E. No 8-4). Accordingly, on July 30, 2021, Appellant moved
for a preliminary injunction (D.E. No. 8), the denial of which is the subject of this appeal.
The change in status quo threatened on July 26 came to pass and has caused a 100%+
increase in Defendants’ burdening of Appellant’s free exercise, at least doubling the
number of days on which Defendants prohibit Appellant’s prayer practice. {See id.)?

3

Although their relevance is questionable, see infra, note 6, it is worth mentioning
“accommodations” Defendants “offered” Appellant alongside their categorical refusal to
accommodate his prayer practice. {See Compl. Ex. D at 2-3). These “accommodations”
are “better described as anti^accommodations, which not only would require Plaintiff to
forgo his prayer practice but would also impose significant burdens on Plaintiff.” {See
Reply at 23-25). The proposed “accommodations” directly contradict not only
Appellant’s religious beliefs regarding his prayer practice {see, e.g., Leone Dec. 113) but
also Defendants’ putative rationale for denying Appellant’s religious accommodation
request to begin with—for instance, by generally permitting Appellant to be physically
7
- App. 189 -

Case: 21-2684

Document: 3

Page: 8

Date Filed: 09/14/2021

Prior to completion of briefing on the motion, Appellant notified the District Court
that Defendants privately asserted to Appellant that the motion “is frivolous” and
attempted to bully him into withdrawing the motion by threatening to “seek sanctions”
against him. (See D.E. No. 10 & D.E. No. 10-1). Appellant also informed the District
Court that Defendants indicated they would be disputing facts; and, to the extent any
material facts were disputed, Appellant “respectfully request[ed] the opportunity to
subpoena a small number of witnesses, if not one witness, and present testimony on any
disputed material facts.” (D.E. No. 10). Defendants ultimately did not dispute any
material fact—nor did they even attempt to defend their apparently unethical assertion
that the motion “is frivolous”—and the Court did not invite presentation of additional
evidence at the brief September 7, 2021 hearing it held on the motion. Accordingly, the
record before the District Court at the hearing consisted of the Complaint and its exhibits;
letters to the Court from the parties; a declaration under penalty of perjury by Appellant
(Leone Deck); and a press release and deficient certification by one defendant (D.E. No.
11-3 (“Imhof Cert.”)).4

out of the office to range “a four hundred (400) acre [public park] ... so long as it does
not adversely impact [his] work responsibilities,” but never permitting Appellant work at
his nearby home, where he can actually pray and work consistent with his job
responsibilities, on the very same condition (see, e.g., Compl. Ex. D at 3; Compl. f 58;
Leone Dec.
13-17).
After questioning why Appellant’s religious beliefs conflict with one of the
proposed “accommodations” (OA Tr. at 12:22-24), the District Court apparently reduced
Appellant’s religious beliefs to things “preferred” by Appellant (see id. at 27:19-21).
4

Defendant Imhof s certification, the only evidence submitted by Defendants other
than a press release, fails to comply with 28 U.S.C. § 1746. (See D.E. No. 11-3 (failing
to certify “under penalty of perjury”)); see also L. Civ. R. 7.2(a) (listing “affidavits,
declarations, [and] certifications” in reference to 28 U.S.C. § 1746). Regardless, as
explained herein, the certification contains only vague assertions or uncontested
observations and does not controvert any material fact in the record.
8
- App. 190 -

Case: 21-2684

Document: 3

Page: 9

Date Filed: 09/14/2021

At that hearing, the District Court repeatedly rushed Appellant’s oral argument
(see D.E. No. 23, Oral Argument Transcript (“OA Tr.”), at 12:20-24, 14:1-7, 15:5-10 &
18:7-10); did not permit oral argument on certain preliminary injunction factors (id. at
15:5-10); asked zero questions of the defendants; and issued a brief oral ruling, in which
the Court assumed facts not in the record (see, e.g., id. at 24:10-17 (e.g., referencing
nonexistent trials) & 25:5-14 (quoting from and relying on an apparently non-existent
source regarding relief not sought)) and made several clear legal errors (see, e.g., id. at
23:25-24:9 & 27:21-24 (creating a pandemic exception to the Constitution); 24:25-25:2
(questioning whether Appellant’s religious beliefs are “truly” the case); id. (stating a legal
test that has no basis in Supreme Court or any precedent); id. at 24:5-17 (analyzing
whether Defendants’ discretionary policies make sense at an extremely high level of
generality, such as by referencing “everyone throughout the country,” “our offices,” and
“counties in the state”); 25:3-5 (illicitly shifting the burden of narrow tailoring to
Appellant); 25:9-14 (conflating Appellant’s individual request for an accommodation
with “control” over an entire “office”); 26:10-16 (apparently assuming that diversity in
the kinds of secular exemptions permitted by Defendants’ discretionary policies is
required to make their discretion subject to strict scrutiny); 26:19-27:7 (recognizing that
in “freedom of religion being curtailed, irreparable harm ... is pretty much automatic”
but going on to assert that the Court “do[es]n’t feel” there is irreparable harm in this case);
27:25-28:2 (recognizing that Appellant’s claim “might find great success” but ruling that
the claim does not have a likelihood of success on the merits)).
In its entire ruling, the District Court did not cite a single legal authority or the
record even one time; and it was unclear whether the District Court was familiar with the
applicable Supreme Court precedents, compare, e.g., 24:25-25:2 (“The issue is whether
or not his religious practice is truly being prevented or not being accommodated in any

9
- App. 191 -

Case: 21-2684

Document: 3

Page: 10

Date Filed: 09/14/2021

way.”), with Fulton (slip, op) at 10 (“That misapprehends the issue.”), and basic record
documents, compare, e.g., OA Tr. at 25:18-21 (asserting that “the preliminary injunctive
relief that is being sought is . . . that Mr. Leone does not have to go into the office unless
he feels it is necessary”),5 with D.E. No. 8-5 (proposing relief precisely parallel to that
granted in Fraternal Order and clarifying that the District Court is “not enjoin[ing]
anything else, including disciplining Appellant or any employee for any act or omission
inconsistent with any job duty, obligation, rule, or responsibility”); (see Compl. Ex. A).
ARGUMENT
When evaluating a motion for preliminary injunctive relief,
a court considers four factors: (1) has the moving party
established a reasonable likelihood of success on the merits
(which need not be more likely than not); (2) is the movant
more likely than not to suffer irreparable harm in the
absence of preliminary relief; (3) does the balance of
equities tip in its favor; and (4) is an injunction in the public
interest?
Fulton v. City ofPhiladelphia, 922 F.3d 140, 152 (3d Cir. 2019) (citing Winter v. Natural
Res. Def. Council, Inc., 555 U.S. 7, 20 (2008); Reilly v. City ofHarrisburg, 858 F.3d 173
179 (3d Cir. 2017)); see also Reilly, 838 F.3d at 179-80 (requiring for “likelihood of
success” only “a showing significantly better than negligible”—that the movant “can win
on the merits”—and that the government justify its burdening of First Amendment
freedom or else the movant “be deemed likely to prevail”)); In re Revel AC, Inc., 802
F.3d 558, 565 (3d Cir. 2015). When the government is the party opposing a preliminary
injunction, the latter two factors merge. See Nken v. Holder, 556 U.S. 418, 435 (2009).
Importantly, this Court recognizes “a constitutional duty to conduct an
independent examination of the record as a whole when a case presents a First
Amendment claim.” Brown v. City ofPittsburgh, 586 F.3d 263, 269 (3d Cir. 2009).

5

Defendants repeatedly made similar factual mischaracterizations, several of which
are addressed at pages 21 to 28 of Appellant’s Reply (D.E. No. 13).
10
- App. 192 -

Case: 21-2684

I.

Document: 3

Page: 11

Date Filed: 09/14/2021

Appellant has demonstrated a strong likelihood of success on the merits
of his First Amendment Free Exercise claim.
Defendants’ policy of categorically denying Appellant a religious accommodation

imposes an obvious burden on Appellant’s free exercise: This discriminatory policy
choice prevents Appellant, on fear of discipline from Defendants, from engaging in his
prayer practice during every work day. (See, e.g., Compl

19-27; Leone Decl. f 13

(declaring under penalty of perjury, “When physically present in the office, I am forced
to forgo a prayer practice I engage in throughout every work day. (I engage in this
practice every day except Sunday.) My religious belief is that the peace and solitude
required for this practice are impossible in the office.”)). The sincerity of Appellant’s
religious beliefs is uncontested.

(See Opp. at 3 (“Defendants do not contest that

Appellant’s religious beliefs are sincerely held.”)).6

So putting Appellant to a choice

“between following the precepts of h[is] religion and forfeiting [work], on the one hand,
and abandoning one of the precepts of [his] religion in order to accept work, on the other

6

Although Defendants recognize that Appellant’s religious beliefs reflect “honest
conviction,” see Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct. 2751, 2779 (2014)
(quoting Thomas v. Review Bd. of Indiana Employment Security Div., 450 U.S. 707, 716
(1981)), they have illegitimately attempted to dispute the content of those beliefs (see,
e.g., D.E. No. 11 at 14-15). They have also repeatedly attempted to force Appellant to
change these beliefs so that he could deem Defendants’ proposed “accommodations”
acceptable. (See, e.g., Opp. at 17 (calling “accommodations” that would force Appellant
to change his prayer practice “generous”); see also supra, note 3). And Defendants have
illicitly attempted to shift the legal burden to explain why their proposed
“accommodations” are unreasonable (see, e.g., D.E. No. 11 at 13), which turns the law
on its head. See Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal, 546 U.S.
418, 429 (2006); Ashcroft v. American Civil Liberties Union, 542 U.S. 656, 666 (2004);
Reilly, 858 F.3d at 180; Fraternal Order, 170 F.3d at 366; N.J.S.A. 10:5-12(q)( 1); see
also Greater Phila. Chamber of Commerce v. City of Philadelphia, 949 F.3d 116, 133
(3d Cir. 2020) (“In First Amendment cases the initial burden is flipped.”).
Given that the proposed “accommodations” indisputably conflict with the
religious beliefs Defendants correctly recognize as sincerely-held, it is unclear whether
the “accommodations” have any further relevance to the merits of Appellant’s First
Amendment claim. (See, e.g., Compl. Ex. E at 7-9; Compl. ^ 56-59; Leone Dec. ^ 13;
Reply at 23-25).
11
- App. 193 -

Case: 21-2684

Document: 3

Page: 12

Date Filed: 09/14/2021

hand” is a textbook example of burdening free exercise.

See, e.g., Hobbie v.

Unemployment Appeals Comm’n of Fla., 480 U.S. 136, 140 (1987) (quoting Sherbert v.
Verner, 374 U.S. 398, 404 (1963)); Thomas, 450 U.S. at 717.
Defendants, tellingly, contend only that this burdening is subject to rational basis
scrutiny (see D.E. No. 11 at 10-11), but this Court’s and the Supreme Court’s precedents
make clear that rational basis does not apply here: For at least three reasons, Defendants’
discriminatory policy choice is subject to strict scrutiny, which it flatly fails. Therefore,
there are at least three ways in which Defendants are violating the First Amendment,
addressed in turn in Section A below.
A. Defendants’ discrimination is subject to strict scrutiny.
First, Defendants’ discriminatory policy choice lacks neutrality. Their May 12
memorandum makes clear: Religion can never be an adequate basis for a work-fromhome accommodation, neither now nor “in the future.” (Compl. Ex. D at 2). Defendants
thus “single[d] out [religious] worship for especially harsh treatment,” Roman Catholic
Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 66 (2020), at the very time they were
already granting for secular reasons the very accommodation requested by
Appellant (see, e.g., Compl.

15-18 & 75-81; Leone Deck

10-12; D.E. No. 11 at 2).

The only plausible explanation for this lack of neutrality is hostility to religion, hostility
evident even in Defendants’ briefing below. (See, e.g., D.E. No. 11 at 5, 6 & 17
(derisively referring to the religious need to pray in scarequotes multiple times); id. at 3
(derisively referring to Appellant’s prayer practice as a “moving” “target”)).

And

Defendants’ assertion that religion can never justify a work-from-home accommodation,
even “in the future” (Compl. Ex. D at 2), shows that they “presuppose[] the illegitimacy
of religious beliefs and practices.” See Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights
Comm’n, 138 S. Ct. 1719, 1731 (2018). Therefore, Defendants’ May 12 “decision to

12
- App. 194 -

Case: 21-2684

Document: 3

Page: 13

Date Filed: 09/14/2021

provide medical exemptions while [categorically] refusing [a] religious exemption[] is
sufficiently suggestive of discriminatory intent,” see Fraternal Order, 170 F.3d at 365,
and strict scrutiny applies, see, e.g., Lukumi, 508 U.S. at 546; Fulton (slip op.) at 13.7
Second, for multiple reasons, Defendants’ discriminatory policy choice is not
generally applicable: Defendants have “prohibited] religious conduct,” i.e., working at
home for religious reasons even “in the future” (Compl. Ex. D at 2), “while permitting
secular conduct,” i.e., working from home for secular reasons (Leone Deck lfl| 10-11;
Opp. at 2), which “undermines the government’s asserted interests in a similar way”—in
fact, the same exact way, see, e.g., Fulton, (slip op.) at 6; and Defendants treat the activity
of working from home for secular reasons more favorably than the same exact activity
undertaken for religious reasons, which they have chosen to prohibit categorically, see,
e.g., Tandon, 141 S. Ct. at 1296. Lacking general applicability in either of these ways is
sufficient to trigger strict scrutiny. Fulton, (slip op.) at 6; Tandon, 141 S. Ct. at 1296;
Blackhawk v. Commonwealth, 381 F.3d 202, 211 (3d Cir. 2004) (“triggering] strict
scrutiny” because the “[secular] exemptions [made] available [by the government]
undermine[d] the interests” the government claimed to be pursuing).

7

Fraternal Order “assumefd] that an intermediate level of scrutiny appliefd]”
partially because this Court believed the government’s “actions [could not] survive even
that level of scrutiny.” 170 F.3d at 366 n.7. (As explained herein and in the briefing
below (see, e.g., D.E. No. 8-1 at 5-13) the same is true here.) Fraternal Order also
assumed an intermediate level of scrutiny partially because that case “arose in the public
employment context.” 170 F.3d at 366 n.7. Since Fraternal Order was decided, however,
the Supreme Court in Fulton has made clear that even when the government is acting as
a manager—and even a manager of its very own employees or contractors—the First
Amendment’s requirements of neutrality and general applicability apply in full force
nonetheless. See Fulton (slip op.) at 8 (citing, e.g., Garcetti v. Ceballos, 547 U. S. 410,
418-420 (2006)). And when the government breaches either of those requirements, such
as with a system of discretionary exemptions that permits discrimination against religion,
strict scrutiny applies. See, e.g., id. at 13.
13
- App. 195 -

Case: 21-2684

Document: 3

Page: 14

Date Filed: 09/14/2021

Third, and in the same vein, Defendants’ discriminatory policy choice was
undertaken in the context of their system of “discretionary exemptions.” See, e.g., Fulton
(slip op.) at 8-10; Blackhawk, 381 F.3d at 209; Fraternal Order, 170 F.3d at 365. 8
Defendants maintain arbitrary discretion9 to favor secular reasons for working from home
over religious reasons—and they have in fact used their discretion in this manner to
burden Appellant’s free exercise. (Compare, e.g., Complaint Ex. D at 2 (Defendants
exercising their discretion to deny Appellant a work-from-home accommodation, even
“in the future,” and even at the very time they were widely permitting work-from-home
accommodation for secular reasons), with Leone Deck ^]f 10-11 and Opp. at 2
(Defendants recognizing that under their exercise of discretion “all employees worked
from home full-time” for secular reasons)). This is precisely the kind of discretionary

8

Defendants apparently make both individualized and categorical exemptions.
(Compare, e.g., Compl.
16-17 & Leone Deck
10-11 (Defendants creating different
work-from-home policies based on individual work units) and D.E. No. 11 at 18
(apparently recognizing that Defendants distinguish work-from-home policies based on
employee “level”), with D.E. No. 11 at 2 (Defendants categorically permitting “all
employees [to] work[] from home full-time” for secular reasons) and Compl. Ex. D at 2
(Defendants categorically refusing to accommodate religious reasons for working from
home even “in the future”)).
Regardless, this Court has made clear that either kind of exemption is
constitutionally suspect—and that categorical discrimination like that certainly at issue
here can be even more problematic than individualized discrimination: “[I]t is clear from
[Smith and Lukumi] that the Court’s concern was the prospect of the government’s
deciding that secular motivations are more important than religious motivations. If
anything, this concern is only further implicated when the government does not
merely create a mechanism for individualized exemptions, but instead, actually
creates a categorical exemption for individuals with a secular objection but not for
individuals with a religious objection.” Fraternal Order, 170 F.3d at 365 (emphasis
added); see also Blackhawk, 381 F.3d at 212 (“[W]e are confronted with a scheme that
features both individualized and categorical secular exemptions, and it is these that trigger
strict scrutiny.”).
9

Not only is Defendants’ discretion arbitrary: Defendants totally refused to explain
their exercise of discretion when Appellant presented them with pointed criticism of it
before filing this lawsuit; and they declined to respond when Appellant asked if there was
a way to appeal their extreme refusal to accommodate religion even “in the future,”
raising significant due process concerns. (See Compl. Ex. D at 2 & Exs. E, F & G).
14
- App. 196 -

Case: 21-2684

Document: 3

Page: 15

Date Filed: 09/14/2021

system the Supreme Court and this Court have said makes the government’s actions
subject to strict scrutiny, because this is precisely the kind of discretionary system which
squarely raises—and, here, actualizes—the Courts’ concern that the government will
engage in religious discrimination. See, e.g., Fulton, (slip, op.) at 10; Blackhawk, 381
F.3d at 211; Fraternal Order, 170 F.3d at 363 (“[T]he plaintiffs are entitled to a religious
exemption since the [government] already makes secular exemptions.”).
Any one the reasons discussed above independently suffices to show that
Defendants’ policies are not neutral and generally applicable. Defendants responded to
the upshot of this proposition—that their burdening of Appellant’s free exercise is subject
to strict scrutiny—with a series of fallacious arguments in the District Court (see, e.g.,
Reply at 4-7 & 11-12), but Appellant will address only one in detail now.
Defendants assert that because some or all employees “were required to return
[physically] to work on August 2, 2021”—or because Defendants are not at this moment
granting secular exemptions from the requirement that employees be physically present
for work—their policies are “neutral and generally applicable.” (See D.E. No. 11 at 1011). This fallacious argument, however, “misapprehends the issue:” The Supreme Court
has foreclosed the argument—actually, stronger versions of it—twice over. See Fulton,
(slip op.) at 10; Tandon, 141 S. Ct. at 1297.10

10

Neither in briefing nor at oral argument did Defendants cite Fulton even one time,
not even when discussing the requirements of neutrality and general applicability, which
Fulton directly addressed only months ago. (See, e.g., D.E. No. 11 at 10); Fulton, (slip
op.) at 5-7. It is understandable why Defendants would want to pretend Fulton does not
exist: It is a 9-0 Supreme Court case that puts the lie to their fallacious arguments. It is
not clear, however, why the District Court also pretended that Fulton does not exist—
declining to cite Fulton even once and in its ruling not addressing any of Appellant’s
arguments based on Fulton. (See generally OA Tr. at 23:6-28:11).
15
- App. 197 -

Case: 21-2684

Document: 3

Page: 16

Date Filed: 09/14/2021

In Fulton, the Supreme Court made clear that having “a formal mechanism for
granting exceptions”11 at all “renders [the government’s] policy not generally applicable,
regardless whether any exceptions” are currently given or even whether any exceptions
ever have been given. Fulton, (slip, op.) at 10. This is so because the potential for
exemptions permits the government “to decide which reasons for not complying with the
policy are worthy of solicitude.” Id. Here, not only may Defendants’ “decide which
reasons for not complying with the[ir] [physical presence] policy are worthy of solicitude:

.55

They in fact decided that secular reasons are “worthy of solicitude” but that religious
reasons are not and never are. See id.-, (Compl. Ex. D at 2). Moreover, Defendants may
exercise their standardless, arbitrary discretion at any time and decide again that secular
reasons are worthy of solicitude while continuing to discriminate against religion. See,
e.g., Alabama Association ofRealtors, etal. v. Department of Health and Human Services,
et al., 594 U.S.__,__(slip op.) at 8 (August 26, 2021) (“It is indisputable that the public
has a strong interest in combating the spread of the COVID-19 Delta variant.”); (“Both
hospitalizations and deaths in the Garden State are at four-month highs, as are the number
of COVID patients on ventilators and in ICUs [as of] Wednesday [September 8,
2021]”).12

Stated simply, the Supreme Court’s “concern [i]s the prospect of the

li

Formal or informal, the very potential for granting exemptions, Fulton makes
clear, is the problem; and an informal system depending even more on Defendants’
arbitrary discretion poses an even greater threat of religious discrimination. See Fulton,
(slip op.) at 10. Stated simply, the Supreme Court’s “concern [i]s the prospect of the
government’s deciding that secular motivations are more important than religious
motivations, ” Fraternal Order, 170 F.3d at 365, and that is precisely what Defendants
have done here—and in the absence of preliminary relief, would be permitted to continue
to do.
12

Severe COVID Cases Hit ‘Troubling’ 4-Month High as Delta Fuels Back-to(September
School
Fears,
NBC
2021),
9,
https://www.nbcnewyork.com/news/coronavirus/nv-reports-highest-single-dav-coviddeath-toll-in-months-as-delta-drives-back-to-school-worries/3260499/.
16
- App. 198 -

Case: 21-2684

Document: 3

Page: 17

Date Filed: 09/14/2021

government’s deciding that secular motivations are more important than religious
motivations,” Fraternal Order, 170 F.3d at 365, and that is precisely what Defendants
have done here—and in the absence of preliminary relief, would be permitted to continue.
In Tandon, the Supreme Court made clear that “everc ifthe government withdraws”
a policy that burdens free exercise, a movant “otherwise entitled to emergency injunctive
relief remain[s] entitled” when he “remain[s] under a constant threat” the government
will use its “power to reinstate the challenged restriction[]” on free exercise. Tandon, 141
S. Ct. at 1297 (citing Roman Catholic Diocese, 141 S. Ct. at 68) (emphases added). Here,
Appellant remains not only under a “constant threat” of free exercise burden: Defendants’
burdening of Appellant’s prayer practice has never ended—and was increased by 100%
on August 2—let alone the discriminatory policy resulting in the burdening actually
“withdraw[n].” See id:, (Compl. Ex. D. at 2-3 (stating Defendant’s policy of categorically
discriminating against a religious accommodation even “in the future”)). And despite
Defendants’ August 2 shifting of who must be physically present in the office or when,
Defendants’ discretion to grant exemptions and permit employees to work from home for
secular reasons may again be exercised at any time. See Tandon, 141 S. Ct. at 1297;
Alabama Association, (slip op.) at 8; supra, note 12. In other words, as observed above,
Defendants maintain arbitrary discretion to favor secular reasons for working from home
over religious reasons.

The Supreme Court’s and this Court’s concern that the

government will engage in religious discrimination is therefore squarely implicated here.
See, e.g., Fulton, (slip, op.) at 10; Fraternal Order, 170 F.3d at 365.
In addition, regardless of their treatment of others for secular reasons, Defendants
intentionally discriminated against religion in denying Appellant an accommodation,
explicitly and categorically singling out religion as never an adequate basis to permit work
from home. (Compl. Ex. D at 2 (categorically asserting that religion can never justify

17
- App. 199 -

Case: 21-2684

Document: 3

Page: 18

Date Filed: 09/14/2021

working from home “presently or in the future”)). This “decision to provide medical
exemptions while [categorically] refusing [a] religious exemption^ is sufficiently
suggestive of discriminatory intent,” see Fraternal Order, 170 F.3d at 365, and
Defendants’ discriminatory intent has continued from that decision until this day: It does
not cease to exist simply because Defendants have decided to treat others differently for
secular reasons. And Defendants’ hostility to religion is shockingly evident even in their
brief.

(See, e.g., Opp. at 5, 6 & 17 (derisively referring to the religious need to pray in

scarequotes multiple times); Opp. at 3).
B. Defendants’ discrimination cannot pass strict scrutiny—or any form of
scrutiny.
“[S]trict scrutiny requires the State to further interests of the highest order by
means narrowly tailored in pursuit of those interests. That standard is not watered down;
it really means what it says.” Tandon, 141 S. Ct. at 1298 (quoting Lukumi, 508 U.S. at
546) (cleaned up). But not only does Defendants’ discrimination fail to pass that exacting
form of scrutiny to which it is subject: “The [government] has not offered any interest in
defense of its policy that is able to withstand any form of heightened scrutiny.” See
Fraternal Order, 170 F.3d at 366 (emphasis added). Defendants’ totally-untailored and
unlawfully-motivated religious discrimination cannot pass even rational basis review.
1. Defendants’ putative interests are far from compelling.
To attempt to justify their religious discrimination, Defendants assert only the
vaguest interests, not backed by any concrete fact or specific example: The rationale they
“st[ood] by” to justify their religious discrimination (Compl. Ex. G) consists of a single
paragraph of factually unsupported assertions (Compl. Ex. D at 2-3) stated at a “high level
of generality.” See, e.g., Fulton, (slip op.) at 13-14 (“The [government] states [its]
objectives at a high level of generality, but the First Amendment demands a more precise

18
- App. 200 -

Case: 21-2684

Document: 3

Page: 19

Date Filed: 09/14/2021

analysis.” (emphasis added)). To this day, Defendants have provided zero individualized
analysis of Appellant’s request for an accommodation as it relates to Appellant’s
employment in particular. See, e.g., id. at 14 (“The question ... is not whether the
[government] has a compelling interest in enforcing its ... policies generally, but whether
it has such an interest in denying an exception to [Appellant in particularly, (see also
generally Imhof Cert.). Each of Defendants’ putative interests—such as their vague
appeals to “emergent matters” that “may” require attention (see Compl. Ex. D at 2-3;
Imhof Cert, f 8)—has been debunked. Repeatedly. (See, e.g., Compl. Ex. E at 2-6;
Compl.

35-67; Leone Deck

3-5 (“[TJhere has never been an emergent matter that

necessitated my immediate physical presence in the office. I am not sure what such a
hypothetical scenario would be like.”); D.E. No. 8-1 at 12-14; Reply at 14-19; see also
D.E. No. 8-1 at 12 n.5). And Defendants’ only attempts at providing evidence in support
of these interests are (i) a press release; and (ii) the deficient certification of Defendant
Imhof,13 which re-asserts only vague interests at only a high level of generality.
(Compare, e.g., D.E. No. 13 at 5 (vaguely asserting that “department heads had been
taking on many of the responsibilities of assistant prosecutors”) with, Reply at 7
(“Appellant is not aware of a single occasion on which a ‘department head,’ or anyone,
‘took on’ any of his job responsibilities, nor do Defendants identify even one such
occasion.”)).
It bears repeating: Defendants offer not a single concrete fact or specific
example in support of their discrimination. On each putative interest, Defendants
make only a vague assertion at an impermissibly high level of generality, see Fulton, (slip
op.) at 13-14, without even trying to connect it to Appellant’s employment specifically;
Appellant debunks it with a clear explanation and citation to evidence (see, e.g., Compl.

13

See supra, note 4.
19

- App. 201 -

Case: 21-2684

Ex. E at 2-6; Compl.

Document: 3

Page: 20

35-67; Leone Decl.

Date Filed: 09/14/2021

3-5; D.E. No. 8-1 at 12-14; Reply at 14-

19); and Defendants fail to respond with anything but more vague, generalized
assertions—let alone a shred of evidence to the contrary.
In addition, Defendants themselves contradict their own putative interests in
categorically denying Appellant a religious accommodation—three times over. {See
Compl.

44-51). First, Defendants acknowledge that only in certain circumstances, and

not always, are employees “required to be in the office;” whether they are is “based on
the needs of the office.” (Compl. Ex. D at 1; see also Compl. Exs. A & B (specifying that
religious accommodation is not sought when it is necessary to be in the office)). Second,
Defendants would generally permit Appellant to be physically out of the office to range
“a four hundred (400) acre [public park] ... so long as it does not adversely impact [his]
work responsibilities,” but never permit Appellant to be out of the office to work at his
nearby home, where he can actually pray and work in peace, on the very same condition.
(Compl. Ex. D at 3 (emphasis added)). This nonsensical “accommodation” alone
refutes Defendants’ entire position. And third, Defendants recognize, as they must,
that for secular reasons they already widely permitted the accommodation Appellant is
seeking. (Compl. Ex. D at 1; Compl.

15-18; Leone Decl.

3 & 10-12; D.E. No. 11

at 2).
Accordingly, the Court should be “at a loss to understand” why permitting all
employees to work from home for secular reasons fulltime for prolonged periods—or
permitting Appellant to range 400 acres at will during work hours—does not “threaten
important. . . interests,” but permitting a single employee to work at home as necessary
to pray does, and allegedly always does. See, e.g., Fraternal Order, 170 F.3d at 366;
(Compl. Ex. D at 2 (categorically prohibiting free exercise “presently or in the future”)).
“[T]here is no apparent reason why permitting [Appellant to work from home] for

20
- App. 202 -

Case: 21-2684

Document: 3

Page: 21

Date Filed: 09/14/2021

religious reasons should create any greater difficulties” than permitting many others to
work from home for secular reasons. See Fraternal Order, 170 F.3d at 366.
2. Defendants’ chosen method of advancing their putative interests—
categorical religious discrimination—is totally untailored.
Defendants have categorically prohibited Appellant’s free exercise of his prayer
practice under all circumstances and even in the future—the exact opposite of narrow
tailoring.

(See, e.g., Compl. f 53 (Defendants have refused to permit even “one day,

hour, or minute” of work from home as necessary to accommodate prayer); Compl. Ex.
D at 2-3); Fulton, (slip op.) at 13-14. In other words, “Defendants made no effort to
determine when [accommodating Appellant’s free exercise] would cause undue hardship
and when it would not: They simply asserted, categorically, that it always does.” (Compl.
U 53). Defendants’ assertion is antithetical to their actual legal obligation here: They
“must do more than assert that certain risk [or cost] factors are always present in [working
from home as necessary to pray], or always absent from [working from home for secular
reasons].” See Tandon, 141 S. Ct. at 1296. Yet they offer only the opposite and ignore
“many other less restrictive rules” they could use instead of categorical religious
discrimination. See, e.g., Roman Catholic Diocese, 141 S. Ct. at 67.
The government’s failure to tailor its discrimination here is equivalent to the
government’s failure in Fraternal Order, which is on all fours with this case (see, e.g.,
D.E. No. 8-1 at 10-11) but which Defendants did not even attempt to distinguish and
which the District Court did not cite even one time. In Fraternal Order, this Court
rejected even physical safety—“undoubtedly an interest of the greatest importance”—as
a satisfactory rationale for the government’s discrimination because the government’s
“policy w[as] not tailored to serve that interest.” Id. at 366; see also Roman Catholic
Diocese, 141 S. Ct. at 67 (enjoining regulations that burdened religious practices even

21
- App. 203 -

Case: 21-2684

Document: 3

Page: 22

Date Filed: 09/14/2021

though the regulations were designed to “[s]tem[] the spread of COVID-19”—an
“unquestionably a compelling interest”—because they were not “narrowly tailored”)
(emphasis added)); McTernan v. City of York, 564 F.3d 636, 650-51 (3d Cir. 2009). (So
here, yet with Defendants’ much weaker putative interests.) As discussed herein and in
the record below, Defendants’ religious discrimination against Appellant is totally
untailored: Whereas Defendants judged a secular rationale for working from home
broadly acceptable, they categorically rejected a religious rationale for working from
home and refused to permit Appellant to work for home for religious reasons during even
“one day, hour, or minute”—now or “in the future.” {See, e.g., Compl. ^ 54; Leone Deck
8-12; Compl. Ex. D at 2).
3. Defendants’ discrimination would not pass even rational basis.
Although Defendants argued below only that rational basis applies here (see D.E.
No. 11 at 10-11) it is clear that rational basis does not apply. See, e.g., Fulton (slip op.)
at 13; Tandon, 141 S. Ct. at 1296; Roman Catholic Diocese, 141 S. Ct. at 66; Masterpiece,
138 S. Ct. at 1731; Lukumi, 508 U.S. at 546; Thomas, 450 U.S. at 718; Blackhawk, 381
F.3d at 211. But Defendants’ discrimination would not pass muster even under that
highly-deferential standard: Defendants have not cited a single fact in support of the
proposition that they have a legitimate interest in categorically denying religious
accommodation to Appellant (see Compl. Ex. D at 2-3; Imhof Cert.); and there is no
rational relationship—at least not one explained by Defendants (see, e.g., Compl. ^ 62(b)
(observing that Defendants “utterly fail[] to explain why permitting Plaintiff to participate
. . . telephonically (or through Teams, etc.) in order to accommodate [his] religious need
would impose an undue hardship”—or any burden at all—on Defendants); Compl Ex. E
at 3-4; see also Compl. Ex. E at 4 n.2)—between the maximally discriminatory policy
Defendants’ have chosen and their putative interests. See, e.g., Cleburne v. Cleburne

22
- App. 204 -

Case: 21-2684

Document: 3

Page: 23

Date Filed: 09/14/2021

Living Center, Inc., 473 U.S. 432, 446 (1985) (“The State may not rely on a classification
whose relationship to an asserted goal is so attenuated as to render the distinction arbitrary
or irrational.”) Moreover, Defendants’ policies are shot through with inconsistencies14
and are motivated by unlawful intent. See, e.g., Romer v. Evans, 517 U.S. 620, 632-33
(1996). Defendants’ unlawful intent—which independently suffices to show they cannot
pass rational basis-—is evident in their May 12 memorandum, which “discriminate^] on
its face” and singles out religion for maximally intolerant treatment. See, e.g., Lukumi,
508 U.S. at 533; see also Fraternal Order, 170 F.3d at 365 (“[The] decision to provide
medical exemptions while [categorically] refusing [a] religious exemptionf] is
sufficiently suggestive of discriminatory intent.”). Defendants’ hostility to religion is
evident even in their briefing below. (See, e.g., Opp. at 5, 6 & 17 (derisively referring to
the religious need to pray in scarequotes); Opp. at 3).
C. Appellant must be deemed likely to prevail on the merits.
Defendants do not even come close to justifying their burdening of Appellant’s
free exercise, having eked out only a dubious argument that they pass mere rational basis.
(See D.E. No. 11 at 10-11). Furthermore, it is unclear whether there is any relevant
distinction between the merits of this case and those in Fraternal Order, where the
government at least claimed to have a compelling interest (in safety). Accordingly,

14

Multiple instances of inconsistency on the part of Defendants are discussed herein
as well as in the record. (See, e.g., Compl. Ex. E at 2-10). For example, Defendants
asserted that they cannot accommodate Appellant’s religious practice at all, ever, despite
granting the very accommodation Appellant was seeking—at the very time Appellant was
seeking it—to others for secular reasons.
Another example that leaps off the page is the first sentence of Defendants’ oneparagraph putative rationale for their religious discrimination: “It is the nature of the
work performed by the [Essex County Prosecutor’s Office] that individuals be physically
present in the office.” (Compl. Ex. D at 2). If this assertion were accurate, it would mean
that all of Defendants’ employees working from home either performed no work or
performed no work “in the nature” of their employment. This assertion is nonsense and
even disrespectful to the many employees who have worked hard, even overtime, from
home.
23
- App. 205 -

Case: 21-2684

Document: 3

Page: 24

Date Filed: 09/14/2021

Appellant “must be deemed likely to prevail” on the merits. See Ashcroft, 542 U.S. at
666; O Centro, 546 U.S. at 429; Reilly, at 180.
II.

Appellant has demonstrated that he will suffer—and is suffering—
irreparable harm on each work day in the absence of injunctive relief.
A person is “irreparably harmed by the loss of free exercise rights ‘for even

minimal periods of time.’” Tandon, 141 S. Ct. at 1297 (emphasis added) (citing Roman
Catholic Diocese, 141 S. Ct. at 67). As if this standard were not sufficient to find that
Appellant has shown this factor here—where Defendants’ burdening of free exercise is
not only not “minimal” in duration but categorical and permanent—Defendants’
themselves apparently concede that Appellant is suffering irreparable harm: “The harm
allegedly suffered by Appellant ... is difficult, if not impossible, to quantify and thus
even more challenging to remedy.” (See D.E. No. 11 at 3); Ramsay v. Nat’l Bd. ofMed.
Examiners, 968 F.3d 251,262 (3d Cir. 2020) (defining irreparable harm).
Defendants, nonetheless, advance multiple fallacies in support of the mistaken
conclusion that Appellant is not suffering irreparable harm in the loss of his free exercise
rights. Appellant will briefly note these now and address them in greater detail if
Defendants attempt to rely on them again in this Court:
•

Compare, e.g., D.E. No. 11 at 3 & 14-15 (recognizing that Appellant’s religious
beliefs are sincerely held but disputing the content of those beliefs), with Leone
Deck U 13 andBurwell v. Hobby Lobby Stores, Inc., 134 S. Ct. 2751, 2779 (2014)
(quoting Thomas v. Review Bd. of Indiana Employment Security Div., 450 U.S.
707, 716 (1981)) (making clear that disputing the content of religious beliefs is
legally impermissible).

•

Compare, e.g., D.E. No. 11 at 6 and Compl. Ex. D at 1 (repeatedly suggesting that
dissection of “a specific provision in Christianity” is appropriate in adjudicating

24
- App. 206 -

Case: 21-2684

Document: 3

Page: 25

Date Filed: 09/14/2021

Appellant’s claims), with Thomas, 450 U.S. at 715 (“Courts should not undertake
to dissect religious beliefs.”).15
•

Compare, e.g., D.E. No. 11 at 12-19 (repeatedly attempting to shift the burden to
explain the unreasonableness of Defendants’ proposed “accommodations” to
Appellant), with Reilly, 858 F.3d at 180 (citing O Centro, 546 U.S.at 429; Ashcroft,
542 U.S. at 666) (making clear that the movant “must be deemed likely to prevail”
unless the government justifies its burdening of religious exercise), Fraternal
Order F.3d at 366 (“The [government] has not offered any interest in defense of
its policy that is able to withstand any form of heightened scrutiny.”), arzt/N.J.S.A.
10:5-12(q)(l) (providing that an employer must accommodate a sincerely-held
religious practice unless the employer “demonstrates . . . undue hardship”).

•

Compare, e.g., D.E. No. 11 at 15 (asserting that Defendants’ religious
discrimination “does not cause [Appellant] irreparable harm” because “he was
able to work full time in the office” before the pandemic), with Hobbie v.
Unemployment Appeals Commission, 480 U.S. 136, 144 (1987) (making clear that
“[t]he timing” of when an employee chooses to begin engaging in a religious

15

If Defendants are interested in “a specific provision in Christianity” regarding
Appellant’s prayer practice, they could consult the Bible. See, e.g., Genesis 1:1; Exodus
15:26; Deuteronomy 10:14; Joshua 1:9; I Kings 4:29-33; I Chronicles 16:8; Nehemiah
2:4-5; & 9:4-6; Job 26:13, 38:4 & 38-41; Psalms 1:1-3, 8:3-5, 19:1-2, 30:11-12, 35:28,
40:16-17, 51:15-17, 63:5, 64:1, 66:19, 71:8 & 24, 89:1 & 11, 94:18-19, 95:1-5, 102:25,
104:14-17 & 33, 107:41, 119:12-13, 141:1-2 & 148:7-10; Proverbs 1:3, 3:5 & 3:25-26;
Isaiah 44:24 & 51:13; Jeremiah 17:14; Ezekiel 1:1; Amos 9:6; Matthew 5, 6:3-4, 6:5-6,
6:17-18, 6:26-29, 8:7, 14:23, 22:37-40 & 25:31-46; Mark 1:35-36, 6:46 & 7:34; Luke
2:13-14, 12:22-28, 18:9-14 & 23:34; John 1:1, 12:44 & 17:1-2; Acts 1:10-11 & 6:2-4;
Romans 1:20; II Corinthians 10:3-5; Ephesians 1:15-16, 6:1-4 & 6:13-18; Philippians 4:6;
Colossians 4:2; I Thessalonians 5:16-18; Hebrews 13:15; James 1:27; Revelation 21:
9-11.
25
- App. 207 -

Case: 21-2684

Document: 3

Page: 26

Date Filed: 09/14/2021

practice “is immaterial” to determining whether an employer burdens his free
exercise and causes him irreparable harm).16
None of these fallacies calls into question the upshot of the Supreme Court’s clear
statement of the relevant rule, see Tandon, 141 S. Ct. at 1297 (citing Roman Catholic
Diocese, 141 S. Ct. at 67), which the District Court apparently recognized but then
inexplicably disregarded (see OA Tr. at 26:19-27:7).
III.

Granting preliminary relief is in the public interest.
As observed above, when the government is the party opposing a preliminary

injunction, the balancing and public-interest factors merge. See Nken, 556 U.S. at 435.
The balancing factor focuses on the “effect on each party of the granting or withholding
of the requested relief.” Winter, 555 U.S. at 24. Here, on Appellant’s side, the effect of
withholding relief is and would continue to be devastating: As he has repeatedly informed
Defendants, being required to forgo his prayer practice causes him not only the irreparable
harm of burdened free exercise but also harm and suffering on multiple levels. (Compl.
If 25; Compl. Ex. E at 6 (“I suffer and am unable to focus on and complete work efficiently
when denied the opportunity to pray”); D.E. No. 8-3 (“It is spiritually and psychologically
painful.”); Leone Deck

16). Defendants unnecessarily and inhumanely upended the

status quo and increased these harms by 100% on August 2—prompting the application
for preliminary relief in the District Court. (See D.E. No. 8).
On Defendants’ side, it is not clear what harm, if any, would follow if the Court
were to grant relief. Despite Defendants’ vague assertions (see Compl. Ex. D at 2-3;
Imhof Cert; see also Compl. Ex. E at 2-6), they have not identified a single concrete fact

16

Defendants never cited Hobbie; and other than Smith on one page in passing (D.E.
No. 11 at 10), they did not cite any Supreme Court precedent on religious liberty; nor did
the District Court cite the Supreme Court, or any court, in its ruling, even though at oral
argument Appellant cited Hobbie on exactly this point. (See OA Tr. at 17:5-14).
26
- App. 208 -

Case: 21-2684

Document: 3

Page: 27

Date Filed: 09/14/2021

or specific example—let alone actual evidence—that suggests they would suffer even a
small burden if they permitted Appellant to work from home as necessary to pray as
contemplated by the request for accommodation (see Compl. Exs. A & B; E at 6
(Defendants “fail[ed] to show even a de minimis interest in denying the [request].”)).
In their briefing—after never mentioning it before (Compl. Ex. D at 2-3) and
“standing] by” their omission (Compl. Ex. G)—Defendants claimed that that permitting
Appellant to work from home as necessary to pray would be “harmful to public interest”
because Appellant would not “adequately develop professionally.” {See D.E. No. 11 at
20). Defendants, however, cannot speculate and “assume the worst” simply because
Appellant is seeking a religious accommodation. See Tandon, 141 S. Ct. at 1297;
Sherbert, 374 U.S. at 407. Yet an assumption of the worst is exactly what Defendants’
speculative assertion reduces to. (See also D.E. No. 11 at 7 (“anticipating]” that “remote
work is insufficient”); Compl. Ex. E at 2 & 5 (explaining that vague “anticipation” and
speculation about “some point in the future” cannot justify Defendants’ categorical
religious discrimination)).

Furthermore, being forced to forgo his prayer practice

severely hampers Appellant’s professional development and wellbeing on multiple levels.
(See Compl. f 25; Leone Deck f 17).
Defendants’ remaining attempts to make an argument on this factor similarly fell
flat: For instance, Defendants asserted a “likelihood” that “working from home would
cause difficulties in handling [a] burdensome case load.” (D.E. No. 11 at 20). But
Appellant already refuted this non-point months ago:

Defendants “conspicuously

ignore[] the fact that [an accommodation granted] could be tailored if necessary in the
future;” and “[a]t most, an increased workload may make the circumstances under which
it is reasonably necessary to be in the office more frequent;” and, “again, such

27
- App. 209 -

Case: 21-2684

Document: 3

Page: 28

Date Filed: 09/14/2021

circumstances are contemplated by the Request for Accommodation” itself. (Compl. Ex
E at 5; Compl. Exs. A & B; see also D.E. No. 13 at 18-19 (citing Compl. Ex. E at 6 n.4)).
If any “public consequences” would result from granting preliminary relief, see
Winter, 555 U.S. at 24, they would be good consequences: “/I]t is always in the public
interest to prevent the violation of a party’s constitutional rights.” See Am. Bev. Ass ’n v.
City and Cty. of S.F., 916 F.3d 749, 758 (9th Cir. 2019) (en banc) (emphasis added);
Tenafly Eruv Ass’n v. Borough of Tenafly, 309 F.3d 144, 178 (3d Cir. 2002) (“[T]he
public interest clearly favors the protection of constitutional rights.”).
At the very least, “it has not been shown that granting th[is] application^ will
harm the public.” See Roman Catholic Diocese, 141 S. Ct. at 68. Even the public’s
compelling interest in “[sjtemming the spread” of a virus during a pandemic, cannot
justify totally untailored religious discrimination like Defendants’. See, e.g., id. at 67
(emphasis added); Fraternal Order, 170 F.3d at 366-67. And permitting Appellant to
work from home as necessary to pray would actually advance the public’s interest in
stemming the spread of the virus during this pandemic. See Alabama Association, (slip
op.) at 8; see, e.g., supra, note 12. Even though Defendants used this putative interest to
suspend the requirement that “all employees” report physically to work for prolonged
periods (D.E. No. 11 at 2), they have apparently given it zero weight in their calculated
decision to discriminate against Appellant’s religious practice.
CONCLUSION
Defendants’ discriminatory “value judgment that secular (i.e., medical)
motivations ... are important enough to overcome [their] general interests] . . . but that
religious motivations are not” cannot stand. See Fraternal Order, 170 F.3d at 366.
Defendants’ neither carried their burden under the applicable standards nor cited any
concrete fact or specific example in support of their discrimination; and by repeatedly

28
- App. 210 -

Case: 21-2684

Document: 3

Page: 29

Date Filed: 09/14/2021

mischaracterizing or misrepresenting facts17—and even deriding religion in their briefing
—they rear the ugly face of their entrenched desire to burden Appellant’s free exercise.
For the reasons discussed herein and reiterated in Appellant’s briefing below,
Appellant respectfully requests that this Court grant preliminary relief pending appeal.18
Appellant respectfully requests oral argument on this motion, see Fed. R. App. P. 27(e);
L. App. R. 27.1, and permission to file it despite its wordcount, see Fed. Rs. App. P. 2 &
27(d)(2)(A).
Date: September 14, 2021

Respectfully submitted,
/s/ Alex G. Leone
Alex G. Leone
P.O. Box 1274
Maplewood, New Jersey 07040
aleone@jdl6Jaw.harvard.edu

17

See supra, note 5.

18

The unfounded notion that the relief sought is “vague” was Defendants’ foremost
point in support of their unethical assertion that Appellant must “withdraw [the] motion”
for preliminary relief or else Defendants will “seek sanctions” against him. {See D.E. No.
10-1 at 1 & 3). The relief requested, however, is substantially identical to the relief
granted and affirmed by this Court in Fraternal Order. See 170 F.3d at 361 & 367. In
Fraternal Order, the District Court enjoined the government employer “from disciplining
or otherwise disadvantaging Appellants ... for violating Order 71-15 or any other
directive which would require them to shave or trim their beards in violation of their
religious beliefs.” Id. at 361; (see also D.E. No. 8-1 at 10-11 (discussing the
overwhelming analogy of Fraternal Order to this case)). Here, Appellant proposes that
the Court enjoin Defendants from disciplining or otherwise disadvantaging
Appellant for his free exercise, such as for violating their May 12, 2021 policy
(Compl. D at 2-3), which categorically discriminates against religion. The precise
parallel to the relief granted in Fraternal Order is crystal clear. And Appellant—
consistent with his desire not to impose hardship on Defendants and for the sake of
clarity—added in the relief proposed below and proposes now that the Court would
“not” be enjoining “anything else, including disciplining Appellant or any employee
for any act or omission inconsistent with any job duty, obligation, rule, or
responsibility.” (See D.E. No. 8-5).
The requested relief would not only be clear and substantially identical to that
granted in Fraternal Order-. Defendants would already know exactly what it entails
because it would preserve the status quo of when the original motion was filed, under
which Appellant was permitted to work from home for secular reasons and, in Defendants’
words, to be physically present “based on the needs of the office.” (Compl. Ex. D at 2).

29
- App. 211 -

Case: 21-2684

Document: 3

Page: 30

Date Filed: 09/14/2021

CERTIFICATE OF SERVICE
Alex G. Leone hereby certifies that this brief is served electronically on the defendants
in this matter and their counsel on September 14, 2021. See L. Civ. R. 5.2, Section
14(b)(1).

/s/Alex G. Leone
Alex G. Leone
P.O. Box 1274
Maplewood, New Jersey 07040
aleone@jdl6.law.harvard.edu

30
- App. 212 -

Case: 21-2684

Document: 7-1

Page: 1

Date Filed: 09/20/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Case No. 21-cv-12786

ALEX G. LEONE,
Appellant
-vESSEX COUNTY PROSECUTOR’S OFFICE, THEODORE STEPHENS II,
ROMESH SUKHDEO, GWENDOLYN WILLIAMS, and ROGER IMHOF ,
Appellees.
On Appeal from the United States District Court of the District of New Jersey
Docket No. 2:21-cv-12786-SDW-ESK
APPELLEE’S BRIEF IN OPPOSITION TO APPELLANT’S MOTION FOR
PRELIMINARY INJUNCTION

Of Counsel and on the brief:
Kathleen Barnett Einhom, Esq.
Erica M. Clifford, Esq.

Kathleen Barnett Einhom, Esq.
Erica M. Clifford, Esq.
GENOVA BURNS LLC
494 Broad Street
Newark, New Jersey 07102
(973)533-0777
Attorneys for Appellee/Defendants, Essex
County Prosecutor’s Office, Theodore
Stephens 11, Romesh Sukhdeo, Gwendolyn
Williams, and Roger Imhof

On the Brief:
Erica M. Clifford, Esq.
- App. 213 -

1 of 35

Case: 21-2684

Document: 7-1

Page: 2

Date Filed: 09/20/2021

TABLE OF CONTENTS
TABLE OF AUTHORITIES

li

SUBJECT MATTER AND APPELLATE JURISDICTION

1

ISSUES ON APPEAL

1

PROCEDURAL HISTORY

1

STATEMENT OF FACTS

2

LEGAL ARGUMENT

5

I. STANDARD OF REVIEW

5

II. THE DISTRICT COURT CORRECTLY DETERMINED THAT APPELLANT
COULD NOT DEMONSTRATE THAT HE WAS LIKELY TO PREVAIL ON
THE MERITS
6
A. Appellant Cannot Establish that Defendants’ Policy Violates his First
Amendment Rights...........................................................................

7

B. Plaintiff Cannot Establish that He is Likely to Prevail on the Merits of His
New Jersey Law Against Discrimination Claim
15
III. THE DISTRICT COURT CORRECTLY FOUND THAT APPELLANT
COULD NOT DEMONSTRATE IRREPARABLE HARM.........................

,21

IV. BALANCING OF THE EQUITIES AND PUBLIC INTEREST FACTORS
ALSO WEIGH IN FAVOR OF DENIAL OF PLAINTIFF’S MOTION........... ,24
CONCLUSION

26

i

- App. 214 -

2 of 35

Case: 21-2684

Document: 7-1

Page: 3

Date Filed: 09/20/2021

TABLE OF AUTHORITIES
Cases
Miller v. Port Auth. of New York & New Jersey,
788 F. App'x 886 (3d Cir. 2019)
Reilly v. City of Harrisburg,
858 F.3d 173 (3d Cir. 2017)
431 E. Palisade Ave. Real Est., LLC v. City of Englewood,
977 F.3d 277 (3d Cir. 2020)
Ansonia Bd. of Educ. V. Philbrook,
479 U.S. 60(1986)
Blackhawk v. Pennsylvania,
381 F.3d 202 (3d Cir. 2004)

17, 18, 19,21

,25

6

18

8

Bradley v. Pittsburgh Bd. of Ed.,
913 F.2d 1064 (3d Cir. 1990)..

16

Brown v. City of Pittsburgh,
586 F.3d 263 (3d Cir. 2009)

14

Cate v. Oldham,
707 F.2d 1176 (11th Cir. 1983)

.21

Chrysler Corp. v. Mann,
561 F.2d 1282, 1285 (8th Cir. 1977.)

19

City of Los Angeles v. Lyons.
461 U.S. 95, 112-13 (1983)

,22

Combs v. Homer-Center Sch. Dist..
540 F.3d 231, 242 (3d Cir. 2008)

8

Fraternal Ord. of Police Newark Lodge No. 12 v. City of Newark. 170 F.3d 359,
365 (3d Cir. 1999)
10, 13

- App. 215 -

3 of 35

Case: 21-2684

Document: 7-1

Page: 4

Date Filed: 09/20/2021

Fulton v City of Philadelphia,
141 S. Ct. 1868, 1882 (2021)

12, 13

Hilton v. Braunskill,
481 U.S. 770(1987)

5

Hohe v. Casey,
868 F.2d 69, 72-73 (3d Cir. 1989)

,21

In re Revel AC, Inc.,
802 F.3d 558 (3d Cir. 2015)

6

Instant Air Freight Co. v. C.F. Air Freight, Inc.,
882 F.2d 797, 800 (3d Cir. 1989)

,22

Lighthouse Inst, for Evangelism, Inc, v. City of Long Branch,
510 F.3d 253 (3d Cir. 2007)

7

McTeman v. City of York,
564 F.3d 636 (3d Cir. 2009)

7

Roman Cath. Diocese of Brooklyn v. Cuomo.
141 S. Ct. 63, 66 (2020)

14

Shelton v. Univ. of Med. & Dentistry of New Jersey,
223 F.3d 220, 225 (3d Cir. 2000)

19

Tandon v Newsom,
141 S. Ct. 1294, 1297 (2021)

10, 11, 12

Tenafly Eruv Ass'n v. Tenafly,
309 F.3d 144, 165 n. 24 (3d Cir. 2002)

8

Winter v. NRDC,
555 U.S. 7 (2008)

5

Wooley v. Maynard,
430 U.S. 705 (1977)

21

iii
- App. 216 -

4 of 35

Case: 21-2684

Document: 7-1

Page: 5

Date Filed: 09/20/2021

STATUTES
N.J.S.A. 10:5-12 (q)(l)

5

N.J.S.A. 10:5-12(q)(l)

15

OTHER AUTHORITIES
28 USC § 1292(a)(1)

1

42 U.S.C. §1983

1

42 U.S.C. 1983

7

IV

- App. 217 -

5 of 35

Case: 21-2684

Document: 7-1

Page: 6

Date Filed: 09/20/2021

SUBJECT MATTER AND APPELLATE JURISDICTION
This Court has jurisdiction over the appeal and instant motion pursuant to 28
USC § 1292(a)(1).
ISSUES ON APPEAL
Alex G. Leone appealed the September 7, 2021 decision of the Honorable
Susan D. Wigenton, U.S.D J. denying his motion for injunctive relief in the form of
enjoining Defendants Essex County Prosecutor’s Office, Theodore Stephens II,
Romesh Sukhdeo, Gwendolyn Williams and Roger Imhof (“ECPO Defendants”)
from “disciplining or otherwise disadvantaging Plaintiff simply for praying in
accordance with his religion, including at home on work days.” See D.E. Nos. 8-5,
18.
PROCEDURAL HISTORY
Appellant filed a two-count Complaint in the Federal District Court for the
District of New Jersey on June 18, 2021. See D.E. No. 1. The First Count alleged
a “Violation of the Right to Free Exercise (42 U.S.C. §1983),” and the Second
Count alleged a “Violation of the NJLAD.” Id.
On July 30, 2021 Appellant filed a Motion seeking a Preliminary Injunction
enjoining Defendants from “disciplining or otherwise disadvantaging Plaintiff
simply for praying in accordance with his religion, including at home on work
days.” D.E. No. 8. The ECPO Defendants opposed the motion on August 24,
2021, and filed an Answer to the Complaint on August 31, 2021. See D.E. No.
1

- App. 218 -

6 of 35

Case: 21-2684

Document: 7-1

Page: 7

Date Filed: 09/20/2021

11; see also D.E. No. 14. Appellant filed a Reply in support of his application on
August 31, 2021, and oral argument was held before the Honorable Susan D.
Wigenton, U.S.D.J. on September 7, 2021. See D.E. No. 13; see also D.E. No.
17. On September 7, 2021, the Court entered an Order denying Appellant’s request
for a Preliminary Injunction. See D.E. No. 18.
Appellant filed a Notice of Appeal with this Court on September 7, 2021.
See Third Cir. D.E. No. 1. Appellant also filed a second Motion for Preliminary
Injunction with the District Court on September 7, 2021, pending the results of the
Appeal. See D.E. No. 20. On September 14, 2021, Appellant filed a Motion for
Emergency Injunction with the Third Circuit. See Third Cir. D.E. No. 3.
On September 16, 2021, the ECPO Defendants filed an Opposition to
Appellant’s second Motion for a Preliminary Injunction in the District Court. See
D.E. No. 25. Appellant filed his Reply brief in support of this District Court
motion on September 16, 2021. See D.E. No. 26.
STATEMENT OF FACTS
Appellant was hired as an Assistant Prosecutor by Defendant ECPO on
September 9, 2019. See D.E. No. 11, Exh. B at ]f2. From his hire until the end of
March 2020, Appellant worked in the office every day along with the rest of the
ECPO workforce. Id. at |3. In March 2020, in response to the global COVID-19
pandemic, the ECPO shifted to a predominately remote work schedule to stem the

2
- App. 219 -

7 of 35

Case: 21-2684

Document: 7-1

Page: 8

Date Filed: 09/20/2021

spread of the vims that had inundated hospitals and severely impacted New Jersey
in particular. Id
On April 26, 2021, Appellant submitted his request for a religious
accommodation, statipg that he has a “spiritual need to pray in peace and solitude,
such as in [his] backyard, several times throughout the day.” See D.E. No. 1, Exh.
A. As a result, Appellant requested to work from home (permanently) and would
only be physically present at the office or court “when reasonably necessary” or
“when accommodating this religious need would cause undue hardship.” Id.
On May 6, 2021, Chief Assistant Prosecutor Roger Imhof (“Imhof’),
Executive Assistant Prosecutor Gwendolyn Williams, Deputy Chief Prosecutor
Walter Dirkin and Essex County Counsel Courtney Gaccione met with Appellant
over videoconference to discuss his request. See D.E. No. 1, Exh. D; D.E. No. 11,
Exh. B at |7. During this conference, it was explained to Appellant that:
as a new attorney with the Prosecutor’s Office, his
presence in the office was necessary to his growth and
development as a trial lawyer - to observe colleagues at
other trials, and to collaborate and strategize with
colleagues in the office regarding investigations, witness
and victim interviews, case presentations to grand juries,
among other responsibilities of an Assistant Prosecutor.
D.E. No. 11, Exh. B at ^[8.
On May 12, 2021, Defendant Imhof issued a memorandum in response to
Appellant’s request, which in part memorialized the discussion with Appellant

3

- App. 220 -

8 of 35

Case: 21-2684

Document: 7-1

Page: 9

Date Filed: 09/20/2021

during the May 6 conference. See D.E. No. 1, Ex. D.
In the memorandum, Defendant Imhof recounted Appellant’s reasoning for
the need for the accommodation stating that: praying in the office made him feel
uncomfortable; it was “contrary to the peace and solitude” that he desired; and that
he did not want to be overheard by others. Id. To accommodate this request, the
ECPO proposed three alternatives tailored to Appellant’s specific concerns, that
Appellant be permitted: (1) to pray in his private office; (2) to access the Essex
County Eagle Rock Reservation directly across from his worksite; and (3) to utilize
a completely private soundproof interview room in the same office. See D.E. 1, Exh.
D. When asked if prayer at the park across the street from the office was an
acceptable alternative, Appellant told the ECPO that it was not, as it would “curtail
the spontaneous nature of [his] prayer and subject [him] to being heard or seen by
others.” See D.E. No. 1, Exh. E. Appellant stated that praying in the office with his
door closed for privacy would occasionally be a viable option, but doing so every
day would not be conducive to the peace and solitude that he needs and would
subject him to the possibility for interruption or being overheard. Id.
Imhof responded that Appellant’s in-office presence was important for
multiple reasons. For example, meetings are not always prescheduled, as emergent
matters often arise, and require the presence of attorneys, as do in-person witness
interviews; the collaborative nature of the work would result in a loss of

4

- App. 221 -

9 of 35

Case: 21-2684

Document: 7-1

Page: 10

Date Filed: 09/20/2021

effectiveness if not done in-person; and Imhof anticipated a surge of new matters as
the State attempts a return to normalcy, which would make remote work insufficient.
See D.E. No. 11, Exh. D. Moreover, the New Jersey Supreme Court, by Order dated
May 11, 2021, indicated that in-person jury trials would resume on June 15, 2021,
thus further support for the ECPO’s need to return to the office. See D.E. No. 11,
Exh. A. As a result, Imhof stated that allowing Appellant to permanently work from
home would constitute an unreasonable interference with the efficient operation of
the workplace, pursuant to N.J.S.A. 10:5-12 (q)(l). IdOn June 1, 2021, Appellant submitted a memorandum in response to Imhof s,
rejecting each of the three proposed accommodations. See D.E. No. 1, Exh. E. On
July 26, 2021, all ECPO employees were notified that they were required to return
to work full time as of Monday, August 2, 2021. See D.E. 11, Exh. G.
LEGAL ARGUMENT
L
STANDARD OF REVIEW
Injunctions pending appeal are “extraordinary remed[ies] never awarded as of
right.” Winter v. NRDC, 555 U.S. 7, 24 (2008). To prevail on a motion for an
injunction pending appeal, Appellant must show both (1) a “strong” likelihood of
success on the merits and (2) irreparable injury in the absence of an
injunction. Hilton v. Braunskill, 481 U.S. 770, 776 (1987). The first two elements in
the preliminary injunction analysis are “the most critical,” Nken v. Holder. 556 U.S.
5
- App. 222 -

10 of 35

Case: 21-2684

Document: 7-1

Page: 11

Date Filed: 09/20/2021

418,434 (2009), though the appellate court will also (3) balance the parties’ interests
in analyzing whether an injunction will injure other interested parties, as well as
examine (4) the public interest. In re Revel AC, Inc., 802 F.3d 558, 568-71 (3d Cir.
2015). Here, none of the four factors in this analysis favors taking this extraordinary
step under these circumstances.
The Court of Appeals will review the District Court’s grant or denial of
a preliminary injunction for ‘an abuse of discretion, an error of law, or a clear
mistake in the consideration of proof.’” 431 E. Palisade Ave. Real Est., LLC v. City
of Englewood. 977 F.3d 277, 283 (3d Cir. 2020).
Here, the factual record is not in dispute, though the parties’ characterization
of the proofs differ - the ECPO Defendants will elaborate on Appellant’s
mischaracterizations of statements made by Defendants at greater length below.
Following extensive briefing and oral argument, the District Court held that
Appellant failed to demonstrate the requisite criteria to warrant injunctive relief
and denied Appellant’s motion. Judge Wigenton did not abuse her discretion or
make a clear error of law in rendering her September 7 decision. Respectfully, this
Court should deny Appellant’s Motion for an Injunction Pending Appeal.
II.
THE
DISTRICT
COURT
CORRECTLY
DETERMINED THAT APPELLANT COULD NOT
DEMONSTRATE THAT HE WAS LIKELY TO
PREVAIL ON THE MERITS
6
- App. 223 -

11 of 35

Case: 21-2684

Document: 7-1

Page: 12

Date Filed: 09/20/2021

Judge Wigenton properly determined that Appellant had not met his burden
in establishing that he was likely to prevail on the merits of his claims and therefore
he was not entitled to the emergent relief requested in his motion for a preliminary
injunction.
A. Appellant Cannot Establish that Defendants’ Policy Violates his First
Amendment Rights
In the first count of his Complaint, Appellant asserts a claim under 42 U.S.C.
1983, which allows suits against state actors for claims of constitutional violations.
See D.E. 1, PI. Compl.,

83-86. Appellant alleges that the ECPO Defendants

violated his First Amendment right to freely exercise his religion because he is not
allowed to work from home. Id^ | 13, 84. The Free Exercise Clause prohibits the
regulation of religious beliefs and also protects religiously motivated expression. See
McTeman v. City of York, 564 F.3d 636, 647 (3d Cir. 2009). That said, no right,
including the right vested under the Free Exercise Clause, is absolute. Id.
When the government action challenged on constitutional grounds is “neutral
and generally applicable” the government need not justify the policy with a
compelling governmental interest as would be required under the strict scrutiny
standard. Lighthouse Inst, for Evangelism. Inc, v. City of Long Branch. 510 F.3d
253, 273 (3d Cir. 2007).

7
- App. 224 -

12 of 35

Case: 21-2684

Document: 7-1

Page: 13

Date Filed: 09/20/2021

“A [state action] is ‘neutral’ if it does not target religiously motivated
conduct....” Blackhawk v. Pennsylvania, 381 F.3d 202, 209 (3d Cir. 2004). It is
“generally applicable” if it extends to all conduct and does not selectively burden
religiously motivated conduct. See Combs v. Homer-Center Sch. Dist., 540 F.3d
231, 242 (3d Cir. 2008) (citing Blackhawk. 381 F.3d at 209)). Rational basis review
applies to actions that are deemed neutral and generally applicable, and this standard
“requires merely that the action be rationally related to a legitimate government
objective.” Tenafly Eruv Ass'n v. Tenafly, 309 F.3d 144, 165 n. 24 (3d Cir. 2002).
In his supporting brief to this motion, Appellant repeatedly refers to
Defendant Imhof s May 12, 2021 memorandum as the government “policy” that he
challenges as unconstitutional.1 See Appellant Br. at 5, 12-13; See also Addendum,
D.E. No. 1, Exh. D.2 This memorandum was an individualized response to
Appellant’s individualized request for an accommodation.

In it, the ECPO

Defendants offer several tailored accommodations to Appellant, all of which he
summarily rejected. See D.E. No. 1, Exh. E.

1 Further, Appellant mischaracterizes the contents of this memorandum, repeatedly
stating that Defendant Imhoff said that religion can never justify working from
home, which is nowhere in the language of the memorandum. Appellant’s request
to work from home indefinitely unless required to be in court or at interviews is the
specific accommodation that was denied, at the same time workable alternatives
were offered to, and rejected by, Appellant.
2 For consistency purposes, Appellees will follow Appellant’s citations to the lower
court docket number and addendum.
8

- App. 225 -

13 of 35

Case: 21-2684

Document: 7-1

Page: 14

Date Filed: 09/20/2021

The policy that was the impetus for Appellant’s first motion for a preliminary
injunction in the District Court was ECPO’s return to work policy implemented for
all employees as of August 2,2021. See D.E. No. 8-4. This policy is facially neutral
and generally applicable to all ECPO employees and is thus subject to rational basis
standard of constitutional review. There is no categorical secular exemption for any
group of people; this is a policy that is applied generally to every employee of the
Prosecutor’s Office and is neutral on its face.
Plaintiff cites to several United States Supreme Court and Third Circuit cases
in attempts to support his conclusory position that Defendant ECPO’s requirement
that employees report full time to work is discriminatory on its face, without
acknowledging that the facts presented in those cases are plainly distinguishable
from the case at bar.
The facts presented in the instant matter begin with a global pandemic that
resulted in all but essential businesses being shuttered, families and individuals
sheltering in place, and the near standstill of this country and particularly this State,
as federal and state mandates and executive orders sought to stem the spread of the
deadly COVID-19 virus. Appellant points to the ECPO’s temporary remote work
environment, in line with most government agencies and businesses in the state, as
“create[ing] a mechanism for individualized exemptions” and/or a “categorical
exemption for individuals with a secular objection but not for individuals with a

9
- App. 226 -

14 of 35

Case: 21-2684

Document: 7-1

Page: 15

Date Filed: 09/20/2021

religious objection” of the type that warranted strict scrutiny in Tandon v Newsom
and Fraternal Order of Police. See Appellant’s Br. at 14, n. 8 and 16. Those
decisions are easily distinguishable from Appellant’s claims.
In Tandom v Newsom, the Supreme Court found that the California State
Blueprint System, which prohibited social gatherings greater than three households
in number for religious services in some counties, but did not implement a similar
across-the-board prohibition for secular establishments and activities such as retail
stores, hair salons, movie theaters and restaurants, did not pass constitutional muster.
Tandon v. Newsom, 141 S. Ct. 1294, 1297 (2021).
The Supreme Court, in applying strict scrutiny and finding that the state
regulation did not overcome this standard, found that “it is no answer that a State
treats some comparable secular businesses or other activities as poorly as or even
less favorably than the religious exercise at issue.” Id at 1296. The Court found that
whenever a government regulation “treats any comparable secular activity more
favorably than religious exercise” strict scrutiny is triggered. Id. (emphasis added.)
The second part of the test examined the comparability analysis, which in this
context was “concerned with the risks various activities posed, not the reasons why
people gather.” Id In Tandon, the same risks were at issue and thus the activities
were deemed comparable. Once deemed comparable, the restriction could not
unfairly burden the religious activity. The Supreme Court found that because the

10
- App. 227 -

15 of 35

Case: 21-2684

Document: 7-1

Page: 16

Date Filed: 09/20/2021

Ninth Circuit did not conclude that gatherings at the secular businesses posed a lesser
risk of transmission than the plaintiffs’ proposed religious exercise at home, there
was no compelling interest that would justify the differential treatment and the
restriction was not narrowly tailored, thus the government could not surmount the
strict scrutiny inquiry. Id. at 1297.
Here, we are not dealing with comparators. The ECPO temporarily had its
employees work from home during the pandemic, as all but essential businesses did,
in compliance with federal and state mandate and executive orders in response to the
Covid-19 outbreak. Now, as courts are reopening and many employees are
vaccinated and back to work, all ECPO employees must return to work. All of them.
With no exceptions, secular or otherwise. There are no “comparable risks” to analyze
in the instant case and there is no “formal mechanism for exemptions” at the ECPO.
The abrupt shutdown and temporary remote work schedule in response to a global
pandemic does not establish that the ECPO had a mechanism in place for secular
exemptions for the requirement that their employees work in the office and in court.
The Tandon Court underscored California’s differential treatment of
comparable activities in its conclusion:
It is unsurprising that such litigants are entitled to relief.
California's Blueprint System contains myriad
exceptions and accommodations for comparable
activities, thus requiring the application of strict
scrutiny.

11
- App. 228 -

16 of 35

Case: 21-2684

Document: 7-1

Page: 17

Date Filed: 09/20/2021

Id. at 1298 (emphasis added.)
There are no such “myriad exceptions and accommodations” for other
individuals or group of employees in the ECPO. There are zero exceptions to the
August 2 return to work policy, and Appellant does not point to any such
exemptions. See OA Tr. 26:12-14. Nor is there a formal mechanism for providing
such exemptions, as Appellant argues. See Appellant Br. at 16. There was never any
formal mechanism by which exemptions were made for secular reasons and thus the
heightened level of scrutiny applied, and the ultimate holdings of the Tandon, supra.
and Fulton, Fraternal Order, and Roman Catholic Diocese, infra, have no bearing on
this case.
Despite the clear difference in the arbitrary restriction in Tandon as compared
to the ECPO’s policy that all employees return to work, Appellant cites to Tandon
to support the position that even when the government withdraws its policy that
burdens free exercise, he “remains under constant threat” that the government will
use its “power to reinstate the challenged restriction...” See Appellant Br. at 17. The
Tandon Court specifically noted that California officials have “a track record of
‘moving the goalposts. . . .’” (Id. at 1297) and it is not clear what restriction in the
instant matter that Appellant fears will be reinstated. The ECPO policy requires its
employees to return to work and Appellant is not being treated differently in that
respect than any other employee, or category of employees.

12
- App. 229 -

17 of 35

Case: 21-2684

Document: 7-1

Page: 18

Date Filed: 09/20/2021

The circumstances of this case can also be distinguished from the other
Supreme Court and Third Circuit cases cited to by Plaintiff. In Fulton v City of
Philadelphia, the Supreme Court held that “the refusal of Philadelphia to contract
with [Catholic Social Services] for the provision of foster care services unless it
agrees to certify same-sex couples as foster parents” triggered strict scrutiny
standard of review which the City could not overcome. Fulton v. City of
Philadelphia, Pennsylvania, 141 S. Ct. 1868, 1882 (2021). The Fulton Court found
that the City, in its standard foster care contract, had a provision that “incorporates
a system of individual exemptions, made available in this case at the ‘sole discretion
of the Commissioner” and thus it could not justify the refusal to provide an
exemption to others from certain contract provisions to the CSS. Fulton v. City of
Philadelphia, Pennsylvania, 141 S. Ct. 1868, 1878 (2021).
In Fraternal Order of Police, the Court found that the Newark Police
Department's individualized medical exemptions provided to some officers which
permitted them to circumvent its no-beard policy, while refusing religious
exemptions from the same requirement, triggered strict scrutiny. Fraternal Ord. of
Police Newark Lodge No. 12 v. City of Newark, 170 F.3d 359, 365 (3d Cir. 1999).
Finally, in Roman Catholic Diocese, the Supreme Court found that New
York’s restriction of a maximum of ten people to attend religious services in areas
designated as “red zones” was not constitutionally permissible because “[i]n a red

13
- App. 230 -

18 of 35

Case: 21-2684

Document: 7-1

Page: 19

Date Filed: 09/20/2021

zone, while a synagogue or church may not admit more than 10 persons, businesses
categorized as ‘essential may admit as many people as they wish. And the list of
‘essential’ businesses includes things such as acupuncture facilities, camp grounds,
garages, as well as many whose services are not limited to those that can be regarded
as essential, such as all plants manufacturing chemicals and microelectronics and all
transportation facilities.” Roman Cath. Diocese of Brooklyn v. Cuomo, 141 S. Ct.
63, 66 (2020).
The clear distinctive treatment between secular and religious activities is
apparent from the facts of all of these decisions which triggered strict scrutiny
review, and completely absent from the facts at bar. The ECPO policy applies to
each and every one of its employees across the board, with zero exemptions for any
reason. See D.E. No. 11-3, Imhof Cert., TJ5.
The policy clearly satisfies the rational-basis standard of review requiring that
the policy be rationally related to a legitimate government objective. Brown v. City
of Pittsburgh, 586 F.3d 263, 284 (3d Cir. 2009). As Judge Wigenton recognized, the
ECPO is a critical law enforcement agency in one of the most populated and busiest
counties in the state. See OA Tr., 24:13-17. As the Courts have reopened and
criminal trials have resumed, the influx of complaints and investigations have
increased, and it is essential that the employees of the Prosecutor’s Office and its
attorneys be in the office and in court on a full time basis. Collaboration and

14
- App. 231 -

19 of 35

Case: 21-2684

Document: 7-1

Page: 20

Date Filed: 09/20/2021

observation of colleagues during witness and victim interviews, grand jury
presentations and trials, are among an Assistant Prosecutor’s most critical tasks, and
it is essential that newer attorneys gain experience and guidance from their more
experienced colleagues that remote work does not offer. See D.E. No. 11-3, ^|8; D.E.
No. 1, Exh. D, pp. 2-3.
Accordingly, the neutral, generally applicable policy of the ECPO that
requires its employees to appear in the office and at trial on a full time basis is
rationally related to a legitimate government objective and therefore satisfies the
rational-basis standard of review. Plaintiff is not entitled to a preliminary injunction
because he cannot establish that he is likely to succeed on the merits of his First
Amendment claim.
B. Plaintiff Cannot Establish that He is Likely to Prevail on the Merits
of His New Jersey Law Against Discrimination Claim
The NJLAD prohibits employers from imposing a condition that “would
require a person to violate or forego a sincerely held religious practice or
observance” unless, “after engaging in bona fide effort, the employer demonstrates
that it is unable to reasonably accommodate the employee's religious observance or
practice

without

undue

hardship

on

the

conduct

of the

employer's

business.” NJJvA. 10:5-12(q)(l).
It is undisputed from the record that the ECPO Defendants have not told
Appellant that he must forego his prayer practice while at work, as Appellant alleges,
15
- App. 232 -

20 of 35

Case: 21-2684

Document: 7-1

Page: 21

Date Filed: 09/20/2021

and it is also undisputed that his supervisors engaged in a bona fide effort to
accommodate Appellant. They scheduled a conference with him to further discuss
the basis for his requests, and issued a written memorandum offering several
reasonable alternatives to accommodate Appellant’s prayer practice at work. See
D.E. No. 1, Exh. D. Finally, the ECPO also explained why the all-or-nothing
arrangement proposed by Appellant would pose an undue hardship on the operations
of the Prosecutor’s Office and on Appellant’s growth and development as a County
Assistant Prosecutor. This is not at all the case where an employee requested an
accommodation and was met with silence, such that a failure to accommodate would
be presumed. Appellant simply cannot show that he would prevail on the merits of
his LAD claim and thus his motion for a preliminary injunction was denied.
Because Appellant continues to state that he is not required to offer any
response to the offered accommodations and argues that it is the ECPO Defendants’
legal obligation to provide him with the specific accommodation he seeks and
nothing short of it because anything less will infringe upon his rights, Appellees will
briefly recount the analysis that courts use when examining Title VII failure to
accommodate claims. Appellant could have asserted federal claims for failure to
accommodate religious practices under either the 1983 framework or pursuant to
Title VII or both. Bradley v. Pittsburgh Bd. of Ed., 913 F.2d 1064, 1078-79 (3d Cir.
1990). Appellant chose to file under Section 1983 and allege an infringement of free

16
- App. 233 -

21 of 35

Case: 21-2684

Document: 7-1

Page: 22

Date Filed: 09/20/2021

exercise, possibly to avoid the administrative prerequisite of filing an EEOC
complaint before filing suit. The Title VII rubric appears best suited to Appellant’s
failure to accommodate claim based upon religion, and is included in this analysis
because it also closely tracks the analysis under the NJLAD.
In a fairly recent Third Circuit decision. Miller v. Port Auth. of New York &
New Jersey, 788 F. App'x 886, 889 (3d Cir. 2019), the Court examined somewhat
analogous facts to those at bar. The plaintiff worked in the mechanical maintenance
unit of the Port Authority, and a few days after he was hired, he requested that he be
taken off rotational shifts that required him to work on the Sabbath (Friday evening
to Saturday evening shifts) and Jewish holidays. Id at 887. His employer stated that
they could not alter the employee schedules because they were negotiated as part of
a collective bargaining agreement. Id Instead, they offered Miller the option to swap
shifts with co-workers, and told him that he could use vacation, personal excused
time, or compensatory time. Id at 887-88. Miller disputed the offered
accommodations as unreasonable, used only personal time on those shifts he said he
could not work, and when that leave was exhausted, he failed to show up at work
and was terminated. Id. at 888.
The Court of Appeals determined that an employee’s “general dissatisfaction
with its employer’s efforts to facilitate an accommodation” did not create a factual
dispute as to whether the accommodation was reasonable. Id. at 890. It found that

17
- App. 234 -

22 of 35

Case: 21-2684

Document: 7-1

Page: 23

Date Filed: 09/20/2021

the Port Authority’s offer to accommodate Miller’s religious practices by allowing
him to use paid time off and to utilize voluntary mutual swaps with other co-workers
was a good faith effort and the accommodation offered was deemed reasonable by
the Court. Id. at 889. The Third Circuit affirmed the decision of the District Court,
and adopted the lower court’s reasoning.
The District Court held that the Port Authority was not required “to
accommodate the religious practices of an employee in exactly the way the employee
would like to be accommodated” and “[w]here both the employee and the employer
propose an accommodation, the employer does not have to accept the employee’s
proposal.” Miller v. Port Auth. of New York and New Jersey, 351 F.Supp.3d 762,
779 (D.N.J. 2018) (quoting Ansonia Bd. of Educ. V. Philbrook, 479 U.S. 60, 68
(1986)(“any reasonable accommodation by the employer is sufficient to meet its
accommodation obligation.”).
The Miller Court did not agree with the employee’s blanket statement that
anything other than the grant of his specific request was not an accommodation, and
cautioned that “the employee therefore cannot make an all-or-nothing demand, but
must work with an employer that is attempting to offer an accommodation:
An employee cannot shirk his duties to try to
accommodate himself or to cooperate with his employer
in reaching an accommodation by a mere recalcitrant
citation of religious precepts. Nor can he thereby shift all
responsibility for accommodation to his employer. Where
an employee refuses to attempt to accommodate his own
18
- App. 235 -

23 of 35

Case: 21-2684

Document: 7-1

Page: 24

Date Filed: 09/20/2021

beliefs or to cooperate with his employer’s attempt to
reach a reasonable accommodation, he may render an
accommodation impossible.
Id. (quoting Chrysler Corn, v. Mann. 561 F.2d 1282, 1285 (8th Cir. 1977.)
The

Supreme

Court

has

established

that

“a

sufficient

religious

accommodation need not be the ‘most’ reasonable one (in the employee's view), it
need not be the one the employee suggests or prefers, and it need not be the one that
least burdens the employee.” Shelton v. Univ. of Med. & Dentistry of New Jersey,
223 F.3d 220, 225 (3d Cir. 2000)(citing to Philbrook, supra, 479 U.S. at 68-69, 107
S.Ct. 367. Simply put, when the employer offers any reasonable accommodation,
“the statutory inquiry is at an end.” Philbrook, at 68.
Appellant falsely claims that “Defendants asserted that they cannot
accommodate Appellant’s religious practice at all, ever. . . .” See Appellant Br. at
23, n. 14. Like the plaintiff in Miller, this is not an accurate summary of the record
because in fact, Appellant has been offered several reasonable accommodations.
Elsewhere in his brief, Appellant again falsely claims that “Defendants, nonetheless,
categorically denied Appellant’s request for a religious accommodation, thus
singling out religion as never worthy of accommodation at all - putting Appellant to
the choice of forgoing his prayer practice or being disciplined by his employer. . . .”
See Appellant Br. at 6.

19
- App. 236 -

24 of 35

Case: 21-2684

Document: 7-1

Page: 25

Date Filed: 09/20/2021

The ECPO Defendants are not prohibiting Appellant’s prayer practice. The
ECPO has offered several alternatives that reflect workable compromises and
Appellant has rejected all of them out of hand. See D.E. No. 1, Exhs. D-E. Appellant
has not been told that he can only pray at “X” time, or only in “X” place, nor has he
been told that he cannot pray in the office in any manner at all. See D.E. No. 1, Exh.
D, p. 3. However, Appellant only wants to pray at home and if he cannot be home,
he cannot pray. This is Appellant’s ultimatum, not ECPO’s.
It is undisputed that Appellant was offered private work environments where
he can pray in solitude - he has his own private office where he can close the door,
alternatively, he was offered a soundproof interview room in the same office that
would ensure that colleagues would not hear him when he sought refuge to pray out
loud. When Appellant relayed that he also needed to be outside, to connect with
nature and perceive the handiwork of the Creator such as by looking up at the sky
rSee D.E. No. 1,21; See also OA Tr. 13:11 -19] his supervisors advised that he was
welcome to walk across the street from his office to a 400 acre forest reserve and
recreational park set into the Watching Mountains, the Eagle Rock Reservation, for
moments when he needed to pray and be outside and in nature when doing so. Id.
The alternatives offered by the ECPO were tailored to the stated reasons for
Appellant’s request that his prayer practice be accommodated.

20

- App. 237 -

25 of 35

Case: 21-2684

Document: 7-1

Page: 26

Date Filed: 09/20/2021

In light of the repeated communications, meetings and alternative
accommodations offered to Plaintiff, it cannot be said that Defendants did not put
forth a bona fide effort in attempts to accommodate Plaintiff, nor can it be argued
that Defendants are requiring him to entirely forego his prayer practice. As held in
Miller, supra, it is not the ECPO Defendants’ obligation to accept the exact terms of
employment dictated by Appellant in his accommodation proposal. What Appellant
is arguing is that the proposed alternatives are not good enough. That does not make
him likely to prevail on the merits of his claim, and Appellant’s motion must be
denied.
III.
THE DISTRICT COURT CORRECTLY FOUND
THAT
APPELLANT
COULD
NOT
DEMONSTRATE IRREPARABLE HARM
“[T]he assertion of First Amendment rights does not automatically require a
finding of irreparable injury, thus entitling a plaintiff to a preliminary injunction if
he shows a likelihood of success on the merits.” Hohe v. Casey, 868 F.2d 69, 7273 (3d Cir. 1989). “[I]t is the “direct penalization, as opposed to incidental inhibition,
of First Amendment rights [which] constitutes irreparable injury.” Id. (quoting Cate
v. Oldham. 707 F.2d 1176,1188 (11th Cir. 1983); See Woolev v. Maynard. 430U.S.
705

(1977).

Constitutional harm is not necessarily synonymous with

the irreparable harm necessary for issuance of a preliminary injunction. Id. (citing

21
- App. 238 -

26 of 35

Case: 21-2684

Document: 7-1

Page: 27

Date Filed: 09/20/2021

to City of Los Angeles v. Lyons. 461 U.S. 95, 112-13 (1983). “[A] failure to
demonstrate irreparable injury must necessarily result in the denial of
a preliminary injunction.” Instant Air Freight Co. v. C.F. Air Freight. Inc.. 882 F.2d
797, 800 (3d Cir. 1989).
Appellant claims that foregoing his prayer practice causes adverse spiritual,
psychological, and physical effects, but that statement relies on the faulty conclusion
that he is being required to forego his prayer practice by the ECPO, when he has not
demonstrated that he is forbidden from prayer when required to appear at work. The
ECPO return to work policy is not a “direct penalization” of Appellant’s religious
practice, but rather represents an “incidental inhibition.”
By his own admission, Appellant is “fully willing to be physically present for
anything required by [his] job responsibilities - including, for instance, in-person
court appearances, witness interviews, or any other obligation.” See D.E. No. 8-2, |
9. He is therefore willing to be present in the office and in court when he deems it
necessary, and has never argued that he should be relieved of these duties, nor has
he argued he experiences irreparable harm when he is present on these days.
Judge Wigenton acknowledged that the demonstration of irreparable harm is
a heavy burden for the movant, and in the case of allegations of a constitutional
violation, if rights were truly being violated, the assumption of irreparable harm can
be automatic. However, the judge correctly noted the distinction in the facts of this

22

- App. 239 -

27 of 35

Case: 21-2684

Document: 7-1

Page: 28

Date Filed: 09/20/2021

case “when accommodations have certainly attempted to be made. See OA Tr.
26:17-23. The judge did not disregard any material facts of this case, she
acknowledged that because accommodations have been made it is not the case where
irreparable harm is presumed because free exercise of religion is completely
prohibited. As stated above, the hard line that if he is to pray, he cannot leave his
house - is Appellant’s ultimatum, not the ECPO’s.
In his brief, Appellant claims that Defendants’ “policy”
prevents Appellant, on fear of discipline from
Defendants, from engaging in his prayer practice during
every work day.
See Appellant Br. at 11.
It appears here that Appellant is stating that he does not pray because he fears
discipline from the ECPO Defendants. This is after the ECPO Defendants have
offered him several accommodations consisting of various tailored environments for
Appellant’s prayer practice. Clearly any alleged fear is a result of Appellant’s own
manufacture. Appellant reiterates that Defendants are “putting Appellant to a choice
‘between following the precepts of h[is] religion and forfeiting [work], on the one
hand, and abandoning one of the precepts of [his] religions in order to accept the
work, on the other hand. . . . “ See Appellant Br. at 11. No one has issued an

23

- App. 240 -

28 of 35

Case: 21-2684

Document: 7-1

Page: 29

Date Filed: 09/20/2021

ultimatum to Appellant demanding that he forfeit his work or abandon his religion.
These are scenarios imagined by Appellant.
When asked by Judge Wigenton the current status of employment and whether
Appellant goes into the office, Appellant responded:
So I do go into the office as a general matter. I use
accrued time, as I mentioned in a record exhibit and
mentioned in the briefing, that I do use some accrued
time in order to be able to pray, as I have described in
the papers.
See OATr. 11:2-10.
Appellant currently notifies his supervisor that he is taking every other day
off, which further weakens Plaintiffs claim that he suffers actual irreparable harm
when he is in the office, because there is no distinctive difference between coming in
on a Monday versus a Wednesday, and Plaintiff does not attempt to make such a
distinction in his brief or declarations. Plaintiff has failed to demonstrate that he will
suffer irreparable harm if the preliminary injunction is not granted at this stage, and
as such, the preliminary injunction should be denied.
IV.
BALANCING OF THE EQUITIES AND PUBLIC
INTEREST FACTORS ALSO WEIGH IN FAVOR
OF DENIAL OF PLAINTIFF’S MOTION
Though it is already clear that Appellant has not met the two most critical
prongs of the test pertaining to the grant of preliminary injunctions, a balancing of

24

- App. 241 -

29 of 35

Case: 21-2684

Document: 7-1

Page: 30

Date Filed: 09/20/2021

the equities and consideration of the public interest also makes it clear that
Appellant’s motion should be denied.
In weighing the equities, the court must “balance the competing claims of
injury and must consider the effect on each party of the granting or withholding of
the requested relief.” Reilly v. City of Harrisburg, 858 F.3d 173, 178 (3d Cir.
2017).
Appellant’s argument is that if this motion is denied, Appellant will “be
required to forego his prayer practice,” which causes his to suffer psychologically,
professionally, and physically. See D.E. No. 1, | 25. Appellant also acknowledges
that “forgoing his prayer practice is sometimes an unavoidable consequence of life.”
Id at ]f 26. The ECPO has offered several accommodations to Appellant that would
allow him to pray at work and not have to forgo his practice, which Appellant
concedes is sometimes unavoidable. Appellant has been told he can pray in his office
whenever needed throughout the workday, he can pray in a soundproof interview
room if he desired more privacy than a closed office. Alternatively, he is permitted
Plaintiff to leave the office and pray outside at the Eagle Rock Reservation, a 400acre property with multiple secluded areas. See D.E. No. 1, Exh. D, p. 3. These
accommodations directly touch upon the unique, specific criteria outlined by
Appellant and are designed to minimize any harm suffered by Appellant, who can
strike a balance between his work as an Assistant Prosecutor, and his private

25

- App. 242 -

30 of 35

Case: 21-2684

Document: 7-1

Page: 31

Date Filed: 09/20/2021

religious beliefs.
On the other hand, were the Court to grant Appellant’s motion, the Court
would be unduly interfering with the efficient operation of the busiest law
enforcement and prosecutorial county agency in the State. Now that in person
criminal trials have resumed and investigations have increased exponentially as the
State has reopened, to mandate that the ECPO carve out exceptions and permit its
Assistant Prosecutors to work remotely except when in their estimation their
appearance is warranted - is simply not feasible, and would in fact harm the public’s
interest.
While remote work may have been feasible on a temporary basis when courts
were closed, complaints and investigations slowed as citizens remained
predominately in their homes, now the County is in need of its trial lawyers to be
back in the office, collaborating with colleagues, attending ad hoc meetings and
court appearances as they arise, interviewing witnesses and victims, and responding
to the duties of the chief law enforcement officials of the County.
CONCLUSION
Judge Wigenton’s decision did not evidence an abuse of discretion, plain
error, nor did she make a clear mistake in her interpretation of the facts of this case.
She properly found that ECPO’s return to work policy does not provide for
individualized or categorical exemptions on secular grounds, and that a nation-wide

26
- App. 243 -

31 of 35

Case: 21-2684

Document: 7-1

Page: 32

Date Filed: 09/20/2021

and particularly state-wide shutdown of businesses, government agencies, and courts
- which all turned to remote schedules - does not constitute a mechanism for
exemptions that discriminates against religious activities. Nor could Appellant
demonstrate that he was entitled to a presumption of irreparable harm because the
ECPO did offer several accommodations to Appellant and thus Defendants’ return
to work policy was not solely prohibitive of Appellant’s religious practice.
Appellant has not shown a likelihood of success on the merits of his
constitutional or NJLAD claims, and cannot demonstrate irreparable harm.
Accordingly, Appellees respectfully submit to this Court that the District Court
opinion denying Appellant’s motion for a preliminary injunction be affirmed.
Respectfully submitted,
GENOVA BURNS LLC

Dated: September 20, 2021

/s/'Kathleen Barnett Einhorn
Kathleen Barnett Einhorn, Esq.
494 Broad Street
Newark, New Jersey 07102
Tel: (973) 533-0777
Fax: (973) 533-1112
Attorneys for Appellees, Essex
County Prosecutor’s Office,
Theodore Stephens II, Romesh Sukhdeo,
Gwendolyn Williams, & Roger Imhof

27

- App. 244 -

32 of 35

Case: 21-2684

Document: 7-2

Page: 1

Date Filed: 09/20/2021

CERTIFICATE OF BAR MEMBERSHIP
The undersigned hereby certify that they are members of the Bar of the
United States Court of Appeals for the Third Circuit.

s/Kathleen Barnett Einhorn
Kathleen Barnett Einhorn, Esq.

CERTIFICATE AS TO VIRUS SCAN
I certify that the electronic submission was subjected to a virus scan by
Security Manager AV Defender.
s/Kathleen Barnett Einhorn
Kathleen Barnett Einhorn, Esq.

CERTIFICATION OF IDENTICAL COMPLIANCE OF BRIEFS
The undersigned certifies that the text of the electronically filed brief is
identical to the text in the paper copies.

s/Kathleen Barnett Einhorn
Kathleen Barnett Einhorn, Esq.

- App. 245 -

33 of 35

Case: 21-2684

Document: 7-2

Page: 2

Date Filed: 09/20/2021

CERTIFICATION OF WORD COUNT
This brief contains 6324 words, excluding the parts of the brief exempted.
This brief complies with the typeface requirements and the type style
requirements of because this brief has been prepared in a proportionally spaced
typeface using Word Microsoft 365 in Times New Roman font, type 14 point.

s/Kathleen Barnett Einhorn
Kathleen Barnett Einhorn, Esq.
Dated: September 20, 2021

CERTIFICATE OF SERVICE

- App. 246 -

34 of 35

Case: 21-2684

Document: 7-2

Page: 3

Date Filed: 09/20/2021

I hereby certify that on this 20th day of September 2021,1 electronically filed
the foregoing Brief of Defendants, Essex County Prosecutor’s Office, Theodore
Stephens II, Romesh Sukhdeo, Gwendolyn Williams, and Roger Imhof, using the
Court’s CM/ECF system, that an original and six (6) paper copies of the Brief were
delivered to the Clerk’s Office and that two (2) paper copies of this Brief were also
served by Overnight U.S. Mail upon:

Alex G. Leone
PO BOX 1274
Maplewood, New Jersey 07040
aleone@i d 16 .law.harvard. edu\

s/Kathleen Barnett Einhorn
Kathleen Barnett Einhorn, Esq.
GENOVA BURNS LLC
494 Broad Street
Newark, New Jersey 07102
(973)533-0777
Attorneys for Counsel for
Appellee/Defendant, Essex County
Prosecutor’s Office, Theodore Stephens II,
Romesh Sukhdeo, Gwendolyn Williams, and
Roger Imhof
Dated: September 20, 2021
#16120287 (1582.132)

- App. 247 -

35 of 35

Case: 21-2684

Document: 9

Page: 1

Date Filed: 09/22/2021

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
ECO-036-E
No. 21-2684
ALEX G. LEONE,
Appellant
v.
ESSEX COUNTY PROSECUTOR OFFICE;
THEODORE STEPHENS, II;
ROMESH SUKHDEO; GWENDOLYN WILLIAMS;
ROGER IMHOF, in their individual and official capacities
(D.N.J. No. 2-21-cv-12786)
Present: KRAUSE and PORTER, Circuit Judges
1. Emergency Motion Appellant for an Injunction Pending Appeal under Fed. R.
App. P. 8, with Request for Oral Argument on the Motion and Permission to
file Overlength Motion;
2. Addendum by Appellant to Motion for Injunction containing District Court
Documents Referenced in Motion;
3. Response by Appellant in Opposition to Emergency Motion Appellant for an
Injunction Pending Appeal under Fed. R. App. P. 8, with Request for Oral
Argument on the Motion and Permission to file Overlength Motion;
4. Reply by Appellant In Support of Emergency Motion for an Injunction
Pending Appeal under Fed. R. App. P. 8.
Respectfully,
Clerk/pdb
ORDER
Appellant’s request to file an overlength emergency motion for injunction pending
appeal is granted. Appellant’s emergency motion for injunction pending appeal is denied
in all other respects.

- App. 248 -

Case: 21-2684

Document: 9

Page: 2

Date Filed: 09/22/2021

By the Court,
s/ Cheryl Ann Krause
Circuit Judge
Dated: September 22, 2021
PDB/cc: All Counsel of Record

- App. 249 -

Case 2:21-cv-12786-SDW-ESK Document 29 Filed 09/23/21 Page 1 of 2 PagelD: 347

NOT FOR PUBLICATION

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY

ALEX G. LEONE,
Plaintiff,

Civil Action No. 21-12786 (SDW) (ESK)

v.

ESSEX COUNTY PROSECUTOR’S
OFFICE, THEODORE STEPHENS II,
ROMESH SUKHDEO, GWENDOLYN
WILLIAMS, and ROGER IMHOF,

ORDER

Defendants.

September 23, 2021

WIGENTON, District Judge.
This matter, having come before this Court on Plaintiff Alex G. Leone’s (“Defendant”)
Motion for Preliminary Injunction Pending Appeal (the “Motion”), and this Court having
considered the parties’ submissions, for the reasons stated in this Court’s Opinion dated September
23,2021,
IT IS on this 23rd day of September, 2021
ORDERED that Plaintiffs Motion (D.E. 20) is DENIED.
SO ORDERED.
/s/ Susan D. Wigenton
1
-App. 250-

Case 2:21-cv-12786-SDW-ESK Document 29 Filed 09/23/21 Page 2 of 2 PagelD: 348

SUSAN D. WIGENTON, U.S.D.J.
Orig:

Clerk
Edward S. Kiel, U.S.M.J.
Parties

2
-App. 251-

